No. _________
IN THE
Supreme Court of the United States
—————♦—————
In re
THE LAW OFFICES OF NINA RINGGOLD AND
NINA RINGGOLD, Petitioners,
—————♦—————
On Petition for a Writ of Mandamus to
the California Court of Appeal Second
Appellate District
—————♦—————
APPENDIX TO
PETITION FOR A WRIT OF MANDAMUS
—————♦—————
NINA R. RINGGOLD
Counsel of Record
LAW OFFICES OF NINA R. RINGGOLD
17901 Malden St.
Northridge, CA 91325
Telephone: (818) 773-2409

i
INDEX TO APPENDICES
Appendix A: July 10, 2019 Judgment Of The
California Court Of Appeal Second Appellate
District. (Case Nos. B248667, B250084, B256763,
B261032) .................................................................... 1
Appendix B: August 28, 2019 California
Supreme Court Order Denying Petition For
Review And Application For Stay (Case No.
S257525). .................................................................. 76
Appendix C: August 5, 2019. California Court
Of Appeal Order Denying Petition For Rehearing,
Request For Judicial Notice, And Request For
Disqualification (Case Nos. B248667, B250084,
B256763, B261032)................................................... 78
Appendix D: July 25, 2019. Petition For
Rehearing And Request For Stay (Case Nos.
B248667, B250084, B252461, B256763,
B261032, B268792)................................................... 80
Appendix E: July 25, 2019. Motion To
Disqualify/Request For Recusal (Case Nos.
B248667, B250084, B252461, B256763,
B261032, B268792)................................................. 102
Appendix F: July 25, 2019. Request For
Judicial Notice (Excluding Exhibits) (Case Nos.
B248667, B250084, B252461, B256763,
B261032, B268792)................................................. 107

ii
Appendix F1: July 25, 2019. Exhibit 1 To
Request For Judicial Notice –
September 15, 2011 Notice Of Removal Of
Action Under 28 U.S.C. § 1441 (b) By The Rule
Company Incorporated (11-cv-7653-ODW,
Judge Otis Wright (Initially Assigned Judge On
Removal) ................................................................. 116
Appendix F2: July 25, 2019. Exhibit 1 To
Request For Judicial Notice –
September 15, 2011 Excerpt Of June 17, 2011
Complaint Of Cornelius Turner Attached To
Removal Petition .................................................... 120
Appendix F3: July 25, 2019. Exhibit 4 to
request for judicial notice –
September 27, 2011 Transfer Order With
Signature Line Bearing The Name Of
Judge Valerie Baker Fairbank With Signature
Of Judge (Judge Percy Anderson). Judge Valerie
Fairbank (Initial and Pending
Case, Case No. 10-05435-VBF) And Judge Otis
Wright (Returned Case On Rule Removal,
Case No. 11-cv-7653-ODW) .................................... 163
Appendix F4: July 25, 2019. Exhibit 8 To
Request For Judicial Notice –
February 20, 2014 Certification Of Interested
Parties Filed In The Federal Court With
Admission That Judges Of The Los Angeles
Superior Court, Justices Of The California
Court Of Appeal For The Second Appellate

iii
District, The Supreme Court And California
Judicial Council, And Others Had General
And Financial Interest In The Legal Issues
Raised By The Voting Rights Case And
Persons Involved In The Issues Raised In
That Case. (13-cv-04621-SI) .................................. 167
Appendix F5: July 25, 2019. Exhibit 9 To
Request For Judicial Notice – July 19, 2016
Order Consolidating Appeals And Vacating
Oral Argument Previously Set For
August 11, 2016 (Case Nos.
B248667, B250084, B256763, B261032,
B268792) ................................................................. 173
Appendix F6: July 25, 2019. Exhibit 9 To
Request For Judicial Notice – May 9, 2019
Request For Recusal Filed By Cornelius Turner
Prior To Death And Prior To Oral Argument;
And Adopted And Incorporated Into His
Counsel’s Separate Motion After Death
(Case Nos. B248667, B250084, B252461,
B256763, B261032, B268792) ............................... 175
Appendix G: November 23, 1983. Attorney
General Formal Opinion Regarding
Construction And Interpretation Of California
Constitution Art. § 17. ........................................... 184
Appendix H: November 8, 1988. Excerpt
From California Ballot Pamphlet For General
Election On November 8, 1988 ............................. 212

iv
Appendix I: November 10, 1988. Legal
Opinion Letter Of Counsel For The County
Of Los Angeles To Executive Officer And
Clerk Of The Superior Court Of The County
Of Los Angeles In Conflict With Constitution
Amendment Passed By Voters In The
November 8, 20188 General Election while
case of Garza v. County of Los Angeles, 918
F.2d 763 (9th Cir. 1990) pending and not yet
decided ................................................................... 222
Appendix J: April 3, 2009. Confidential
Opinion Of The California Commission On
Judicial Performance Delivered To Edmund G.
Brown, Jr. .............................................................. 232
Appendix K: December 10, 2010. Decision
And Judgment In Case Candace Cooper v.
Controller of the State of California et al. (Los
Angeles Superior Court Case No.BC425491)........ 265
Appendix L: May 23, 2011. Confidential
Opinion Of The California Commission On
Judicial Performance Delivered To Kamala
Harris ...................................................................... 317
Appendix M: March 28, 2012. California
Supreme Court Denial Of Petition For Review
In Case of Candace Cooper v. Controller of the
State of California et al. (Cal. Supreme Court
Case No. S200215) .................................................. 337

v
Appendix N: August 14, 2014 Request for
Depublication of Arthur Gilbert v. John
Chiang, As State Controller, Etc. In The
California Supreme Court By Members Of
The Voting Rights Case And Others Served
On Elwood Liu, Esq.As Counsel For Current
Justice Of The California Court Of Appeal
For The Second Appellate District
(Excluding Exhibits) (Cal. Supreme Court
Case No. S220748) ................................................. 338
Appendix O: May 2, 2017. CJEO Formal
Opinion 2017-011 (2017) Judicial Service On
A Nonprofit Charter School Board, California
Supreme Court Committee On Judicial
Ethics Opinion (Addressing Interpretation
Of California Constitution Art. IV § 17) ............... 352
Appendix P: Pertinent California Authorities:
Cal. Const. Art. VI §§ 17, 21; Cal. Gov. Code §
53200.3 (deemed unconstitutional), California
Rule of Court, Rule 3.300(a), and Los Angeles
Superior Court Local Rule 3.22 ............................. 383

App.1
APPENDIX A
Filed 7/10/19
NOT TO BE PUBLISHED IN THE OFFICIAL
REPORTS
California Rules of Court, rule 8.115(a), prohibits
courts and parties from citing or relying on opinions
courts and parties from citing or relying on opinions
not certified for publication or ordered published for
purposes of rule 8.111(a)
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA SECOND APPELLATE DISTRICT
DIVISION FOUR
LISA TURNER et al.,
Plaintiffs and Appellants,
v.
THE RULE COMPANY et al.,
Defendants and Respondents.
_____________________
B248667, B250084,
B261032
(Los Angeles County Super. Ct. No. BC463850)

App.2

LISA TURNER et al.,
Plaintiffs and Appellants,
v.
HARTFORD CASUALTY
INSURANCE COMPANY,
Defendant and Appellant;
THE RULE COMPANY et al.,
Defendants and Respondents
_____________________
B256763
(Los Angeles County Super. Ct. No. BC463850)
CONSOLIDATED APPEALS from judgments and
orders of the Superior Court of Los Angeles County,
Yvette M. Palazuelos, Judge. Affirmed.
Law Offices of Amy P. Lee and Amy P. Lee for
Plaintiffs and Appellants Marian Turner and Lisa
Turner.
Law Offices of Nina R. Ringgold and Nina R.
Ringgold for Plaintiff and Appellant Cornelius
Turner.

App.3
Cozen O’Connor, Gilcrist & Rutter, Frank
Gooch III and Carolyn Alifragis, for Defendant and
Respondent The Rule Company, Inc.
Smith Ellison, Michael W. Ellison and Susan
L. Goodkin, for Respondent Craig Ponci and CrossAppellant Hartford Casualty Insurance Company.
Soltman, Levitt, Flaherty & Wattles and
Philip E. Black for Defendant and Respondent
Thornhill & Associates, Inc.
INTRODUCTION
On July 24, 2008, plaintiff and appellant
Lisa Turner (LTurner) was seriously injured in a
fall in the shower of the Los Angeles home owned
by her parents, plaintiffs and appellants Marian
Turner (MTurner) and Cornelius Turner
(CTurner). The shower stall glass was not
tempered. 1 and the lacerations required the
amputation of one arm.

Appellants refer to themselves MTurner, and CTurner,
and we will maintain these individually as LTurner,
designations. We refer to appellants collectively as the
Turners. LTurner’s sister, Dorian Turner, was also an
owner of the home and for a time was a defendant in the
federal litigation. She is not a party to these proceedings.

1

App.4
The litigation arising out of LTurner’s
accident and pre- and post-accident insurance
coverage issues has spanned many years and
gone back and forth between the federal and
state court systems, as well as up and down
the appellate ladders in both. The Turners
sued a number of parties. A final judgment
was entered on April 25, 2016; every
defendant prevailed.
In these consolidated appeals, we dismiss
several purported appeals taken from
nonappealable orders and affirm the following:
monetary discovery sanctions payable to
respondent The Rule Company (Rule); judgments
in favor of Rule, Craig Ponci, and Thornhill &
Associates, Inc. (Thornhill); and the
postjudgment order awarding Rule costs as the
prevailing party. We also grant Rule’s motion for
sanctions for a frivolous appeal in case number
B256763. (Cal. Rules of Court, rule 8.276). We
assess sanctions jointly and severally against
counsel for appellants, the Law Offices of Nina
R. Ringgold and Nina R. Ringgold, the Law
Offices of Amy P. Lee and Amy P. Lee, in the
sum of $21,366; payable to Rule, and in the
additional sum of $8,500, payable to the clerk of
this court.

App.5
These matters were argued and
submitted for decision on May 10, 2019. On
June 13, 2019, counsel for CTurner advised this
court that her client had died; she requested a
stay pending appointment of a personal
representative. To date, no notice of
appointment has been received. As these
appeals were already under submission,
however, a stay is not required. Pursuant to this
court’s inherent power, and because there is no
prejudice to any party, this opinion is deemed
filed nunc pro tunc, effective May 13, 2019. (See
McPike v. Heaton (1900) 131 Cal. 109, 111.) For
the purpose of all post-appeal matters, time
shall run from July 10, 2019.
PROCEDURAL OVERVIEW

I.

Federal Lawsuits
This litigation began in federal court.
Because one of appellants’ jurisdictional
challenges to state court proceedings is based on
orders and decisions made in the federal forum,
we outline the federal proceedings in some
detail. Our sources for these facts include
petitions for extraordinary relief filed by
appellants in this court, an unpublished opinion
in LTurner’s state court personal injury action

App.6
(Turner v. Turner (Sept. 19, 2013, B241264)
[nonpub. opn.] (Turner I)), various orders in the
United States District Court, and an
unpublished per curiam opinion by the United
States Court of Appeals for the Ninth Circuit
(Ninth Circuit) (In re Hartford Litigation Cases
(2016) 642 Fed.Appx. 733):
On July 22, 2010, Californian LTurner
sued her father, Mississippian CTurner, for
personal injuries in the United States District
Court for the Central District of California.
LTurner soon added her mother and sister, also
residents of Mississippi, as defendants.
CTurner initiated a third party complaint
against Hartford Casualty Company, his
homeowner’s insurer; Craig Ponci, Hartford
claims adjuster; Rule, the independent insurance
broker that arranged for coverage through
Hartford; Rule employees Nadja Silletto, Norma
Pierson, Tony Gaitan, and Elaine Albrecht;
Thornhill & Associates, Inc., the insurance
adjusting company retained by Rule to
investigate LTurner’s claim; and Western Surety
Company.2 Together, LTurner and MTurner filed
It is not clear from the record, but it appears Western Surety
Company was the Turners’ homeowner’s insurance carrier
before Hartford. Western is not a party to these proceedings.

2

App.7
their own third party complaint against the same
third party defendants.
The two third party complaints initially
asserted only state law claims; the federal court
characterized “the primary dispute” as whether
the third party defendants were required to
provide insurance coverage for LTurner’s
accident. The federal court accepted pendent
jurisdiction over both third party complaints.
In April 2011, LTurner presented the
federal district court with a stipulation for entry
of judgment against MTurner in the amount of
$4.1 million and a dismissal of the complaint
against Dorian Turner. The proposed judgment
did not address LTurner’s allegations against
her father, however; and the federal trial judge
declined to sign it. Third party defendants
Hartford and Ponci also objected, contending
the proposed stipulated judgment was collusive
and not reasonable.
In reviewing the stipulation, the federal
trial judge noted the third party complaints
alleged state law claims against California
entities and individuals and involved “complex
issues that [were] far from being resolved.”
Although the personal injury suit was based on
diversity jurisdiction, the pendent claims were

App.8
not; and they appeared to “substantially
predominate” over the personal injury
allegations. The federal trial judge scheduled a
hearing to determine whether the parties
should be realigned and the entire matter
dismissed for lack of diversity jurisdiction.
In response, the Turners filed an amended
third party complaint that added federal
discrimination causes of action. On May 19,
2011, the federal district court realigned the
parties and dismissed LTurner’s personal injury
action without prejudice to her filing a state
court personal injury lawsuit. (Turner I, supra,
B241265, at p. 4.)
The two third party complaints were
consolidated under one case number and
remained in federal court. Appellants then
voluntarily dismissed the federal claims. With
only state claims remaining, the federal court
dismissed the consolidated third party complaint
on November 10, 2011, also without prejudice to
the Turners’ pursuing the claims in state court.
This order momentarily ended litigation in the
federal district court.

II.

State Court Litigation
Meanwhile, appellants already had begun
filing lawsuits in the Los Angeles County

App.9
Superior Court. On June 17, 2011, while the
federal third party complaints were still
pending, CTurner filed a similar action here,
against the same defendants, alleging state and
federal claims (Turner v. Hartford, Super. Ct.
Los Angeles County, 2011, No. BC463639).
Three days later, on June 20, 2011, two new
state court actions were filed: LTurner sued for
her personal injuries (Turner v. Turner, Super.
Ct. Los Angeles County, 2011, No. BC463103)
and all three Turners initiated this lawsuit
(Turner v. Hartford, Super. Ct. Los Angeles
County, 2011, No. BC463850), which mirrored
the state claims in the still pending federal third
party complaints, as well as the CTurner
complaint filed three days earlier. Rule removed
only the CTurner lawsuit (case no. BC463639) to
federal court.
On December 6, 2011, one month after the
federal court dismissed the consolidated third
party complaint, the Turners filed a first
amended complaint (FAC) in this action. Two
other events occurred the same day: LTurner
and MTurner initiated yet another lawsuit
against the same defendants based on the same
allegations as in this action (Turner v. Hartford,
Super. Ct. Los Angeles County, 2011, No.

App.10
BC474698), and CTurner voluntarily dismissed
without prejudice his lawsuit that had been
removed to federal court (case no. BC263639).
After CTurner voluntarily dismissed his
individual state court complaint, notices of
related cases were filed in the trial court.3
LTurner soon proposed to resolve her
state court personal injury action on the same
terms she presented to the federal district
court. By ex parte application, a superior court
judge signed the $4.1 million stipulated

The notices of related cases complied with rule 3.300(a)
of the California Rules of Court: “A pending civil case is
related to another pending civil case, or to a civil case
that was dismissed with or without prejudice . . . if the
cases: [¶] (1) Involve the same parties and are based on
the same or similar claims; [¶] (2) Arise from the same or
substantially identical transactions, incidents, or events
requiring the determination of the same or substantially
identical questions of law or fact.” All state court actions
were assigned to one department. Appellants maintain
this case is really “two cases [that] remain separate and
were consolidated for pre-trial proceedings while the
cases were pending in the United States District Court.”
The Turners have not explained this statement or why
they filed three separate state court actions, in addition to
the personal injury lawsuit, other than to suggest the
federal judge ordered them to do so. But the United
States District Court made no such order; it did no more
than dismiss the federal actions without prejudice to
appellants’ initiating a state court action. (See fn. 5.)

3

App.11
judgment the federal court previously rejected.
Hartford moved to vacate the stipulated
judgment, but the superior court denied the
4

motion.
The FAC in this action included 19 causes
of action against eight defendants5: Hartford and
its claims adjuster Ponci; Rule and Rule
employees Silletto, Pierson, Gaitan, and

Our colleagues in Division Three reversed this
ruling, reviving LTurner’s personal injury action.
(Turner I, supra, B241265) [nonpub. opn.].)

4

Appellants’ appendix does not include the original
complaint in this action. The Turners filed a second
“first amended complaint” in this case on June 22,
2012. The trial court struck this pleading on June
29, 2012, the date of the hearing on defendants’
demurrers to the FAC. The caption page for the
stricken pleading differed from the earlier first
amended complaint; it read, “First Amended
Complaint Following Consolidation Order of United
States District Court for the Central District.” This
statement, although accurate, is a bit misleading.
The federal judge consolidated the separate third
party complaints and ordered the filing of a single
consolidated third party complaint in that forum.
The federal consolidated complaint was
subsequently dismissed without prejudice to
appellants initiating a state court action. The
federal judge never ordered the filing of a
consolidated lawsuit in state court.

5

App.12
Albrecht; and Thornhill. This pleading was more
than 100 pages long and contained 469
paragraphs. There were two distinct aspects to
the lawsuit: The Turners alleged racial
discrimination, bad faith, and various torts as a
result of (1) conduct that predated the Hartford
homeowner’s policy; (2) the issuance, annual
renewals, and eventual nonrenewal of the
Hartford policy; and (3) the investigation of
LTurner’s accident.
Specifically, the FAC alleged MTurner
and CTurner purchased the property in 1989.
Rule and Silletto provided insurance brokerage
services for the Turners from the time they
purchased the home. In October 2004, Siletto
and Rule “changed insurance carriers for the
property to Hartford.” At some point, not
specified, Rule advised MTurner and CTurner
that they were being overcharged for the
Hartford policy.
As noted, LTurner’s accident occurred on
July 24, 2008. Grace Farrell reported the
accident to Rule on August 13, 2008.6. Farrell
also provided Ponci with LTurner’s medical
records.
The pleading does not explain Farrell’s relationship to the
Turners.

6

App.13
For her part, MTurner alleged she
“assigned all rights and interest in [her] claims
and causes of action of any possible nature, past
and future, against [Hartford, Rule, Thornhill] .
. . any individual, and/or any third party that
are transferrable by law to LTurner.” Most of
the post-accident allegations concerned conduct
by Hartford, Rule, and Rule employees. Very
few allegations involved Ponci or Thornhill.
Ponci was alleged to have written a letter to
MTurner and CTurner “falsely claiming that
LTurner presented a claim to Hartford on
August 13, 2008.” Thornhill was alleged to have
been retained and “used” by Rule. Thornhill
staff photographed LTurner and her home, even
though Thornhill knew “[LTurner] had not
signed a claimant designation and there was not
then a claim pending.”
Defendants demurred to the FAC. The
demurrers were sustained without leave to
amend as to six causes of action and with
leave to amend as to the remaining causes of
action.
The Turners filed a true second amended
complaint (SAC) in this action on August 1,
2012. (See fn. 5.) Defendants again demurred.
This time the trial court sustained the

App.14
demurrers without leave to amend as to all
causes of action against Ponci and Thornhill,
and the trial court ordered the dismissal of
those parties. Appellants appealed (case no.
B248667).
Demurrers by Hartford, Rule, and Silletto
to the causes of action in the SAC for mistake,
reformation, broker negligence, breach of
contract, and breach of the covenant of good
faith and fair dealing were sustained with leave
to amend. The Turners filed a third amended
complaint against those parties.7 The third
amended complaint remained the operative
pleading until judgments were entered in
defendants’ favor. Appellants appealed from
these judgments (case nos. B252461, B256763,
B268792).
As vigorous as the pleading challenges
were, they were secondary to the discovery
clashes that began soon after the litigation moved
to state court. On June 17, 2013, the trial court
denied appellants’ request for a protective order;
Appellants purported to add Ponci and Thornhill as
defendants in three of the third amended complaint’s causes of
action. The effort was for naught, as the trial court had already
sustained their demurrers to the SAC without leave to amend
and signed orders dismissing these two respondents with
prejudice.

7

App.15
granted Rule’s discovery motions to compel
further responses, without objection, to form and
special interrogatories, a request to produce
documents, and requests for admission; granted
in part and denied in part Rule’s motion to
compel plaintiffs to attend their depositions; and
assessed $6,304.31 in joint and several monetary
sanctions against appellants and their counsel.
Appellants filed a notice of appeal challenging
each of these orders (case no. B250084).
Appellants failed to comply with the
discovery orders. Instead, they filed a number of
petitions for extraordinary relief in this court.
Rule eventually moved for terminating sanctions.
Hartford filed a request for joinder.
Before Rule’s motion could be heard,
appellants removed the lawsuit to federal court.
The federal district court remanded this action;
appellants unsuccessfully appealed from that
order (In re Hartford Litigation Cases, supra, 642
Fed.Appx. at p.733). The Turners also sought to
disqualify the trial judge (§ 170.1). In support of
the statement of disqualification, CTurner
submitted a declaration stating he was a
defendant in this action. The trial judge struck
the statement of disqualification. Appellants
challenged this order with another petition for

App.16
extraordinary relief (§ 170.3, subd. (d)), which
this court (case no. B255209), the California
Supreme Court (case no. S271912), and the
United States Supreme Court (case no. 14-224)
summarily denied.
The trial court granted the motion and
dismissed the litigation against Rule as a
terminating sanction for not obeying the earlier
discovery orders. The trial court denied
Hartford’s request for joinder. Appellants and
Hartford appealed (case no. B256763).
As the prevailing party, Rule sought costs.
Appellants filed a motion to strike or tax costs.
On October 27, 2014, the trial court awarded
Rule $8,171.55 in costs. Appellants appealed
from this order (case no. B261032).
The final judgment in this matter was
entered April 25, 2016. Appellants filed a
notice of appeal (case no. B278508).
On our own motion, we ordered the
appeals in case numbers B248667, B250084,
B256763, B261032, and B268792 consolidated
for the purposes of oral argument and decision.

III.

Dismissed Appeals
A number of the Turners’ appeals
already have been dismissed. They are as
follows:

App.17

A.

Case number B252461
In this appeal, the Turners challenged the
order dismissing Rule employees Silletto, Pierson,
Gaitan, and Albrecht. Appellants failed to file a civil
case information statement, and we dismissed the
appeal. We denied appellants’ motion for relief from
default; the remittitur issued.

B.

Case number B261032 (partial
dismissal)
Appellants filed two notices of appeal
under this case number.8 In the second, filed
January 20, 2015, appellants claimed the trial
court erred on November 19, 2014, when it
sustained demurrers to the Turners’ crosscomplaint, which duplicated in many respects
allegations in the FAC and SAC that previously
had been dismissed. We dismissed that appeal on
March 23, 2015, after appellants failed to
designate the record on appeal.
The dismissal order provided that any
request to reinstate the appeal must be made by
motion filed within 15 days. No such motion was

The first notice of appeal, filed December 29, 2014, challenged
the October 27, 2014 denial of appellants’ motion to strike or
tax costs claimed by Rule. That appeal is active, and we address
it in part VI of the Discussion, post.

8

App.18
filed within that time frame; the remittitur
issued May 27, 2015.
Almost a year later, appellants moved to
recall the remittitur for that portion of the
appeal based on the order sustaining defense
demurrers to the Turner cross-complaint. We
denied the motion on May 17, 2016.
Nonetheless, in their opening brief in case
number B261032, appellants belatedly insist
they filed the form designating the record for the
second appeal. We granted appellants’ request
for judicial notice of a series of documents
related to this dismissed appeal. Exhibits 5 and
6 establish that appellants designated the record
only for the first notice of appeal.

C.

Case number B268792
This appeal challenged the summary
judgment in Hartford’s favor. It was included in
our consolidation order, but subsequently
dismissed on September 8, 2016, based on
appellants’ failure to file an opening brief. We
denied appellants’ motion to reinstate the
appeal; the remittitur issued.

D.

Case number B278508
Here, the Turners appealed from the final
judgment entered April 25, 2016, as well as all
interim orders. The appeal was dismissed for

App.19
appellants’ failure to file an opening brief. The
remittitur issued on September 14, 2017.
DISCUSSION

I.

This Court Is Without
Jurisdiction to Entertain
Purported Appeals from
Nonappealable Orders
“An appealable judgment or order is
essential to appellate jurisdiction.” (Art Movers,
Inc. v. Ni West, Inc. (1992) 3 Cal.App.4th 640,
645 (Art Movers).) “[W]e are dutybound to
consider” appealability on our own motion.
(Olson v. Cory (1983) 35 Cal.3d 390, 398.) When
an appeal encompasses appealable and
nonappealable orders, we must dismiss the
notice of appeal from the nonappealable order.
(Martin v. Johnson (1979) 88 Cal.App.3d 595,
608.)
We begin our analysis with Code of Civil
Procedure sections 904.1 and 906.99 Section
904.1 “codifies the ‘one final judgment rule . . .
[which] is based on the theory that piecemeal
appeals are oppressive and costly, and that
optimal appellate review is achieved by allowing

All undesignated statutory references are to the Code of Civil
Procedure.

9

App.20
appeals only after the entire action is resolved
in the trial court.” (Art Movers, supra, 3
Cal.App.4th at 645.) on appeal from a final
judgment, section 906 authorizes reviewing
courts to review “any intermediate ruling . . .
which involves the merits or necessarily affects
the judgment.” The optimal efficiency of these
two provisions is easily lost when multiple
parties have been sued and their liabilities or
not are determined at different stages of the
litigation, frequently after a number of pivotal
interim rulings.
This lawsuit presents one such example.
Four appeals have already been dismissed in
their entirety, and one appeal has been partially
dismissed. Four consolidated appeals remain
(case nos. B248667, B250084, B256763,
B261032). Nevertheless, we do not have
jurisdiction over every order challenged in the
appeals. We asked the parties to file
supplemental briefs to address appealability.
(Gov. Code, § 68081.)

App.21

A.

No Appeal Lies from
Issuance of the Discovery
Order and Denial of A
Protective Order (case
no. B250084)
On June 17, 2013, fairly early in the state
court proceedings, the trial court made three
rulings adverse to appellants and in favor of
Rule. First, it denied appellants’ motion for a
discovery stay/protective order; second, it
granted many of Rule’s discovery motions; and
third, it imposed monetary discovery sanctions of
$6,304.31, jointly and severally against
appellants and their attorneys.
Only the monetary sanctions order is
appealable. (§ 904.1, subd. (a)(11), (12); RailTransport Employees Assn. v. Union Pacific
Motor Freight (1996) 46 Cal.App.4th 469, 475.)
We consider the merits of the sanctions award in
part IV of the Discussion, post. The purported
appeals from the two nonappealable orders must
be dismissed.
The order compelling appellants to
respond to discovery is not appealable.

10

Appellants did file a petition for extraordinary relief in this
court to contest the discovery order (case no. B249850). This
court summarily denied the petition, as did the California

10

App.22
(Montano v. Wet Seal Retail, Inc. (2015) 7
Cal.App.5th 1248, 1259 [“There is no statutory
provision for appeal of an order compelling
discovery”].) Although the discovery order would
have been reviewable on appeal from the final
judgment (Pacific Tel. & Tel. Co. v. Superior
Court of San Diego County (1970) 2 Cal.3d 161,
169; § 906), that appeal (case no. B278508) was
dismissed after appellants did not file an
opening brief.1111 The purported appeal from
the discovery order must be dismissed as having
been taken from a nonappealable order.
(Montano, at p 1260.)
The denial of appellants’ motion for a
protective order also is not appealable; review
of that order is available solely by way of a
petition for writ relief. (Dodge, Warren & Peters
Ins. Services, Inc. v. Riley (2003) 105
Cal.App.4th 1414, 1421 (Dodge, Warren).)
Appellants filed such a petition, and this court

Supreme Court (case no. S212280) and the United States
Supreme Court (case no. 13-605).
11 To the extent the discovery order was reviewable from the
judgment entered in Rule’s favor after the trial court granted
the motion for terminating sanctions, the Turners forfeited the
issue by failing to brief it. (Christoff v. Union Pacific Railroad
Co. (2005) 134 Cal.App.4th 118, 125.)

App.23
summarily denied it on July 11, 2013 (case no.
B249850).
In their opening brief, appellants seek to
establish appealability by arguing the request
for a protective order was actually a request for
a mandatory injunction that, once denied and
appealed, stayed the entire action and divested
the trial court of jurisdiction to proceed. (§ 904.1,
subd. (a)(6).). The argument is belied by the
record (see, e.g., appellants’ petition for writ
relief (B249850), where they describe the request
as one for a protective order, not an injunction)
and is not supported by any applicable authority.
Appellants did not respond to our request
for supplemental briefing on the appealability
question. Rule asserted the protective order is
not reviewable on appeal. For the reasons that
follow, we agree the purported appeal from the
denial of appellants’ request for a protective
order also must be dismissed as having been
taken from a nonappealable order.

1.

Background
Appellants first asked the trial court, by
ex parte application filed May 25, 2012, to stay
this action and issue a protective order to shield
them from responding to discovery propounded
by Rule. The request was denied without

App.24
prejudice to the filing of a noticed motion.
Appellants noticed that motion, specifically
asking for “a stay of the requirement to respond
to discovery prejudicial to its position in”
LTurner’s personal injury action and for a
protective order and the development of “a
coordinated discovery plan.” Appellants’
proposed order sought a stay and protective
order, but not injunctive relief. The trial court
concluded appellants did not satisfy their
burden for issuance of a protective order and
denied the request without prejudice.
Six months later, still not having
responded to discovery, appellants renewed their
motion for a discovery protective order, a
temporary stay pending approval of a discovery
coordination plan and completion of LTurner’s
personal injury action, and sanctions authorized
by discovery statutes. The caption page for the
motion did not request injunctive relief. The
motion recited that a proposed order granting a
protective order and temporary stay and
awarding sanctions under the discovery statutes
was attached. This summary of the proposed
order did not include injunctive relief, and the
proposed order itself was not included in
appellants’ appendix.

App.25
At a reported hearing on June 4, 2012,
CTurner’s counsel stressed the need for a
protective order to insulate appellants from
discovery while LTurner’s personal injury action
against her father was pending. Counsel did not
ask the trial court to issue an injunction, but she
sought a stay of any order granting Rule’s
discovery motions. The trial court responded
that any stay should come from the Court of
Appeal. The trial court again denied the request
for a protective order and stay, noting the motion
presented the “exact same legal and factual
arguments [appellants previously presented and
sought] the exact same forms of relief.”

2.

Analysis
As appellants assert, appealability
depends on the substance and effect of an order,
not its label. (Daugherty v. City and County of
San Francisco (2018) 24 Cal.App.5th 928, 942.)
Here, there is no disconnect between the
substance and effect of the trial court’s order and
its label. Appellants’ request in the trial court
was for issuance of a protective order and stay.
The notice of motion did not seek injunctive
relief, counsel did not argue for that remedy, and
the appellate record does not include any
document that could support the issuance of an

App.26
injunction (e.g., a verified complaint or
declaration demonstrating sufficient grounds;
see also § 657). Appellants’ writ petition to this
court sought redress for denial of the request for
a protective order, not injunctive relief (case no.
B249850).
The belated bid to recast a straightforward
protective order motion as an application for
injunctive relief-specifically, a mandatory injunctioncame after a series of setbacks and additional
adverse rulings in the trial court. It fails. (Dodge,
Warren, supra, 105 Cal.App.4th at p. 1421 [“denial of
a protective order is not appealable”]; see also
Scottsdale Ins. Co. v. Superior Court (1997) 59
Cal.App.4th 263.) Because the purported appeal from
this order never conferred jurisdiction in this court,
this portion of the appeal must be dismissed. (Art
Movers, supra, 3 Cal.App.4th at p. 645.)
We decline appellants’ alternative request
to treat the notice of appeal from the
nonappealable order denying appellant’s request
for a protective order as a second petition for
extraordinary relief. Once the final judgment
was entered in Rule’s favor, the need for a
protective order became moot.
Denial of Hartford’s Joinder Request Is
Not Appealable (case no. B256763)

App.27
Before Hartford obtained summary
judgment, it noticed an appeal from the trial
court’s denial of its request to join Rule’s
successful motion for terminating sanctions
(case no. B256763). Hartford’s statement of
appealability cited section 906, which authorizes
the review of intermediate rulings upon an
appeal from a final judgment. At the time
Hartford noticed its appeal, a final judgment
had been entered in favor of Rule, but not yet in
favor of Hartford. Accordingly, section 906 did
not authorize Hartford’s appeal.
In response to our Government Code
section 68081 letter, Hartford agreed this
appeal should be dismissed. We dismiss it as
having been taken from a nonappealable
order. (Art Movers, supra, 3 Cal.App.4th at p.
645.)

II.

Appellants’ Jurisdictional Challenges
Fail
In each appeal after the first one,
appellants serially and cumulatively raise
multiple challenges to the superior court’s
jurisdiction. Each is devoid of merit. As
discussed in part VII, post, we conclude all
reasonable attorneys would agree these
challenges are “totally and completely without

App.28
merit.” (In re Marriage of Flaherty (1982) 31
Cal.3d 637, 650 (Flaherty).)

A.

Trial Court
Retained
Jurisdiction After
Purported Appeal
from Order
Denying Protective
Order
Appellants maintain the purported
appeal from the nonappealable order denying
the request for a protective order automatically
stayed all litigation in the trial court. They are
incorrect. A notice of appeal from a
nonappealable order does not “depriv[e] the
trial court of the power to proceed further in
the cause pending the purported appeal.”
(Central Sav. Bank v. Lake (1927) 201 Cal. 438,
442; see Hearn Pacific Corp. v. Second
Generation Roofing, Inc. (2016) 247
Cal.App.4th 117, 146 [automatic stay applies
only when appeal is “‘duly perfected’”].)

App.29

B.

Trial Court Jurisdiction
Not Lost as a Result of
Appeal from the Orders of
Dismissal as to Ponci and
Thornhill
Appellants next contend their appeal
from the Ponci and Thornhill dismissals
automatically stayed all subsequent superior
court proceedings as to every other party.
Although this appeal was duly perfected,
appellants’ argument collapses under the
controlling language in section 916, subdivision
(a): “[With exceptions not pertinent here,] the
perfecting of an appeal stays proceedings in the
trial court upon the judgment or order appealed
from or upon the matters embraced therein or
affected thereby, including enforcement of the
judgment or order, but the trial court may
proceed upon any other matter embraced in the
action and not affected by the judgment or
order.” (Emphasis added.) Appellants cite no
relevant authority12and present no other

Appellants’ reliance on Varian Medical Systems, Inc. v.
Delfino (2005) 35 Cal.4th 180 is misplaced. Varian
addressed the limited issue of “whether ‘an appeal from
the denial of a special motion to strike under the antiSLAPP statute (§ 425.16) effects an automatic stay of the

12

App.30
argument to support their conclusion that
proceedings against parties other than Ponci
and Thornhill were “within the scope of the
stay.” (Cunningham v. Magidow (2013) 219
Cal.App.4th 298, 303.)
The orders of dismissal in favor of Ponci
and Thornhill did not affect the proceedings
against Rule; and none of the proceedings
against Rule “affected the effectiveness” of
appellants’ appeal as to the two dismissed
parties. (In re Marriage of Horowitz (1984) 159
Cal.App.3d 377, 381.) The trial court did not lose
jurisdiction to proceed further as to every party
other than Ponci and Thornhill.

trial court proceedings.’” (Id. at p. 188.) Davis v. Thayer
(1980) 113 Cal.App.3d 892, 912, also fails to support
appellants’ position. In Davis, the defendants appealed
from the denial of their motion to set aside a default and
default judgment. Several months later, the defendants
returned to the trial court with another motion to set
aside the default and default judgment. The Court of
Appeal held the trial court’s ruling on the second motion
was a nullity; the pending appeal deprived the trial court
of jurisdiction to consider any issue related to the default
and default judgment. (Id. at p. 912.)

App.31

C.

Absence of Remand Order
in Related Case Dismissed
by CTurner Did Not
Deprive Trial Court of
Jurisdiction in this Action
As discussed above, litigation against the
defendants began in the United States District
Court, where appellants initiated a number of
actions. All were dismissed without prejudice,
entitling appellants to pursue the same theories
in state court. Appellants initiated three such
state court actions: The first was filed by
CTurner (Turner v. Hartford, Super. Ct. Los
Angeles County, 2011, No. BC463639) on June
17, 2011; the second was this lawsuit, filed by all
the Turners on June 20, 2011; and the third was
filed by LTurner and MTurner on December 6,
2011 (Turner v. Hartford, Super. Ct. Los Angeles
County, 2011, No. BC474698). Rule removed
only the CTurner action to federal court. The
superior court subsequently determined all three
actions were related. (See fn. 3, ante.)
Because the appellate record does not
demonstrate that the entirely separate CTurner
lawsuit was ever remanded back to the superior
court, appellants insist the trial court had no
jurisdiction to proceed with this action.

App.32
Appellants cite no authority for the proposition
that the federal court’s failure to remand one
lawsuit deprives a trial court of jurisdiction to
proceed with a different action.
More to the point, though, the record
establishes the argument is frivolous. CTurner
voluntarily dismissed his state court action on
December 6, 2011, the day the Turners filed the
FAC in this lawsuit. CTurner confirmed the
voluntary dismissal of his lawsuit in a separate
December 6, 2011 filing, the “Report for NonAppearance Case Review.”1313 CTurner’s
affirmative act of dismissing his state court
action meant there was no longer a state court
action the federal court could remand.
Nonetheless, appellants have promoted this
argument at every opportunity, without once
acknowledging that CTurner’s voluntary
dismissal made a remand legally and practically
impossible.

Having granted appellant’s request for judicial notice of the
superior court case summary for CTurner’s lawsuit, we also
take judicial notice of these two documents described therein.

13

App.33

D.

Trial Court Did Not Lose
Jurisdiction Based on
“Judicial Disqualification”
and “Acceptance of Public
Employment” Arguments
In the trial court and in their briefs here,
appellants repeatedly conflate disparate
concepts to urge that the superior court as a
whole, and the trial judge in particular, could
not exercise jurisdiction in this lawsuit. They
include a truncated discussion of the benefits the
County of Los Angeles provides to all superior
court judges within its jurisdiction, a Los
Angeles County Superior Court’s policy to
require civil litigants to furnish their own court
reporters, the ability of retired judges to engage
in post-retirement public employment, and a
failure to disclose and obtain appellants’
informed consent before assuming jurisdiction
over them and this action.
At the reported hearing on Rule’s motion
for terminating sanctions, CTurner’s counsel
articulated the argument as follows: “[A]fter
Sturgeon I [Sturgeon v. County of Los Angeles
(2008) 167 Cal.App.4th 630] was decided, it was
deemed that the judges in the County of Los
Angeles have public employment. And,

App.34
therefore, under the California Constitution[,]
article [VI], section 17, that means that there is a
resignation of office. [¶] . . . But what SBX-211
section 5 does is it shields the judge from
criminal penalties and disciplinary action based
on whatever judicial benefits they have received.
[¶] . . . What the Turners are challenging . . . is . .
. that they need . . . disclosure and consent under
[the] California Constitution[,] article [VI],
section 21 because upon acceptance of public
employment or office, there is a requirement to
comply with the constitutional requirements.”
The superior court described these
arguments as “perplexing.” Appellants
presented the same arguments in federal court
after one of their removals of this action, and
the Ninth Circuit labeled them “nonsensical.”
(In re Hartford Litigation Cases, supra, 642
Fed.Appx. at p. 736). This court has not
previously addressed these contentions,
although appellants advanced them in two
petitions for writ relief, both of which we
summarily denied.14 Addressing the contentions
now, we agree with our fellow jurists.
See case numbers B254756 and B255209. The California
Supreme Court also summarily denied review of both these
petitions (case nos. S217406, S217912). The United States

14

App.35
Appellants’ written arguments are
indecipherable. Their effort to cobble together
what are essentially “sound bites” from diverse
and unrelated lawsuits, legislation, opinions by
the Commission on Judicial Performance, and a
number of noncitable sources (Cal. Rules of
Court, rule 8.1115), fail to meld into any cogent
argument. Appellants’ arguments depend in large
part on documents the trial court and this court
declined to judicially notice. Their postulations
are not supported by record citations or apt
authority. “We are not required to examine
undeveloped claims or to supply arguments for
the litigants[;] . . . it is not the court’s function to
serve as the appellant’s backup counsel.” (Allen v.
City of Sacramento (2015) 234 Cal.App.4th 41, 52
(Allen); see also (Orange County Water Dist. v.
Sabic Innovative Plastics US, LLC (2017) 14
Cal.App.5th 343, 383 [“‘The absence of cogent
legal argument or citation to authority allows
this court to treat the contention as waived’”]
(Sabic).)
Having rejected appellants’
jurisdictional challenges, we turn to
substantive appellate issues.
Supreme Court denied appellant’s petition for writ of certiorari
challenging the denial of the second petition (case no. 14-224).

App.36

III.

Demurrers by Ponci and
Thornhill (case no.
B248667)
Here, appellants challenge the orders of
dismissal after the trial court sustained without
leave to amend the demurrers of Ponci and
Thornhill.15 As to these respondents, the trial
court sustained demurrers without leave to
amend to the following causes of action in the
FAC: (11) invasion of privacy; (12) intentional
infliction of emotional distress; (13) negligent
infliction of emotional distress; (17) violation of
the Ralph Civil Rights Act; (18) violation of the
Tom Bane Civil Rights Act; and (19) violation of
the Gender Tax Repeal Act and sexual
harassment. Demurrers by Ponci and Thornhill
to the SAC were sustained without leave to
amend to the remaining causes of action in
Appellants also argue the rulings were erroneous as to
Hartford, Silletto, Pierson, Gaitan, and Albrecht. The notice of
appeal and case information statement under case number
B248667 does not reference Hartford or the individual
defendants, and this court is without jurisdiction to review any
claims of error as to them. (Ellis v. Ellis (2015) 235 Cal.App.4th
837, 846 [appellate jurisdiction is “‘limited in scope to the notice
of appeal and the judgment appealed from’”].) As noted above,
the Turners’ separate appeals from judgments entered in favor
of the individual defendants (case no. B252461) and Hartford
have been dismissed (case no. B268792).

15

App.37
which one or both of these respondents were
named: (1) fraud; (2) negligent
misrepresentation; (9) violation of Business and
Professions Code section 17200 et seq.; (10) Civil
Code sections 1761 and 3345 and Insurance
Code section 785; (14) implied contractual
indemnity and equitable indemnity; (15)
violation of the Fair Employment and Housing
Act (FEHA); and (16) violation of the Unruh
Civil Rights Act.
Our standard of review is de novo. We
exercise our independent judgment to
determine whether the respective complaints
state facts sufficient to constitute causes of
action as to these two respondents.16 (Boyd v.
Freeman (2017) 18 Cal.App.5th 847, 853
(Boyd).) We accept as true all well-pleaded
factual allegations. (Kearney v. Salomon Smith
Barney, Inc. (2006) 39 Cal.4th 95, 101.) We do
not, however, accept as true appellants’
“contentions, deductions, or conclusions of fact
or law.” (Lin v. Coronado (2014) 232
Cal.App.4th 696, 700.) We “must also consider
De novo review does not include our determining whether
appellants alleged facts sufficient to withstand demurrers by
any other defendants; our only concern is whether the
pleadings stated causes of action against Ponci and Thornhill.

16

App.38
judicially noticed matters.” (Schifando v. City of
Los Angeles (2003) 31 Cal.4th 1074, 1081.) We
may affirm “‘whether or not the trial court
relied on proper grounds or the defendant
asserted a proper ground in the trial court
proceedings.’” (Rossberg v. Bank of America,
N.A. (2013) 219 Cal.App.4th 1481, 1491.)
We review the denial of leave to amend for
abuse of discretion. (Rakestraw v. California
Physicians’ Service (2000) 81 Cal.App.4th 39, 44
(Rakestraw).) However, if we conclude the
pleadings do not state causes of action,
appellants are entitled on appeal to demonstrate
they can amend to cure the deficiencies. “‘To
meet this burden . . . on appeal, [appellants
must] enumerate the facts and demonstrate how
those facts establish a cause of action.” (Boyd,
supra, 18 Cal App 5th at p. 854.) “The assertion
of an abstract right to amend does not satisfy
this burden. [Citation.] [Appellants] must clearly
and specifically set forth the ‘applicable
substantive law’ [citation] and the legal basis for
amendment, i.e., the elements of the cause of
action and authority for it.” (Rakestraw, at p.
43.)
The Turners provided a reporter’s
transcript for the hearing on the demurrers

App.39
to the SAC. There is no reporter’s transcript
for the hearing on the demurrers to the FAC.

A.

FAC

1.

Judicial Notice
In conjunction with its demurrer to the FAC,
Thornill asked the trial court to take judicial
notice of eight complaints the Turners filed
in state and federal courts arising out of
LTurner’s accident and the defendants’ preand post accident conduct. The trial court did
so, and the Turners challenge the ruling.17
There was no error. Trial courts are
entitled to take judicial notice of court records of
state and federal court proceedings. (Evid. Code,
§ 452, subd. (d).) Judicial notice means no more
than that the trial court acknowledges the
existence of various pleadings. (StorMedia Inc. v.
Superior Court (1999) 20 Cal.4th 449, 457, fn. 9.)
Here, of course, all complaints were filed by
appellants, and they do not deny the existence of
the pleadings.

Rule also filed a request for judicial notice along with its
demurrer. Because the Turners did not challenge the rulings on
Rule’s demurrers, Rule’s request for judicial notice is not before
us.

17

App.40

2.

11th Cause of ActionInvasion of Privacy
Article I, section 1 of the California
Constitution guarantees a right to privacy. The
elements of a cause of action for a violation of
the right to privacy are: “(1) a legally protected
privacy interest; (2) a reasonable expectation of
privacy in the circumstances; and (3) conduct by
defendant constituting a serious invasion of
privacy.” (Hill v. National Collegiate Athletic
Assn. (1994) 7 Cal.4th 1, 39-40.)
In the FAC, the Turners alleged Ponci and
Thornhill violated their right to privacy by
initiating an investigation into LTurner’s
accident before she signed a “claimant
designation.” Ponci was alleged to have
“communicat[ed] with employees of the business
of MTurner’s husband [i.e., CTurner] without
written authorization.” Thornhill representatives
took photographs of LTurner and her home. The
Turners alleged that after LTurner’s “life
threatening and traumatic accident and CTurner
. . . having medical difficulties . . . surrounding
the accident of LTurner . . . defendants
disregarded common decency and the standards
set forth under California fair claims practice.”

App.41
The trial court sustained the Ponci and
Thornhill demurrers to this cause of action
without leave to amend based on the federal
district court’s having previously dismissed the
same cause of action. We are not concerned
with the trial court’s reasoning, however; our
task is to independently review the pleading to
determine whether it states facts sufficient to
constitute a cause of action against Ponci and
Thornhill. We have done so and conclude the
11th cause of action fails to state facts sufficient
to allege a violation of the right to privacy.
LTurner sustained serious personal
injuries in her home, and the accident was
promptly reported to the homeowner’s insurer.
Under these circumstances, interviews and
photographs on behalf of the insurer, without
more, do not constitute an invasion of privacy.
LTurner was an adult when the accident
occurred, and appellants did not claim Ponci and
Thornhill lacked her permission to interview
and photograph her and photograph the home
where she resided. Appellants did not contend
Ponci or Thornhill engaged in subterfuge or
misrepresentations during their investigation.
The allegation that Ponci wrongfully
interviewed CTurner’s employees was vague

App.42
and lacked factual detail. As a matter of law, the
FAC failed to include any factual allegations of
conduct amounting to “an unreasonably
intrusive investigation” that could have given
rise to liability by Ponci or Thornhill. (Noble v.
Sears, Roebuck & Co. (1973) 33 Cal.App.3d 654,
660.)
Without a reporter’s transcript of the
hearing on the demurrers to the FAC, we have
no way to determine whether appellants asked
the trial court for leave to amend and, if so,
whether the trial court abused its discretion in
denying the request. (Rakestraw, supra, 81
Cal.App.4th at p. 44.) Appellants nonetheless
may demonstrate for the first time on appeal
that the complaint can be amended to state a
cause of action against Ponci and Thornhill. (Id.
at p. 43.) To do so, they must identify facts that
may be alleged and explain how those facts
would establish a cause of action for violation of
the right to privacy. (Boyd, supra, 18
Cal.App.4th at p. 854.) Appellants do not meet
this burden. The demurrer to this cause of
action was properly sustained without leave to
amend.

App.43

3.

12th Cause of ActionIntentional
Infliction of Emotional
Distress
The elements of a cause of action for
intentional infliction of emotional distress are:
“(1) extreme and outrageous conduct by the
defendant with the intention of causing, or
reckless disregard of the probability of causing,
emotional distress; (2) the plaintiff’s suffering
severe or extreme emotional distress; and (3)
actual and proximate causation of the emotional
distress by the defendant’s outrageous conduct.”
(Hughes v. Pair (2009) 46 Cal.4th 1035, 1050,
internal quotation marks omitted.)
Allegations to support this theory of
liability against Ponci and Thornill were
incorporated by reference from those in earlier
causes of action. No new allegations were
specifically directed to either respondent.
Instead, appellants alleged “Defendants engaged
in outrageous conduct. Such conduct was
continuous, extreme, intentional, and
outrageous and said conduct was done for the
purpose of causing [appellants] to suffer
humiliation, overwhelming grief, mental
anguish and emotional distress and was done

App.44
with wanton and reckless disregard of the
probability of causing such distress.”
For the reasons discussed above
concerning the cause of action for invasion of the
right to privacy, the incorporated allegations
were also insufficient to state a cause of action
for intentional infliction of emotional distress.
The new charging allegations were conclusory
and in the nature of argument. They did not
include well-pleaded facts, and we do not accept
them as true. As above, appellants have not met
their burden to demonstrate on appeal that they
can amend to state a cause of action for
intentional infliction of emotional distress.

4.

13th Cause of ActionNegligent Infliction
of Emotional Distress
Negligent infliction of emotional distress
is not an independent tort. (Marlene F. v.
Affiliated Psychiatric Medical Clinic, Inc. (1989)
48 Cal.3d 583, 588.) In certain circumstances,
though, a plaintiff without physical injury or
economic losses may sue under traditional
negligence theories and seek damages from a
defendant whose negligence was a substantial
factor in causing severe or serious emotional
distress. “‘The traditional elements of duty,

App.45
breach of duty, causation, and damages apply.
[¶] Whether a defendant owes a duty of care is a
question of law.’” (Ibid.)
Had conduct by either Ponci or Thornhill
caused physical injury or economic damages,
their duty of care to each of the Turners would
be presumed. (Civ. Code, § 1714.) In the absence
of physical injury or property damage, a duty
from a defendant to a plaintiff may arise where
the parties have a preexisting relationship.
(Burgess v. Superior Court (1992) 2 Cal.4th
1064, 1074.) None of the Turners had a
preexisting relationship with Ponci or Thornhill.
These defendants did not owe appellants a duty
of care.
An absence of duty notwithstanding, the
allegations were insufficient as a matter of law
to support a cause of action for severe or serious
emotional distress. “‘[S]evere’ means substantial
or enduring as distinguished from trivial or
transitory. Severe emotional distress means,
then, emotional distress of such substantial
quantity or enduring quality that no reasonable
man in a civilized society should be expected to
endure it. [¶] ‘It is for the court to determine
whether on the evidence severe emotional
distress can be found.’” (Fletcher v. Western

App.46
National Life Ins. Co. (1970) 10 Cal.App.3d 376,
397.)
Appellants again incorporated language
from earlier causes of action and alleged all
defendants without specifically calling out
Ponci or Thornhill “engaged in conduct which
caused [appellants] to suffer serious emotional
distress.” The allegations were conclusory and
insufficient as a matter of law. Appellants have
not proposed how they could amend to state a
cause of action for negligence that proximately
caused serious emotional distress.

5.

17th and 18th Causes
of Action-Violations of
the Ralph Civil Rights
Act of 1976 and Tom
Bane Civil Rights Act
We consider these two causes of action
together. The 17th is based on the Ralph Civil
Rights Act of 1976 (Civ. Code, § 51.7), which
provides in relevant part, “All persons within
the jurisdiction of this state have the right to be
free from any violence, or intimidation by threat
of violence, committed against their persons or
property . . . on account of any characteristic
listed or defined in [the Unruh Civil Rights
Act,]” including sex, race, color, and ancestry.
(Civ. Code, § 51.7, subd. (b).) Any person who

App.47
denies the rights provided by the Ralph Civil
Rights Act of 1976 may be civilly liable for
penalties, general and punitive damages, and
attorney fees. (Civ. Code, § 52.)
The Tom Bane Civil Rights Act is codified
in Civil Code section 52.1. It authorizes suits by
individuals “whose exercise or enjoyment of
rights secured by the Constitution or laws of the
United States, or of rights secured by the
Constitution or laws of this state, has been
interfered with, or attempted to be interfered
with [by threat, intimidation, or coercion].” (Civ.
Code, § 52.1, subd. (c).) “Speech alone” cannot be
a basis for a lawsuit under the Tom Bane Civil
Rights Act unless “the speech itself threatens
violence . . . ; and the person or group of persons
against whom the threat is directed reasonably
fears that, because of the speech, violence will be
committed against them or their property and
that the person threatening violence had the
apparent ability to carry out the threat.” (Civ.
Code, § 52.1, subd. (k).)
Violence and threats of violence are the
sine qua nons for causes of action under either
Act. In this regard, although the FAC
complained of more than 20 years of
discriminatory conduct, which began long before

App.48
Hartford issued its policy, it was bereft of any
facts suggesting violence. The FAC concluded
that appellants “were intimidated, bullied, and
terrorized and deprive[d] of basic information
including the actual policy of insurance and . . .
concealment of the actual denial of the claim
submitted by LTurner (as a method of
discrimination and process to allow further
intimidation and threats of violence to property
(i.e., thorough deprivation of essential element
(insurance) to maintain ownership of property).”
Appellants also alleged they “reasonably
believed there was violence against their
property and property right [sic] would occur
and did occur.” These contentions were
insufficient to state causes of action under either
the Ralph or Tom Bane Civil Rights Acts.
Appellants stood on their pleadings in the
trial court. They maintained allegations that
respondents, by contesting coverage for
LTurner’s accident, deprived them “of an
essential element (insurance) to maintain
ownership of property” and this conduct was
sufficient to constitute violence. Appellants’
written opposition to the demurrers included a
boilerplate request for leave to amend, but failed

App.49
to recite any facts to support these legal
theories.
On appeal, appellants’ contention that the
trial court abused its discretion by failing to give
them an opportunity to amend is not cognizable,
as we have no reporter’s transcript of the
hearing on the demurrers. Appellants’ request in
their opening brief for leave to amend is also
boilerplate and insufficient. Appellant have not
asserted specific factual allegations that they
could add to be able to state causes of action
under either Act.

6.

19th Cause of Action Gender Tax Repeal
Act and Sexual
Harassment
MTurner alone was the plaintiff in this
cause of action.18 Civil Code section 51.6
prohibits business establishments from
discriminating, “with respect to the price
charged for services of similar or like kind,
against a person because of the person’s gender.”
Civil Code section 51.9 imposes liability on a
defendant who is in “a business, service, or
As mentioned, MTurner previously “assigned all rights and
interest in [her] claims and causes of action of any possible
nature, past and future, against [Ponci] that are transferable by
law to LTurner.” She does not address this point on appeal.

18

App.50
professional relationship” with a plaintiff and
“has made sexual advances, solicitations, sexual
requests, demands for sexual compliance by the
plaintiff, or engaged in other verbal, visual, or
physical conduct of a sexual nature or of a
hostile nature based on gender, that were
unwelcome and pervasive or severe.” (Civ. Code,
§ 51.9, subd. (a)(1), (2).)
No allegations were made against Ponci
individually. MTurner alleged generally that she
was overcharged for insurance coverage and not
treated “as an insured and person in her own
right, but was treated] as an appendage of her
husband.” She alleged the same conduct
constituted “unlawful sexual harassment.” The
allegations were conclusory and fact- deficient.
They did not state a cause of action against
Ponci under either legal theory. Once again,
although appellants made a boilerplate request
for leave to amend, they did not meet their
burden to provide this court with specific facts
and the substantial law that entitle them leave
to amend. (Rakestraw, supra, 81 Cal.App.4th at
p. 43.)

App.51

B.

SAC
Appellants’ appendix does not include a
redlined version of the SAC. As part of our
independent review, we compared the
allegations between the FAC and SAC.

1.

First Cause of Action Fraud
“The elements of fraud that will give rise
to a tort action for deceit are: (a)
misrepresentation (false representation,
concealment, or nondisclosure); (b) knowledge of
falsity (or ‘scienter’); (c) intent to defraud, i.e., to
induce reliance; (d) justifiable reliance; and (e)
resulting damage.” (Engalla v. Permanente
Medical Group, Inc. (1997) 15 Cal.4th 951, 974,
most internal quotation marks omitted.) Fraud
allegations must be specific. General or
conclusory allegations that fail to allege the
“who, what, where, and how” particulars are
insufficient. (Morgan v. AT&T Wireless Services,
Inc. (2009) 177 Cal.App.4th 1235, 1262.)
Most of the fraud allegations predated
Hartford’s initial coverage and LTurner’s
accident and were directed at defendants other
than Ponci or Thornhill. As to these respondents,
appellants alleged Ponci was told, but failed to
advise them, of irregularities in the pricing for

App.52
the Hartford homeowner’s coverage. Thornhill
sent a representative to LTurner’s home to
interview and photograph her after the accident,
even though the claim was submitted by Grace
Farrell. Ponci denied coverage based on Farrell’s
claim rather than a claim initiated by LTurner.
Although the Turners sued these
respondents for fraud, they did not allege any
facts to support the theory that either Ponci or
Thornhill intended to harm them or to induce
detrimental reliance. They did not allege they in
fact relied to their detriment on any conduct by
these respondents.
The allegations were insufficient to
support a cause of action for fraud against
Ponci or Thornhill. Appellants have not
suggested how this cause of action might be
amended to withstand demurrers by these
two respondents.

2.

Second Cause of Action Negligent
Misrepresentation
The elements of a cause of action for
negligent misrepresentation are akin to those
for fraud, but without the “scienter or an intent
to defraud.” (Tenet Healthsystem Desert, Inc. v.
Blue Cross of California (2016) 245 Cal.App.4th

App.53
821, 845.) A negligent misrepresentation cause
of action does require that the defendant intend
for the plaintiff to rely on the misrepresentation
and that the plaintiff in fact did so. (Ragland v.
U.S. Bank National Assn. (2012) 209
Cal.App.4th 182, 196.) As noted in the previous
discussion, these allegations were lacking.
Appellants have not suggested that any facts
exist to support a cause of action for negligent
misrepresentation against Ponci or Thornhill.

3.

Ninth Cause of
Action -Violation of
the unfair
Competition Law
(UCL) (Bus. & Prof.
Code, § 17200 et
seq.)
The UCL creates an independent,
cumulative remedy against parties that
engage in unfair competition. (Cel-Tech
Communications, Inc. v. Los Angeles
Cellular Telephone Co. (1999) 20 Cal.4th
163, 179.) UCL claims may be based on
violations of “[v]irtually any law federal,
state or local.” (Troyk
v. Farmers Group, Inc. (2009) 171 Cal.App.4th
1305, 1335, internal quotation marks omitted.) A
successful UCL plaintiff may be awarded

App.54
injunctive relief and restitution, but not
damages or attorney fees.19 (Ibid.)
The SAC includes a list of Insurance Code
and California Code of Regulations provisions
that Ponci and Thornhill allegedly violated.
Rather than plead facts to support allegations
that these statutes and regulations were
violated, appellants merely concluded
respondents engaged in discriminatory practices
and unfair claims settlement practices, made
unlawful referrals, conducted pretextual
interviews, obtained information without proper
authorization, and failed to provide pertinent
policy information. The allegations are
insufficient. (Berryman v. Merit Property
Management, Inc. (2007) 152 Cal.App.4th 1544,
1554 [a “laundry list” of statutes without
pleading facts to support their violation by a
defendant cannot withstand demurrer].)
Appellants have not suggested any facts that
would support a UCL cause of action.

Attorney fees may be awarded to a plaintiff acting as a
private attorney general. (Zhang v Superior Court (2013) 57
Cal.4th 364, 371, fn. 4.)

19

App.55

4.

10th Cause of Action Treble Damages
Appellants linked this cause of action to
the UCL. Relying on Insurance Code section 785,
which states that insurers owe prospective
insureds who are “65 years of age or older, a
duty of honesty, good faith, and fair dealing,”
and Civil Code section 3345, they seek to treble
the amount of any monetary award they receive
under the UCL claim. This cause of action fails.
Setting aside for a moment that LTurner
does not claim to be a senior citizen and there
are no allegations against Ponci or Thornhill
based on appellants’ status as prospective
insureds, Civil Code section 3345 authorizes a
treble recovery only for plaintiffs who are
awarded “a remedy that is in the nature of a
penalty.” (Clark v. Superior Court (2010) 50
Cal.4th 605, 614.) The restitution to which a
private individual suing under the UCL may be
entitled “is not a penalty and hence does not
fall within the trebled recovery provision of
Civil Code section 3345, subdivision (b).” (Id. at
p. 615.)
In any event, because Civil Code section
3345 “constitutes a remedy [, it] is not itself a
cause of action.” (Green Valley Landowners

App.56
Assn. v. City of Vallejo (2015) 241 Cal.App.4th
425, 433, fn. omitted.)

5.

14th Cause of
Action -Implied
Contractual
Indemnity and
Equitable
Indemnity
Ponci was not named in this cause of
action. The gist of the 14th cause of action
against Thornhill was that if MTurner and
CTurner were liable to LTurner for her personal
injuries, “Thornhill should provide implied
contractual indemnity or in the alternative
equitable indemnity” to them based on
Thornhill’s “unreasonable and authorized [sic]
and intrusive investigation.” In other words,
appellants attempted to merge disparate tort and
contract concepts. On one hand, they alleged
MTurner and CTurner were joint, concurrent, or
successive tortfeasors with Thornhill in causing
LTurner’s losses. On the other, they sought to
hold Thornhill liable on the theory that Thornhill
breached an implied contractual duty to them.
(West v. Superior Court (1994) 27 Cal.App.4th
1625, 1633 [ “‘An action for implied contractual
indemnity is not a claim for contribution from a
joint tortfeasor; it is not founded upon a tort or

App.57
upon any duty which the indemnitor owes to the
injured third party. It is grounded upon the
indemnitor’s breach of duty owing to the
indemnitee to properly perform its contractual
duties’”].) Appellants cite no apt authority for
either the tort or contract theory. They forfeited
this issue. (Sabic, supra, 14 Cal.App.5th at p.
383.)

6.

15th and 16th Causes
of Action - Violation of
Fair Employment and
Housing Act (FEHA;
Gov. Code, § 12900 et
seq.) and Unruh Civil
Rights Act (Civ. Code,
§ 51)
These causes of action incorporated a
number of earlier allegations. Otherwise,
Ponci was not mentioned in either the 15th or
16th causes of action. As for Thornhill, the
SAC reiterated the conclusory statement that
it “conduct[ed] an intrusive and discriminatory
investigation without a claimant designation
from LTurner.” The incorporated and new
allegations are not sufficient to state causes of
action against Ponci or Thornhill under either
civil right.

App.58
Appellants’ opening brief eschewed a
discussion of any facts that would support suing
these respondents and instead cited several
appellate decisions without an attempt to
explain their relevancy to these respondents.
Appellants simply asserted that Hartford
engaged in “a long and continuous pattern of
discrimination.” This issue, too, has been
forfeited. (Sabic, supra, 14 Cal.App.5th at p.
383.)

IV.

Appeal from the Order
Assessing Monetary
Discovery Sanctions
(case no. B250084)
As mentioned, on June 17, 2013, the
trial court granted most of Rule’s discovery
motions. It determined appellants’ responses
to the discovery were timely, so their
objections were not waived. Noting the
objections were of the “general boilerplate”
variety and appellants “failed to submit a
responsive Separate Statement justifying
the objections asserted against each
discovery request,” the trial court overruled
them. Finding no substantial justification
for appellants’ objections, the trial court
assessed monetary sanctions of $6,304.31,

App.59
jointly and severally, against appellants and
their attorneys. Appellants did not post an
undertaking. (§ 917.1, subd. (a)(1).)
We review the sanctions award itself for
abuse of discretion. Factual findings that
support the award are evaluated under the
substantial evidence standard. (Parker v.
Harbert (2012) 212 Cal.App.4th 1172, 1177.)
Appellants contest Rule’s entitlement to
sanctions, but do not challenge the amount of
the award. Appellants contend the trial court
could not impose monetary sanctions unless it
found they “acted without substantial
justification.” That is not the legal standard.
Section 2023.030, subdivision (a) requires a trial
court to impose a monetary sanction “unless it
finds that the one subject to the sanction acted
with substantial justification or that other
circumstances make the imposition of the
sanction unjust.” Appellants, on the losing end of
the discovery dispute, had the burden to prove
they acted with substantial justification. (Doe v.
United States Swimming, Inc. (2011) 200
Cal.App.4th 1424, 1435.)
Appellants did not meet this burden; and
on this record, we find no abuse of discretion.
Appellants provide no citations to the record

App.60
concerning the discovery propounded by Rule or
their objections to it.20 Instead, they merely state
the “actual objections . . . were provided to the
[trial] court and they properly filed a motion for
protective order that was directly related to the
inability to file separate statements for discovery
that exceeded 2,500 items.” Again, we do not
comb the record to find factual support for
appellants’ claims. (Harshad & Nasir Corp. v.
Global Sign Systems, Inc. (2017) 14 Cal.App.5th
523, 527, fn. 3.)
Appellants conclude they “met and
conferred in good faith, reasonably sought a
protective order, were clearly engaged in trial
proceedings, and as indicated above, the
discovery was drastically burdensome and
overbroad.” The trial court found “[t]he parties
complied with the good faith meet and confer
requirements,” but that alone did not satisfy
appellants’ burden to demonstrate they acted
with substantial justification. The trial court
also found appellants’ multiple requests for a
protective order were not reasonable and noted
the weak rationale proffered by appellants for
Appellants only provide a block citation of almost 400 pages
concerning their responses to discovery propounded by
Thornhill.

20

App.61
not having time to respond to discovery their
engagement “in trial proceedings” referred to
LTurner’s separate personal injury action
against her own father. The trial court overruled
appellants’ objections based on burden and
overbreadth. Appellants failed to demonstrate
they acted with substantial justification or that
other circumstances existed that would make the
imposition of sanctions unjust.
The record amply supports the trial
court’s predicate findings for an award of
monetary sanctions. The trial court did not
abuse its discretion in assessing monetary
sanctions of $6,304.31, jointly and severally,
against appellants and their attorneys.

V.

Terminating Sanctions
(case no. B256763)
Disobedience of a discovery order
constitutes an abuse of discovery (§ 2023.010,
subd. (g)) and authorizes a trial court to impose
one or more sanctions on the offending parties,
including dismissal of the action (§ 2023.030,
subd. (d)(3).). As this court previously has held,
the “‘decision to order terminating sanctions
should not be made lightly. But where a
violation is willful, preceded by a history of
abuse, and the evidence shows that less severe

App.62
sanctions would not produce compliance with
the discovery rules, the trial court is justified in
imposing the ultimate sanction.’” (Los
Defensores, Inc. v. Gomez (2014) 223 Cal.App.4th
377, 390 (Los Defensores, Inc.).) Willful
disobedience of even one discovery order may be
sufficient to impose terminating sanctions.
(Ibid.) The trial court is entitled to consider “the
totality of the circumstances [, including the
disobeying party’s conduct] to determine if the
actions were willful.” (Ibid.)
The abuse of discretion standard of
review applies when an action is dismissed as a
terminating sanction. (Creed-21 v. City of
Wildomar (2017) 18 Cal.App.5th 690, 702.) We
“reverse only if the trial court's order was
arbitrary, capricious, or whimsical.” (Ibid.)
Moreover, “The question before us ‘“is not
whether the trial court should have imposed a
lesser sanction; rather, the question is whether
the trial court abused its discretion by imposing
the sanction it chose.”’” (Liberty Mutual Fire Ins.
Co. v. LcL Administrators, Inc. (2008) 163
Cal.App.4th 1093, 1105.) Where the trial court
has exercised “its discretion [based] on factual
determinations, we examine the record for
substantial evidence to support them.” (Los

App.63
Defensores, Inc., supra, 223 Cal. App. 4th at p.
390.)
In the trial court, appellants’ written
opposition to Rule’s motion for terminating
sanctions was filed late and exceeded the
allowable page limits. Appellants did not ask for
an extension of time to file their points and
authorities or for permission to file a longer
memorandum. (Cal. Rules of Court, rule
3.1113(e).) The trial court exercised its
discretion and accepted the late opposition, but
considered only the first 15 pages. That
treatment is expressly authorized by rule
3.1113(g), and the trial court’s decision to
proceed in this manner is properly reflected in
its order. (Cal. Rules of Court, rule 3.1300(d).)
Appellants indicated on the caption page
that their opposition was filed “under protest.”
The first 15 pages of the opposition ignored the
merits of Rule’s motion. Appellants did not
challenge the sufficiency of the evidence to
support a finding of willful disobedience, nor did
they attempt to demonstrate their disobedience
was inadvertent or other than willful. Instead,
appellants reprised the familiar and
consistently discredited jurisdictional
complaints.

App.64
Despite a tentative ruling in Rule’s favor,
appellants did not address the willfulness vel
non of their disobedience. The hearing was
reported. Appellants’ counsel first asked the
trial court to dismiss the lawsuit without
prejudice so they could refile in federal court.21
Thereafter, appellants’ counsel continued to
press the jurisdictional claims.
The trial court took the matter under
submission and issued a comprehensive written
decision. The trial court addressed and rejected
appellants’ jurisdictional challenges and
recounted much of the history of the lawsuit,
including appellants’ repeated attempts to evade
their discovery obligations by removing the case
to federal court and seeking to disqualify the
trial judge. Based on the totality of the
circumstances and the undisputed evidence of
appellant’s willful disobedience, the trial court
granted the motion and dismissed the action as
to Rule as a sanction for disobedience of its
earlier discovery orders.

Appellants have never offered an explanation or rationale for
seeking to proceed in the federal district court. Nor have
appellants explained why they did not voluntarily dismiss this
action without prejudice.

21

App.65
Appellants, having not contested the
merits of the motion for terminating sanctions
in the trial court, largely eschew them in this
court as well. The entirety of their argument on
the merits is that “Rule did not establish that
[appellants] had misused the discovery process
or that they had willfully refused to comply
with a court order.” Appellants include no
citations to the record or any applicable
authorities to support this conclusion. As in the
trial court, appellants rely on their
unsupported jurisdictional arguments.
We have already addressed appellants’
jurisdictional claims in part II of the Discussion,
ante. Appellants offered no additional
arguments that this court could consider.22 The
trial court acted well within its discretion when
it imposed terminating sanctions as to Rule. (Los
Defensores, Inc., supra, 223 Cal. App. 4th at p.
390.)

Appellants contend the trial court abused its discretion when
it denied their oral request at the hearing to “dismiss this case
without prejudice so that it can be filed in what we believe to be
the proper jurisdiction [i.e., federal district court].” Appellants
also complain the trial court failed to sanction Rule pursuant to
section 128.7, subdivision (c), for filing a frivolous motion for
terminating sanctions. Appellants never sought such sanctions
in the trial court.

22

App.66

VI.

Prevailing Party Costs to Rule (case
no. B261032)
As the prevailing party, Rule sought and was
awarded $8,171.55 in costs. Appellants contest the
denial of their motion to strike and/or tax Rule’s
costs. Whether Rule is a prevailing party, which
appellants dispute, presents a question of law we
review de novo. (Charton v. Harkey (2016) 247
Cal.App.4th 730, 739 (Charton).) The award itself we
review for abuse of discretion. (Ibid.)
As a matter of law, Rule was the
prevailing party and entitled to costs “‘as a
matter of right.’” (Charton, supra, 247
Cal.App.4th at p. 737 [“a defendant in whose
favor a dismissal is entered” is the prevailing
party]; § 1032, subd. (a)(4).)
Determining the amount of costs to
award the prevailing party typically involves a
straightforward process. Section 1033.5
identifies the categories of costs that may be
awarded to a prevailing party (subd. (a)), lists
items that generally are not allowable as costs
(subd. (b)), and provides that “[i]tems not
mentioned in this section . . . may be allowed or
denied in the court’s discretion” (subd. (c)(4)).
For costs expressly allowed pursuant to section
1033.5, the objecting party bears the burden to
show they were unnecessary or unreasonable.

App.67
For costs not expressly allowed, the prevailing
party claiming them has the burden to show
they were reasonably necessary. (Berkeley
Cement, Inc. v. Regents of University of
California (2019) 30 Cal.App.5th 1133, 1139.)
A prevailing party claims costs by filing a
memorandum of costs “verified by a statement of
the party, attorney, or agent that to the best of
his or her knowledge the items of cost are correct
and were necessarily incurred in the case.” (Cal.
Rules of Court, rule 3.1700(a)(1).) An optional
Judicial Council form and worksheet have been
developed for this purpose. Rule completed both
forms.
Rule 3.1700(b)(2) of the California Rules of
Court prescribes the required format for a motion
to strike or tax costs: “Unless objection is made
to the entire cost memorandum, the motion to
strike or tax costs must refer to each item
objected to by the same number and appear in
the same order as the corresponding cost item
claimed on the memorandum of costs and must
state why the item is objectionable.”
Appellants did object to the entire cost
memorandum on the same jurisdictional grounds
they had been raising for several years. The
format of appellants’ motion was proper for that

App.68
purpose; as already discussed, the trial court
appropriately rejected the jurisdictional
arguments.
Alternatively, appellants attempted to
object to specific items in the memorandum of
costs. Appellants’ motion, however, was
procedurally defective and not in the requisite
format for challenges to specific cost items. (Cal.
Rules of Court, rule 3.1700(a)(2).) The procedural
deficiencies provided sufficient justification for
denial of the motion. Given the broad discretion
enjoyed by trial courts, there was “no abuse of
discretion [because] there exist[ed] a reasonable .
. . justification under the law for the trial court’s
decision[, which fell] within the permissible
range of options set by the applicable legal
criteria.” (Cahill v. San Diego Gas & Electric Co.
(2011) 194 Cal.App.4th 939, 957.)

VII. Sanctions for a Frivolous Appeal
(case no. B256763)
A.
Governing Principles and
Background
Section 907 and rule 8.276(a)(1) of the
California Rules of authorize sanctions for an
appeal that is frivolous, i.e., one that “is
prosecuted for an improper motive-to harass the
respondent or delay the effect of an adverse

App.69
judgment-or when it indisputably has no meritwhen any reasonable attorney would agree that
the appeal is totally and completely without
merit.” (Flaherty, supra, 31 Cal.3d at p. 650.) A
“total lack of merit of an appeal is viewed as
evidence that appellant must have intended it
only for delay.” (Id. at p. 649.) “An unsuccessful
appeal should not be penalized as frivolous if it
presents a unique issue which is not indisputably
without merit . . . involves facts which are not
‘amenable to easy analysis in terms of existing
law . . . or makes a reasoned argument for the
extension, modification, or reversal of existing
law. [Citation.]’’’ (Workman v. Colichman (2019)
33 Cal.App.5th 1039, 1062, internal quotation
marks omitted (Workman).)
Our analysis requires that we apply “‘both
subjective and objective standards. The
subjective standard looks to the motives of the
appealing party and his or her attorney, while
the objective standard looks at the merits of the
appeal from a reasonable person's perspective.
[Citation.] Whether the party or attorney acted
in an honest belief there were grounds for appeal
makes no difference if any reasonable person
would agree the grounds for appeal were totally
and completely devoid of merit.’” (Workman,

App.70
supra, 33 Cal.App.5th at p. 1062.) Sanctions for
a frivolous appeal may be ordered against the
litigants and/or the attorneys. (Id. at p. 1065.)
“Sanctions are warranted against a lawyer ‘who,
because the appeal was so totally lacking in
merit, had a professional obligation not to
pursue it.’” (Ibid.)
Within this framework, Rule asserts the
appeal from the judgment in its favor (case no.
B256763) is frivolous and warrants sanctions.
Rule asks this court to assess $21,366 in
sanctions jointly and severally against
appellants and their counsel, Nina Ringgold and
Amy Lee. This sum represents the attorney fees
it incurred to prepare the respondent’s brief in
this one appeal, the motion for attorney fees,
and the request for judicial notice, as well as the
attorney fees it anticipates incurring to file a
reply and argue the motion.
We gave appellants written notice that we
were considering the imposition of sanctions and
the opportunity to submit written opposition.
(Cal. Rules of Court, rule 8.276(c), (d).)
Appellants have done so.
Appellants’ opposition primarily consists
of a reiteration of their jurisdictional claims.
They argue (1) “Court users have a right to

App.71
receive disclosure that a person assigned to their
case is a judge subject to mandatory
constitutional resignation . . .”; (2) “Recusal was
required in the trial court and is required in the
appellate court under the due process clause of
the United States [Constitution] and Decisions of
the United States Supreme Court” (internal
capitalization omitted); and (3) Rule’s motion for
sanctions is frivolous because the federal district
court never remanded the CTurner lawsuit, and
this court should sanction Rule instead of
appellants. Alternatively, appellants contend
Rule is overreaching and its request for
sanctions in the sum of $21,366 is too high.
At our invitation, Rule served and filed a
reply. Although given the opportunity to do so
(Cal. Rules of Court, rule 8.276(e)), counsel did
not address the sanctions issue during oral
argument.

B.

Analysis
We agree the appeal in case number
B256763 is frivolous and warrants sanctions
against counsel for appellants, payable to Rule in
the sum of $21,366, and to the clerk of this court
in the amount of $8,500. A decade ago, a cost
analysis by the clerk’s office of the Second
Appellate District estimated the cost to

App.72
taxpayers to process an appeal through opinion
was “approximately $8,500.” (In re Marriage of
Gong & Kwong (2008) 163 Cal.App.4th 510, 520.)
We find additional sanctions in the amount of
$8,500 to be appropriate. (Workman, supra, 33
Cal.App.5th at pp. 1064-1065.)
Appellants chose to pursue legal
remedies against Rule in the judicial system. So
long as all three Turners were plaintiffs seeking
damages under California law against Rule, a
California corporation, this lawsuit could
proceed only in a California state court.
Although appellants were free to voluntarily
dismiss this lawsuit against Rule at any time
before trial, they did not. (§ 581, subd. (b)(1).)
When appellants failed to respond to discovery,
the trial court issued an order compelling
appellants to respond to formal civil discovery
and imposed monetary sanctions. Appellants
disobeyed the discovery orders and never
challenged the evidence in support of the
finding that the disobedience was willful. The
record is replete with instances where
appellants not only evaded their discovery
responsibilities, but actively sought to delay
proceedings, divert attention from the issues

App.73
embraced by the pleadings, and dramatically
increase the cost of the litigation.
Rule’s motion for terminating sanctions
was heard approximately eight months after it
was filed. Appellants had no merits-based
opposition. Instead they relied on the
jurisdictional claims they have never supported
with any applicable legal authority. When Rule’s
motion for terminating sanctions was granted
and judgment was entered in its favor,
appellants appealed, relying on the same
meritless and unsupported jurisdictional claims.
When this court advised it was considering the
imposition of sanctions for a frivolous appeal,
appellants’ counsel still relied only on the
frivolous jurisdictional claims.
Objectively, no reasonable attorney would
pursue this appeal based solely on jurisdictional
claims that are totally devoid of merit.
(Flaherty, supra, 31 Cal.3d at p. 650.) Under
these circumstances, the objective standard
overrides any honest belief by counsel that
grounds existed for this appeal. (Workman,
supra, 33 Cal.App.5th at p. 1062.)

App.74

DISPOSITION
The Turners’ purported appeals from the
orders compelling discovery and denying their
request for a protective order are dismissed as
having been taken from nonappealable orders.
Hartford’s notice of appeal from the order
denying its request for joinder in Rule’s motion
for terminating sanctions is dismissed as
nonappealable. In all other respects, the
judgments and orders are affirmed.
Sanctions for a frivolous appeal in case no.
B256763 are imposed upon appellants’ counsel of
record, the Law Offices of Nina R. Ringgold and
Nina R. Ringgold, and the Law Office of Amy P.
Lee and Amy P. Lee, jointly and severally, in the
amount of $21,366, payable to Rule, and in the
separate amount of $8,500, are payable to the
clerk of this court. Appellants’ counsel of record
and the clerk of this court are each ordered to
forward a copy of this opinion to the State Bar
upon return of the remittitur. (Bus. & Prof.
Code, §§ 6086.7, subd. (a)(3), 6068, subd. (o)(3).)
All sanctions shall be paid no later than 15 days
after the date the remittitur is filed.
In the interests of justice, as between
appellants and Hartford, the parties are to bear

App.75
their own costs on appeal. Rule, Ponci, and
Thornhill are awarded costs on appeal.
NOT TO BE PUBLISHED IN THE OFFICIAL
REPORTS

WE CONCUR:

DUNNING, J.*

MANELLA, P. J.
CURREY, J.
* Retired judge of the Orange Superior Court,
assigned by the Chief Justice pursuant to article
VI, section 6 of the California Constitution.

App.76
APPENDIX B
Court of Appeal, Second Appellate District,
Division Four - Nos. B248667, B250084, B256763,
B261032
S257525
IN THE SUPREME COURT OF CALIFORNIA
En Banc

SUPREME COURT
FILED
AUGUST 28, 2019
Jorge Navarrete Clerk
__________________
Deputy
LISA TURNER et al., Plaintiffs and Appellants,
v.
THE RULE COMPANY et al.,
Defendants and Respondents.

App.77
LISA TURNER et al., Plaintiffs and Appellants,
v.
HARTFORD CASUALTY INSURANCE COMPANY;
Defendant and Appellant;
THE RULE COMPANY et al., Defendants and
Respondents.
The petition for review and application for stay
are denied.
CANTIL-SAKAUYE
Chief Justice

App.78
APPENDIX C
IN THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION 4
COURT OF APPEAL
SECOND DIST.
FILED
Aug 05, 2019
DANIEL P. POTTER, Clerk S
Veverka Deputy Clerk
LISA TURNER et al.
Plaintiffs and Appellants
v.
THE RULE COMPANY et al.
Defendants and Respondents.
B248667, B250084, B261032
Los Angeles County Super. Ct. No. BC463850

LISA TURNER, et al.
Plaintiffs and Appellants,
v.
HARTFORD CASUALTY INSURANCE COMPANY,
et al. Defendant and Appellant;
THE RULE COMPANY et al.,
Defendants and Respondents.

App.79
B256763
Los Angeles County Super. Ct. No. BC463850
THE COURT:
Appellant Cornelius Turner’s petition for
rehearing and companion request for judicial notice
are denied.
Appellant Cornelius Turners request to
disqualify the appellate panel is denied. (Kaufman v.
Court of Appeal (1992) 31 Cal. 3d 933, 939-940; Lebbos
v. State Bar (1991) 53 Cal.3d 37, 41.)
s/ Manella
MANELLA, P.J.

s/ Currey
CURREY,

s/ Dunning
DUNNING J.

*Retired Judge of the Orange Superior Court
assigned by the Chief Justice pursuant to article VI,
section 6 of the California Constitution

App.80
APPENDIX D
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FOUR
MARIAN TURNER,
LISA TURNER
CORNELIUS
TURNER
v.

Appellants,

Case No. B248667,
B250084, B256763,
B261032, B268792,
B252461
LASC No. BC463850

HARTFORD CASUALTY
INSURANCE COMPANY,
THE RULE COMPANY
INCORPORATED, NADJA
SILLETTO SILLETTO,
NORMA PIERSON, TONY
GAITAN, ELAINE ALBRECHT,
THORNHILL & ASSOCIATES
Respondents.
-----------------------------------------------------------------PETITION FOR REHEARING
-----------------------------------------------------------------On Appeal from Orders of the Superior Court of the

App.81
State of California,
County of Los Angeles,
The Honorable Yvette Palazuelos
Nina R. Ringgold, Esq. (SBN 133735)
LAW OFFICE OF NINA R. RINGGOLD
9420 Reseda Blvd. #361
Northridge, CA 91324
Telephone: (818) 773-2409
Facsimile: (866) 340-4312
Attorney for Nina Ringgold,
Law Offices of Nina Ringgold

App.82
INTRODUCTION
Appellants Nina Ringgold and the Law Office
of Nina Ringgold hereby file this Petition for
Rehearing from the unpublished decision of the
California Court of Appeal Second Appellate District
Division Four dated July 10, 2019. A timely petition
for rehearing must be granted if the decision is based
on an issue not raised or briefed by any party and
the court fails to give the parties an opportunity to
present supplemental briefs on that issue. Govt.
Code § 68081; People v. Alice (2007) 41 Cal.4th 668,
674-679. Also, a petition for rehearing may be
granted on the ground that the court reached an
improper decision because of a mistake of law or
misstatement of a material fact in the case. In re
Jessup’s Estate (1989) 81 Cal. 408, 471.
The decision imposes sanctions against the
Law Offices of Nina Ringgold and Nina Ringgold
(attorney for Cornelius Turner) the Law Offices of
Amy Lee and Amy Lee (attorney for Marian Turner
and Lisa Turner) jointly and severally in the amount
of $21,366 payable to Rule and an additional sum of
$8,500 payable to the clerk of court. (Opn. 3). The
focus of the sanction is based the jurisdiction and
disqualification issues raised. (Opn p. 20-25). To

App.83
reach the conclusion that the legal issues in Appeal
B256763 are frivolous require this court to disregard
federal statutory and constitutional authority and
decisions of the Supreme Court Committee on
Judicial Ethics. All cited by appellants, but not
mentioned in the decision. Additionally as to the
issue of constitutional judicial resignation and the
requirement of disclosure and consent -- these
arguments are not frivolous and the panel has a
general and financial interest that are
disqualifying.23 The decision also disregards (as if it
was never filed), the request for recusal filed on May
9, 2019 before the death of Cornelius Turner.
Appellants have independently requested recusal
and move for disqualification in conjunction with this
petition. The decision at page 23-25 does not relate
to the arguments or reflected the legal arguments
asserted by the appellants. Instead, this portion of
the decision is not appellant’s argument but rather

  These  matters  are  at  issue  in  the  related  Voting  Rights  Case  
referenced  in  the  appeal.    There  has  already  been  an  admission  
filed  in  the  federal  court  concerning  the  admission  of  disqualifying  
interests.    (See  RJN  8.106-­‐‑110).    Herein  appellants  request  that  the  
proceedings  be  stayed  pending  review  in  the  United  States  
Supreme  Court.  Certainly  there  is  an  appearance  the  decision  is  
being  used  as  a  platform  as  to  matters  under  federal  review.  

23

  

App.84
issued as a platform to address judicial
compensation. Appellants’ arguments have nothing
to do with judicial compensation.
Court users, including out of state court
citizens, must be given disclosure that Section 5 of
Senate Bill x211 (“Section 5 of SBX2 11”)
involuntarily forces a waiver of federal statutory and
constitutional rights. They must be given an
opportunity to withhold consent to proceedings
where the involuntary waiver is made. There must
be an official record (with a court reporter or
audiotape) where the waiver is made or disclosures
about acceptance of public employment and office by
a judge of a court of record are made. The sanction
imposed against the appellants is not reasonable or
appropriate based on the legal issues raised.
Because there was no response to the request for
recusal the sanction appears to be an outcome of the
general and financial disqualifying interests and
more designed to force attorneys to betray the
constitution and their client’s interests discouraging
them from informing clients of the existence,
meaning, and forced waiver caused by uncodified
Section 5 of SBX 211.

App.85
To continue to maintain federal financial
assistance and to claim to be a viable form to hear
federal claims California courts must comply with
the applicable federal law and be straightforward
about the waivers forced upon the public. It is also
important to be straightforward and truthful about
how Section 5 of SBX 211 is linked to past findings of
intentional vote discrimination in judicial elections.
It is that history that led to uncodified Section 5 of
SBX 211--- not judicial compensation.
Sanctions are not appropriate under In re
Marriage of Flaherty (1982) 31 Cal.3d 637, 651. The
sanction imposed is intend to violate First
Amendment rights as well as the claims made as to
voting.24 Professional speech is protected under the
first amendment. The claims are subject to strict

  Although  CTurner  was  not  a  California  voter  he  previously  

24

raised  claims  in  the  Voting  Rights  Case  as  to  the  procedures  to  be  
used  to  provide  notice  to  court  users  (particularly  out  of  state  
users  of  the  California  courts)  and  the  retaliation  encountered  
when  he  objected  to  state  court  jurisdiction  and  requested  that  his  
case  be  dismissed  without  prejudice  and  a  tolling  order.    He  did  
not  have  disclosure  and  did  not  consent.    Although  referred  to  
generally  in  the  appeal  as  the  voting  rights  case  the  case  is  broader  
in  that  it  seeks  to  implement  certain  administrative  procedures  
and  declaration  of  rights.  

  

App.86
scrutiny. See NIFLA v. Becerra (2018) 138 S.Ct.
2361 (strict scrutiny standard applies to professional
speech),
NAACP v. Button (1936) 371, U.S. 415, 430438 (the power to regulate does not allow
impairment of the First Amendment), NAACP v.
Alabama ex rel. Flowers, 377 U.S. 288, 297 (1964),
See also Vieth v. Jubelirer, 441 U.S. 267, 313-16
(Kennedy, J concurring in judgment). After removal
only the federal court and restore jurisdiction to a
state court or tribunal. National S.S. Co. v. Tugman
(1882) 106 U.S. 118, 122, Ackerman v. Exxon Mobil
Corp. (4th Cir. 2013) 734 F.3d237.
INTRODUCTORY FACTS
A personal injury action was filed on July 22,
2010 against Cornelius Turner (date of death 6/7/19)
(“CTurner”) in the United States District Court for
the Central District of California. CTurner was a
citizen of the State of Mississippi and the plaintiff
Lisa Turner (“LTurner”) was a citizen of the State of
California.25 Both the plaintiff and defendant are
African American. The case was assigned to Judge
Valerie Baker Fairbank and assigned the case

  LTurner  is  now  a  citizen  of  the  State  of  Mississippi.  

25

App.87
number CV10-5435-VBF. With the insurance broker
and insurance company refusing to provide basic
information CTurner made a blind tender of defense
to Hartford. It was discovered that for over 20 years
CTurner and his wife had been paying over 3 times
the market rate for insurance for over 20 years.
Before discovery of the basis for federal housing
discrimination claims CTurner filed a third party
complaint against Hartford. His wife Marian Turner
(“MTurner”) was later added to the personal injury
complaint and when she filed her answer she also
filed a third party complaint asserting federal
discrimination claims.
Before the TPCs of the joined by the jointly
insured spouses could be consolidated, based on
Hartford’s erroneous argument that the personal
injury case was the same of the TPC of CTurner,
Judge Fairbank entered a realignment order that
destroyed diversity and required CTurner to refile
his TPC in the state court. This left Judge Fairbank
with the TPC of one insured in the district court with
federal fair housing claims and the other insured
(CTurner) in the state court asserting his federal fair
housing claims. (See RJN 1.62-76). The decision
improperly and erroneously indicates that “Two third
party complaints were consolidated under one case

App.88
number and remained in the federal court.
Appellants then voluntarily dismissed the federal
claims”)(Opn p. 6). Then the decision
mischaracterizes the state court litigation including
by inferring that CTurner had a pending federal TPC
in the federal court. (Opn p. 6). The elderly out of
state joint insureds both had federal claims and
based on the erroneous claims of Rule, Hartford, and
Thornhill, they could not proceed in one action
together.
Despite the fact that Rule, Gaitan, and
Albrecht (collectively “Rule”) were aware that Judge
Fairbank had entered orders that required the filing
of a June 17, 2011 complaint by CTurner in the state
court (RJN 1.6). After service of the complaint on or
about September 8, 2011, on September 15, 2011
Rule removed the case back to the federal court.
(RJN 1).
When CTurner filed the state court June
17,2011 complaint there was no disclosure at the
filing window or available to general court users at
the time that there was a requirement to
involuntarily waive federal statutory and
constitutional rights or that there was a requirement

App.89
to waive state constitutional rights under uncodified
section 5 of Senate Bill x211 (“Section 5 of SBX211”).
The Rule removal was initially assigned to
Judge Otis Wright at case assignment. (RJN 1.2).
Judge Fairbank unambiguously and properly took
jurisdiction over the portion of the case that was refiled by Rule under the guise of removal. And she
continued to jurisdiction over the case that remained
in the federal court. (RJN 2.87-88. 3.89-96, 5.99-100,
6.101-102, 7.103-105). Judge Percy Anderson, who
had never been tentatively assigned the case at case
assignment signed a transfer order over the
signature line of Judge Fairbank. (RJN 4.97-98).
The decision specifies that the record does not
demonstrate that the “entirely separate CTurner
lawsuit was ever remanded back to the superior
court, appellants insist that the trial court had no
jurisdiction to proceed with this action. Appellants
cite to no authority for the proposition that the
federal court’s failure to remand one lawsuit deprives
a trial court of jurisdiction to proceed with a different
action.” (Opn 22). 28 U.S.C. § 1446 (d) prohibited the
trial court from asserting jurisdiction over any aspect
of a removed action. The decision then asserts that
CTurner dismissed his state action on December 6,

App.90
2011. (Opn p. 22). This statement is entirely
misplaced. Judge Dau continued to act in a case that
had been removed and his actions or any action
pertaining to the removed case were completely and
utterly void as a matter of law. A local rule of court,
a dismissal (attempting to prevent the perpetuate
void proceedings initiated by Rule, Hartford, and
Thornhill) could not restore jurisdiction to the state
court.26 Although the decision does not mention it is
clear that any claimed dismissal in the federal case
could not restore jurisdiction to Judge Dau to act in
any manner in the removed case.27 Therefore even if

  It  is  improper  to  unilaterally  take  judicial  notice  of  matters  

26

outside  the  record  without  allowing  an  opportunity  to  be  hear  
particularly  when  the  court  is  claiming  that  the  jurisdictional  
arguments  are  a  basis  for  sanction.    (See  Opn  fn  13).  
  
27  (See  also  Allstate  Ins.  Co.  v.  Superior  Court  (1982)  132  
Cal.App.3d  670,  676.  (“There  having  been  a  dismissal  without  
remand,  there  was  no  action  in  which  respondent  court  could  
‘resume’  jurisdiction….That  court  consequently  erred  and  
exceeded  its  jurisdiction,  in  permitting  further  proceedings  in  
action  No.  P  37639  after  the  federal  court  had  dismissed  it  as  action  
No.  C80  1627  AJZ”);  Murray  v.  Ford  Motor  Co.  (5th  Cir.  1985)  770  
F.2d  461,  463  (the  court  lacked  jurisdiction  to  act  or  to  set  aside  a  
default  after  removal  had  already  taken  place).    Judge  Dau,  
completely  lacking  any  jurisdiction,  could  not  continue  to  act  as  a  
an  assigned  case  that  had  been  removed  to  divest  other  judges  of  
cases  of  jurisdiction.    Moreover,  MTurner  and  LTurner  never  had  

App.91
it could be disregarded that Judge Fairbank never
lawfully lost jurisdiction of the case as the assigned
judge under the General Order of the District Court,
Judge Palazuelos could not obtain jurisdiction over
any case of the Turners because her assignment was
entirely based on Judge Dau acting as if he had a
case before him. Judge Dau could not designate a
case that was not before him under 28 U.S.C. §1446
(d) and the Supremacy Clause as a “lead” case in
order to make orders.
The decision specifies that a final judgment
was entered on April 25, 2016. (Opn p. 3) However,
the courted lack jurisdiction to enter judgment on
multiple grounds. (lack of a remand order, appeal
from a mandatory injunction, lack of disclosure and
consent).
Rather than imposition of sanctions against
appellants the court should have issued an order to
show cause as to Rule for proceeding without a
remand order causing undue expense and delay.

any  case  before  this  judge  and  he  had  never  had  any  jurisdiction  
whatsoever  over  their  cases.  

App.92

ARGUMENT
I.
There Is Error Of Law As To the
Jurisdictional And Disqualification Issues.
A.
There Is A Lack of Jurisdiction Due
To The Lack of A Remand Order
The decision erroneously claims there were
multiple cases in the federal court. There was one
case assigned to one judge, Judge Fairbank. With
that case there were various pleadings (i.e.
complaint, answer, TPC). The third party
complaints were not bifurcated. The decision
completely relies upon the dismissal filed on
December 6, 2011 in the state court. Judge Dau
continued to exercise jurisdiction in violation of 28
U.S.C. § 1446 (d). There was nothing before him.
The voluntary dismissal attempting to stop the judge
from exercising jurisdiction where none exists has no
relevance to the pertinent legal argument. The case
had already been removed and assigned in the
federal court. There was nothing to dismiss and
nothing for Judge Dau to act upon. The argument
concerning the lack of a remand order is not frivolous
in any fashion.

App.93
B.
Sanctions Should Not Be Impose As
To Good Faith And Well Founded Legal
Arguments That Pertain To Judicial
Resignation Particularly Since Attorneys Are
Required To Uphold The State and Federal
Constitution and To Not Betray The Interests
Of Their Clients
The California Commission on Judicial
Performance had twice render decision that the
acceptance of public employment by judges of the
courts of record is unconstitutional. Therefore, to
claim that arguments that the uncodified Section 5 of
SBX 211 is unconstitutional is frivolous is not
appropriate. Moreover, two justices (current and
prior) have sought legal action to obtain declarations
of rights concerning California Constitution Art VI §
17 and its application to them. Attorneys who have
constitutional duties to advise clients about
disclosures required and their clients have an equal
right to raise the legal issues that pertain to their
rights. This is not frivolous. Moreover the
arguments are not indecipherable. Instead, they are
undesirable to those who may have a general and
financial interest.

App.94
C.
Recusal Is Required In This Case
And The Panel Has Not Ruled on The May 9,
2019 Request For Recusal
Particularly given the admission of disqualifying
interest filed in the federal court disqualification is
required. The court should enter a rule on the May
9, 2019 request for recusal and grant the requested
recusal/disqualification of appellants.
An appearance of impropriety, whether such
impropriety is actually present or proven, weakens
our system of justice. See In re Murchison (1955)
349 U.S. 133, 136. While claims of bias generally are
resolved by common law, statute or professional
standards of the bench and bar, the Due Process
Clause of the Fourteenth Amendment “establishes a
constitutional floor.” Bracy v. Gramley (1997) 520
U.S. 899, 904. The Due Process Clause requires
recusal not only where there is proof that a judge is
actually bias, but also where an objective inquiry
establishes a probability of bias. Caperton v. A. T.
Massey Coal, Co., Inc. (2009) 129 S.Ct. 2252, 22592263, Tumey v. Ohio (1927) 273 U.S. 510, 532,
Georgevich v. Strausz (3rd Cir. 1985) 772 F.2d 1078,
1087-1089. The potential financial interests and the
fact that there was pending federal litigation “offer a
possible temptation to the average ... judge to ... lead

App.95
him not to hold the balance nice, clear and
true.” Aetna Life Ins. Co. v. Lavoie (1986) 475 U.S.
813. Also, because disqualification is mandatory,
there is not sufficient number of qualified justices to
render a decision. The relief sought by appellants
should be granted.
II.

There Was An Automatic Stay

The decision is in error because the appellants
filed an appeal from a motion filed under CCP §526.
Not only was a motion filed, an opposition was filed,
and a reply filed. Finally, the trial court addressed
the motion for injunctive relief and CCP § 526 in the
resulting order. The appeal was not solely from a
protective order and this is not an accurate reflection
of the record.
III. There Is Not A Reasonable Basis For
Sanctions Against Appellants, But There is A
Reasonable Basis for Sanctions Against Rule
and It was Error Not To Issue the Requested
Order To Show Cause.
As discussed above and incorporated by
reference at this point, the arguments made on appeal
are not frivolous there is no basis for sanctions. The

App.96
amount specified is not proper because CRC 8.276 (b)
requires a declaration for sanctions and the only
itemization specified in attachment to the declations
was only in the amount of $7,230.00 and includes
unexplained redacted items.
IV.
There Are Grounds To Transfer This
Appeal To A Different Court Or To Stay The
Appeal Pending Determination Of The Related
Matters In The Federal Court
Appellants previously requested that the case
be dismissed without prejudice with an equitable
tolling order allowing the case to be filed in a
different tribunal that did not require an involuntary
waiver of federal and state rights. The members of
the voting rights case are requesting that their cases
be assigned to an out of state three-judge court for
determination of disposition of the cases first raising
the issue of constitutional judicial resignation and
development of procedures for disposition of future
cases pending election. Appellants do not waive these
objections and request transfer to a district or panel
of judges that do not have a general and financial
interests in the legal issues raised. Unavoidably each
panel member has a pecuniary interest and general
personal interest in the pending cases. Gibson v.
Berryhill, 411 U.S. 564, 579 (1973) (due process

App.97
violated when the decision makers had an indirect
general interest of sufficient substance that was in
competition with the parties), Aetna supra(due
process violated by participation of a judge in a case
where he had an indirect interest in the outcome).
V.
This Court Should Stay Issuance Of The
Remittitur And Stay Further Proceedings In
The Trial Court
Should this court deny this petition for rehearing,
appellants request that this court stay of the
issuance of a remittitur pending review in the
California Supreme Court and any further review in
the United States Supreme Court. This court has
full jurisdiction to exercise its control over
remittiturs in order to prevent wrong and injustice.
Trumpler v. Trumpler (1899) 123 Cal. 248, People v.
Fortman (1970) 4 Cal.App.3d 495; People v.
Rodriguez (1969) 275 Cal.App.2d 946.

App.98
CONCLUSION
For the foregoing reasons, this court should
grant this petition for rehearing.
Date: July 25, 2019
Respectfully Submitted,

By:

s/ Nina R. Ringgold
NINA RINGGOLD
Attorney for Appellants Nina
Ringgold, Law Offices of Nina Ringgold

App.99
CERTIFICATE OF WORD COUNT
The text of this petition consist of 3,132 words
as counted by the Word word-processing program
used to generate the petition.
Date: July 25, 2019
By:

s/ Nina R. Ringgold
NINA RINGGOLD
Attorney for Appellants

App.100
PROOF OF SERVICE
I hereby declare and state:
I am over the age of eighteen years, employed
in the City of Los Angeles, County of Los Angeles,
California, and not a party to the within action.
On July 25, 2019 I served a true and correct
copy of the following as indicated below:
PETITION FOR REHEARING
By Electronic Service through Truefiling on the
Following entities or persons:
Michael W. Ellison, Esq.
Smith - Ellison
18881 Von Karman, Suite 960
Irvine, CA 92612
Attorney for Craig Ponci, Hartford Casualty
Insurance Company
Philip Black, Esq.
Soltman Levitt Flaherty and Wattles LLP
90 E. Thousand Oaks Blvd., #300
Thousand Oaks, CA 91360
Attorney for Thornhill & Associates
Frank Gooch III
Gilchrist & Rutter

App.101
1299 Ocean Avenue Suite 900
Santa Monica, CA 90401-1000
Attorney for Rule
Amy P. Lee, Esq.
428 South Atlantic Blvd, Suite 312
Attorney for Marian Turner, Lisa Turner
I declare under penalty of perjury under the
laws of the State of California that the foregoing is
true and correct. Executed at Los Angeles,
California on July 25, 2019.
s/ Matthew Melaragno

App.102
APPENDIX E
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FOUR
MARIAN TURNER,
LISA TURNER
CORNELIUS
TURNER
v.

Appellants,

Case No. B248667,
B250084, B256763,
B261032, B268792,
B252461
LASC No. BC463850

HARTFORD CASUALTY
INSURANCE COMPANY,
THE RULE COMPANY
INCORPORATED, NADJA
SILLETTO SILLETTO,
NORMA PIERSON, TONY
GAITAN, ELAINE ALBRECHT,
THORNHILL & ASSOCIATES
Respondents.
-----------------------------------------------------------------MOTION TO DISQUALIFY/REQUEST
FOR RECUSAL
On Appeal from Orders of the Superior Court of the
State of California,
County of Los Angeles,

App.103
The Honorable Yvette Palazuelos
Nina R. Ringgold, Esq. (SBN 133735)
LAW OFFICE OF NINA R. RINGGOLD
9420 Reseda Blvd. #361
Northridge, CA 91324
Telephone: (818) 773-2409
Facsimile: (866) 340-4312
Attorney for Nina Ringgold,
Law Offices of Nina Ringgold

App.104
NOTICE IS HEREBY GIVEN that appellants
Nina Ringgold, Esq. and the Law Office of Nina
Ringgold hereby adopt, and incorporate by reference,
the request for recusal filed by appellants on behalf
of their client Cornelius Turner when he was alive on
May 9, 2019. The request for recusal is filed again
and included in the accompanying request for
judicial notice –item number 10. The request for
recusal is hereby incorporated by reference in
support of this motion.
Mr. Turner died on June 7, 2019. This case was fully
briefed over three years ago and previously set for
oral argument on August 11, 2016. (See request for
judicial notice –item number 9).
Appellants independently and separately
request recusal for the reasons specified in the
request filed on behalf Mr. Turner and on the further
grounds specified in the petition for rehearing.
Date: July 25, 2019.
By:

s/ Nina R. Ringgold
NINA RINGGOLD
Attorney for Appellants

App.105
PROOF OF SERVICE
I hereby declare and state:
I am over the age of eighteen years, employed
in the City of Los Angeles, County of Los Angeles,
California, and not a party to the within action.
On July 25, 2019 I served a true and correct
copy of the following as indicated below:
MOTION TO DISQUALIFY/REQUEST FOR
RECUSAL
By Electronic Service through Truefiling on the
Following entities or persons:

App.106
Michael W. Ellison, Esq.
Smith - Ellison
18881 Von Karman, Suite 960
Irvine, CA 92612
Attorney for Craig Ponci, Hartford Casualty
Insurance Company
Philip Black, Esq.
Soltman Levitt Flaherty and Wattles LLP
90 E. Thousand Oaks Blvd., #300
Thousand Oaks, CA 91360
Attorney for Thornhill & Associates
Frank Gooch III
Gilchrist & Rutter
1299 Ocean Avenue Suite 900
Santa Monica, CA 90401-1000
Attorney for Rule
Amy P. Lee, Esq.
428 South Atlantic Blvd, Suite 312
Attorney for Marian Turner, Lisa Turner
I declare under penalty of perjury under the
laws of the State of California that the foregoing is
true and correct. Executed at Los Angeles,
California on July 25, 2019.
s/ Matthew Melaragno

App.107
APPENDIX F
IN THE COURT OF APPEAL OF THE STATE
OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FOUR
MARIAN TURNER,
LISA TURNER
CORNELIUS
TURNER
v.

Appellants,

Case No. B248667,
B250084, B256763,
B261032, B268792,
B252461
LASC No. BC463850

HARTFORD CASUALTY
INSURANCE COMPANY,
THE RULE COMPANY
INCORPORATED, NADJA
SILLETTO SILLETTO,
NORMA PIERSON, TONY
GAITAN, ELAINE ALBRECHT,
THORNHILL & ASSOCIATES
Respondents.
_____________________________________________
REQUEST FOR JUDICIAL NOTICE
(FILED IN CONJUNCTION WITH PETITION

App.108
FOR REHEARING)
_____________________________________________
On Appeal from Orders of the Superior Court of the
State of California,
County of Los Angeles,
The Honorable Yvette Palazuelos
Nina R. Ringgold, Esq. (SBN 133735)
LAW OFFICE OF NINA R. RINGGOLD
9420 Reseda Blvd. #361
Northridge, CA 91324
Telephone: (818) 773-2409
Facsimile: (866) 340-4312
Attorney for Nina Ringgold,
Law Offices of Nina Ringgold

App.109
TO THE JUSTICES OF THE CALIFORNIA COURT
OF APPEAL, SECOND APPELLATE DISTRICT,
DIVISION FOUR
Appellants Nina Ringgold and the Law Office
of Nina Ringgold file this request for judicial notice.
They request judicial notice pursuant to California
Evidence Code § 459 (§§ 451, 452, 453).
Appellants also request judicial notice of the
following items:
1.
Filed: 9.15.11. Notice of Removal of action
under 28 U.S.C. § 1441 (b)(Federal Question) filed by
The Rule Company Incorporated (CV11-7653-ODW,
Judge Otis Wright)(BS 1-86).
2.
Dated: 9.20.11. Order of Judge Valerie Baker
Fairbank filed in proceedings already pending in the
federal court. (CV10-5435-VBF, Judge Valerie Baker
Fairbank) (BS 87-88).
3.
Filed: 9.24.11. Notice of re-filing action and
notice of related case. (CV11-7653-ODW, Judge Otis
Wright). Giving notice of same action being returned
by Rule immediately after ruling of Judge Valerie
Baker Fairbank. (BS 89-96).

App.110

4.
Filed: 9.27.11. Transfer order with signature
line bearing the name of Judge Valerie Baker
Fairbank with signature of different Judge, Judge
Anderson. Entered on docket when only Judge
Valerie Fairbank and Judge Otis Wright were
involved in the Rule removal (the removal involved
the same case that had been proceeding before Judge
Fairbank) (CV11-7653-ODW, Judge Otis Wright)(BS
97-98)
5.
Filed: 9.27.11. Minute Order of Judge Valerie
Baker Fairbank asserting jurisdiction over removed
case (Cornelius Turner v. Hartford et al.) and setting
a scheduling conference and rendering other orders.
(CV11-7653-VBF). (BS 99-100)
6.
Filed: 10.5.11. Minute Order of Judge Valerie
Baker Fairbank with exercising proper jurisdiction
over the removed case filed by Rule (which was in in
fact a return of the same case previously before
her)(Cornelius Turner v. Hartford et al)(CV11-7653VBF)(BS101-102).
7.
Filed: 10.11.11. Minute Order of Judge
Valerie Baker Fairbank continuing to exercise of
jurisdiction over the remaining portions of the

App.111
original case filed in federal court and continuing in
the federal court28 (CV10-75435-VBF)(BS 103-105).
8.
Filed: 2.20.14. Certificate of interested parties
filed in the federal court admitting that judges of the
Los Angeles Superior Court, justices of the California
Court of Appeal for the Second Appellate District,
the California Judicial Council, and others had
general and financial interest in the legal issues
raised by the Voting Rights Case and persons
involved in the issues raised in that case. The case
involved the one of the identified and lead plaintiffs
in the Voting Rights Case. (CV13-04621-SI)(BS 106110)
9.
Dated: 7.19.16. Order consolidating appeals
and vacating oral argument previously set for
August 11, 2016 despite the fact that appellants
Cornelius Turner and Marian Turner in their
80’s/90’s (BS 111-112)

28

The original case being Lisa Turner v. Cornelius Turner,
Marian Turner et. al, and third party complaints of Cornelius
Turner v. Hartford, Marian Turner et al v. Hartford et al. The
third party complaints could not be filed at the same time
because the joint insureds were sued at different times.

App.112
10.
Filed: 5.9.19. Request for recusal filed prior
to oral argument. The request was never been ruled
upon and now filed independently by appellant. (BS
113-125).
11.
Filed: 5.10.19. Official audio recording of oral
argument at Minute 25:08 Justice Pro Tem Kim G.
Dunning and Author of Decision indicating that
Section 5 of Senate Bill x211 is uncodified. It is this
exact point, that the provision is uncodified, that
amplifies the involuntarily waiver of the Civil Rights
Act of 1866, the Supremacy Clause and 14th
Amendment of the United States Constitution, and
Art VI §§ 17 & 21 of the California Constitution.
Date: July 25, 2019.
By:

s/ Nina R. Ringgold
NINA RINGGOLD
Attorney for Appellants

App.113
DECLARATION
I, NINA RINGGOLD, hereby declare as follows:
1.

If called as a witness I could and would

competently testify hereto.
2.

The attached exhibits numbers 1-10 are

true and correct copies of the originals and I hereby
authenticate these documents.
I declare under penalty of perjury that the
foregoing is true and correct.
Dated: July 25, 2019
/s/ Nina R. Ringgold

App.114
PROOF OF SERVICE
I hereby declare and state:
I am over the age of eighteen years, employed
in the City of Los Angeles, County of Los Angeles,
California, and not a party to the within action.
On July 25, 2019 I served a true and correct
copy of the following as indicated below:
REQUEST FOR JUDICIAL NOTICE
(FILED IN CONJUNCTION WITH PETITION
FOR REHEARING)
By Electronic Service through Truefiling on the
Following entities or persons:
Michael W. Ellison, Esq.
Smith - Ellison
18881 Von Karman, Suite 960
Irvine, CA 92612
Attorney for Craig Ponci, Hartford Casualty
Insurance Company
Philip Black, Esq.
Soltman Levitt Flaherty and Wattles LLP
90 E. Thousand Oaks Blvd., #300
Thousand Oaks, CA 91360
Attorney for Thornhill & Associates

App.115
Frank Gooch III
Gilchrist & Rutter
1299 Ocean Avenue Suite 900
Santa Monica, CA 90401-1000
Attorney for Rule
Amy P. Lee, Esq.
428 South Atlantic Blvd, Suite 312
Attorney for Marian Turner, Lisa Turner
I declare under penalty of perjury under the
laws of the State of California that the foregoing is
true and correct. Executed at Los Angeles,
California on July 25, 2019.
s/ Matthew Melaragno

App.116
APPENDIX F1
FRANK GOOCH III (Bar No. 70996)
fgooch@gilchristrutter.com
KEVIN M. YOPP (Bar No. 218204)
kyopp@gilchristrutter.com
GILCHRIST & RUTTER
Professional Corporation
1299 Ocean Avenue, Suite 900
Santa Monica, California 90401-1000
Telephone: (310) 393-4000
Facsimile: (310) 394-4700
Attorneys for Defendants The Rule Company, Inc.,
Nadja Silletto, Norma Pierson, Tony Gaitan, and
Elaine Albrecht
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CORNELIUS TURNER,
Plaintiff,

CASE NO. LACV1176530DW(RAx)

v.
HARTFORD CASUALTY
INSURANCE COMPANY;
THE RULE COMPANY,
INCORPORATED;
WESTERN SURETY
COMPANY; CRAIG PONCI;
NADJA SILLETTO;

NOTICE OF
REMOVAL OF
ACTION UNDER
28 U.S.C. 1441(b)
(FEDERAL
QUESTION)

App.117
NORMA PIERSON; TONY
GAITAN; ELAINE
ALBRECHT; THORNHILL
& ASSOCIATES, INC.;
and DOES 1-10;
Defendants.

TO THE CLERK OF THE COURT:
PLEASE TAKE NOTICE that Defendants The Rule
Company, Inc., Nadja Silletto, Norma Pierson, Tony
Gaitan, and Elaine Albrecht (collectively, “Rule” or
the “Rule Defendants”) hereby remove the state
court action described below to this Court.
1.
On June 17, 2011, an action was commenced
in the Superior Court of the State of California for
the County of Los Angeles, entitled Cornelius Turner
v. Hartford Casualty Insurance Co. et al, Los
Angeles Superior Court Case No. BC463639. A copy
of the Complaint is attached as Exhibit A. A copy of
the Summons is attached as Exhibit B.
2.
Rule believes that the first date that it would
be legally deemed to have received a copy of the
Complaint was on September 9, 2011, when Rule
was served with the Summons and Complaint. On
that date, Rule’s counsel signed notices of
acknowledgement for each of the Rule Defendants

App.118
and returned them to Plaintiff's counsel. 29
3.
This action is a civil action of which the Court
has original jurisdiction under 28 U.S.C. § 1331
because it contains federal question claims arising
under 42 U.S.C. § 1981-1982 (15th Cause of Action),
42 U.S.C. § 1985 (16th Cause of Action), and 42
U.S.C. § 3604-3605 (17th Cause of Action). The
action may therefore be removed to this Court under
the provisions of 42 U.S.C. § 1441(b).
4.
Rule realizes that the Complaint also contains
claims that were dismissed by this Court on May 19,
2011 because state-law issues predominated. Rule
means no disrespect to the Court Now, Plaintiff
Cornelius Turner’s Complaint also contains federal
discrimination claims that were not before the Court
previously. For the sake of efficiency and judicial
economy, Rule believes it is best to resolve these
newly-added federal discrimination claims along
with those in Central District Case No. CV 10-5435
VBF(Ex) because they pertain to the same conduct
by the Defendants in this matter, involve the same
parties, transactions, personal injury, and insurance
claim handling, and therefore call for determination
of the same or substantially related or similar
questions of law and fact as the case already pending
before the Court. By statute, Rule could not remove
just the new federal claims; it had to remove the
entire action.
29

Cornelius Turner's counsel also attempted some kind of
improper substantiated service on September 8, 2011, which
was not valid or effective service.

App.119

5.
Rule believes it would be appropriate for the
Court to exercise its discretion to remand the
previously-dismissed state law claims under 28
U.S.C. § 1441 (c).30 Absent the newly-added federal
claims, there would be no removal jurisdiction over
the action because the Rule Defendants are citizens
of the State of California. See 28 U.S.C. § 1441(b).
6.
Counsel for Rule hereby certifies that all the
other Defendants who have been served with the
Summons and Complaint consent to the removal of
this action.
DATED: September 15, 2011
GILCHRIST & RUTTER
Professional Corporation
KevimM. Topp
Attorneys for Defendants
The Rule Company, Inc., Nadja
Silletto, Norma Pierson, Tony Gaitan,
and Elaine Albrecht

30

Plaintiff Cornelius Turner has improperly included in his
state court Complaint claims that were dismissed with
prejudice by this Court - his invasion of privacy claim (11th
Cause of Action) and his intentional infliction of emotional
distress claim (12th Cause of Action). Rather than remanding
these two claims to state court, the Court should dismiss these
claims with prejudice (again).

App.120
APPENDIX F2

FILED
LOS ANGELES SUPERIOR COURT
JUN 17 2011
John A, Clarke Clerk
By Darnetta Smith, Deputy
NINA R. RINGGOLD, ESQ. (SBN (CA) 133735)
LAW OFFICE OF NINA R. RINGGOLD
9420 Reseda Blvd. #361
Northridge, CA 91324
Tel: (818) 773-2409, Fax: (866) 340-4312
Email: nrringgold@aol.com
Attorney for Plaintiff Cornelius Turner
SUPERIOR COURT OF THE STATE OF
CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
CORNELIUS TURNER,
Plaintiff
v.

Case No.: BC463639

HARTFORD CASUALTY INSURANCE COMPANY;
THE RULE COMPANY, INCORPORATED;
WESTERN SURETY COMPANY; CRAIG PONCI;
NADJA SILLETTO, NORMA PIERSON; TONY
GAITAN, ELAINE ALBRECHT;THORNHILL &
ASSOCIATES, INC.; and DOES 1-10.
Defendants.

App.121

COMPLAINT OF CORNELIUS TURNER FOR:
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.
14.
15.
16.
17.

Fraud
Misrepresentation
Fraud in the Inducement
Mistake
Reformation
Broker Negligence
Breach of Contract
Breach of the Covenant of Good Faith And Fair
Dealing
Deceptive and Unfair Practices (Cal. Bus. &
Prof. Code § 17200 et seq.)
Deceptive and Unfair Practices as to Seniors
(Cal. Civ. Code § 1761, 3345, Cal. Ins. Code §
785)
Invasion of Privacy
Intentional Infliction of Emotional Distress
Negligent Infliction of Emotional Distress
Implied Contractual Indemnity and Equitable
Indemnity
Violation of 42 U.S.C. 1981 & 1982
Violation of 42 U.S.C. 1985
Violation of 42 U.S.C 3604 & 3605
JURY TRIAL DEMANDED

App.122
Plaintiff Cornelius Turner (“CTurner”) on this
Complaint alleges as follows:
PARTIES
1.
Plaintiff, CTurner, is an African American
individual who resides in the State of Mississippi
and is a citizen of this state. He is presently eighty
three (83) years old.
2.
CTurner is informed and believes and thereon
alleges that Hartford Casualty Company (“Hartford”)
is a New Jersey Corporation with its principal place
of business in the State of Indiana.
3.
CTurner is informed and believes and thereon
alleges that The Rule Company, Incorporated
(“Rule”) is a California Corporation with its principal
place of business in the State of California and is an
independent insurance broker, an insurance agent,
and an agent of Hartford.
4.
CTurner is informed and believes and thereon
alleges that Western Surety Company is a South
Dakota Corporation with its principal place of
business in the State of Illinois, is the Surety
Company for Rule, and has issued a bond (i.e. Bond #
FX-R24084654) in favor of Rule. All references to
Rule in this complaint include and shall be deemed
to include Western in that Western is a surety for

App.123
Rule.
5.
CTurner is informed and believes and thereon
alleges that Craig Ponci (“Ponci”) is an individual
who resides in the State of Oregon and is a citizen of
this state. Ponci is also a claims agent for Hartford.
6.
CTurner is informed and believes and thereon
alleges that Nadja Silletto is an individual residing
in the State of California and a citizen of this state
and is a broker, agent, agent of Hartford, and
employee of Rule.
7.
CTurner is informed and believes and thereon
alleges that Norma Pierson is an individual residing
in the State of California and a citizen of this state
and is a broker, agent, agent of Hartford, and
director of risk management for Rule.
8.
CTurner is informed and believes and thereon
alleges that Tony Gaitan (“Gaitan”) is an individual
residing in the State of California and a citizen of
this state and is a broker, agent, agent of Hartford,
and employee of Rule.
9.
CTurner is informed and believes and thereon
alleges that Elaine Albrecht (“Albrecht”) is an
individual residing in the State of California and a
citizen of this state and is a broker, agent, agent of
Hartford, and employee of Rule.

App.124
10.
CTurner is informed and believes and thereon
alleges that Thornhill & Associates, Inc. is a
California Corporation with its principal place of
business in the State of California and was retained
by Rule.
11.
CTurner is unaware of the true identity,
nature and capacity of each of the defendants
designated herein as a DOE. He is informed and
believes and thereon alleges that each of the
defendants designated herein as a DOE is in some
manner responsible for the damages and injuries as
are alleged herein. Upon learning the true identity,
nature, and capacity of the ROE defendants,
CTurner will amend this complaint to alleged their
true names and capacities.
12.
CTurner is informed and believes and thereon
alleges that at all material times herein alleged that
the defendants, and each of them, were the agents,
servants and employees of the other defendants, and
each of them.
13.
CTurner is informed and believes and thereon
alleges that at all times Hartford was vicariously
liable for the tortuous acts committed by its
employees and agents, for which it provided direct or
ostensible authority, or for acts within the course
and scope of their employment or agency, and even if

App.125
the conduct was not within the course of scope of
such employment or agency, it is responsible for the
acts which it ratified, justified, or continued.
14.
CTurner is informed and believes and thereon
alleges that at all times Rule was vicariously liable
for the tortuous acts committed by its brokers,
agents and employees for which it provided direct or
ostensible authority, or for acts within the course
and scope of their employment or agency, and even if
the conduct was not within the course of scope of
such employment or agency, it is responsible for the
acts which it ratified, justified, or continued.
15.
Lisa Turner (“LTurner”), is an individual who
resides in the State of California and is a citizen of
this state. LTurner has filed an action against
CTurner and a separate action against the wife of
CTurner for personal injuries. The community
property estate would be liable for the claims and
damages alleged by LTurner.
16.
After Hartford did not respond to the tendered
defense in October 2010, all insureds entered into
binding agreements with LTurner. Dorian Turner
(“DTurner”) agreed to assign rights to LTurner in
exchange for a dismissal with prejudice. MTurner
agreed to assign certain claims and to an entry of
judgment in the amount of $4,100,000. Plaintiff

App.126
believes this amount exceeds the applicable policy
limit or the alleged policy limit of Hartford. CTurner
agreed to a binding dispute resolution process.
REFUSAL TO PROVIDE POLICIES AND
RECORDS PERTAINING TO INSURANCE AND
CLAIMS [HARTFORD AND RULE]
17.
CTurner diligently attempted to obtain
complete and accurate copies of insurance policies in
which he is designated as an insured from Hartford
and from Rule and failed to provide him with the
requested policies before filing a third party
complaint in the action which had been filed by
LTurner in the federal court.
18.
CTurner has attempted to obtain a copy of the
tape recording of the statement taken of CTurner
and his wife Marion Turner on or about September
23, 2008 in order to review and make corrections.
CTurner made multiple requests for the statement
during the period September 24, 2008 to February
17, 2010. On or about February 17, 2010 CTurner
made a made a written request and provided this
request to Silletto at Rule. After LTurner filed a
lawsuit against CTurner on or about July 22, 2010,
on or about August 17, 2010 Gaitan of Rule provided
two separate transcriptions of the recorded
statement. The two separate transcriptions are not

App.127
identical and Hartford refuses to provide a duplicate
of the tape recording. There were not two separate
recorded statements taken of CTurner and his wife
and they have not been afforded a reasonable
opportunity to make any correction in compliance
with California law. CTurner has also attempted to
obtain information concerning files, records, and
statements without success. See Cal. Ins. Code §
791.03, 791.08, 791.09.
19.
In addition to policies and statements,
CTurner has attempted to obtain documents and
files relating to insurance and related matters and
Hartford and Rule have failed to provide this
information or have provided inadequate
information. Rule provided a file but it does not
include policies, applications for insurance, or even
the information which CTurner provided to Rule.
20.
Due to the substantial prejudice, CTurner
requests that he be allowed leave to amend this
complaint when the necessary information is
provided.
CHARACTERISTICS OF THE PROPERTY
INSURED, THE INSUREDS, AND AREAS IN
WHICH INSURANCE WAS PROVIDED
21.
On or about December 21, 1989, MTurner,
DTurner, and CTurner became owners of the

App.128
property located at located at 5615 Coliseum Street,
Los Angeles, CA. The zip code for this area is 90016.
LTurner continuously lived in the property as
intended. LTurner is an adult child of MTurner and
CTurner. DTurner is also an adult child of MTurner
and CTurner.
22.
All of the Turners are African American and
members of a protected class.
23.
The population in the general area where the
property is located is approximately 78.5% African
American. The median household income is
approximately $29,079 which is significantly lower
than the average income in the United States. The
property is located in the Empowerment Congress
West Area Neighborhood Council (“ECWANDC”).
ECWANDC is one of 91 certified neighborhood
councils in the City of Los Angeles.
24.
According to 2000 United States Census data
the general area of Jackson, Mississippi where
MTurner, DTurner, and CTurner are located has an
African American population of 70%. It is ranked
number 1 for the metropolitan area with the highest
percentage of African Americans.
25.
Based on widely known demographic
information and identifying information (i.e. zip
codes, area codes, other) which could target the

App.129
location of the property, owners, prospective
insureds, and/or insureds; the location of the
mailings, telephone communications, fax
transmissions, and other forms of interstate
communications; personal contacts with the Turners,
Grace Farrell or others; or linguistic profiling based
on telephone contacts; the defendants knew and/or
were able to determine that the Turners were
African American or highly likely to be African
American.
26.
Availability of insurance is essential to
property ownership in that lenders are unwilling to
provide credit unless insurance can be obtained for
property. Charging high premiums and failing to
provide information and other services in areas
where large numbers of African American persons
reside frustrates the right to property ownership and
rights and liberties obtained through property
ownership. Discrimination as to insurance and the
business of insurance and related services raises the
cost of property ownership and housing for African
Americans and their ability to achieve upward
mobility. CTurner alleges that there was both
disparate treatment and disparate impact in the
discrimination of the defendants.

App.130
GENERAL ALLEGATIONS
27.
On or about December 21, 1989 CTurner, his
wife MTurner, and his daughter, DTurner became
owners of property located at 5615 Coliseum St., Los
Angeles, CA. Since the date of purchase LTurner
has continuously lived in the property as intended at
the time of purchase. LTurner is an adult child of
CTurner and Marian Turner. CTurner
communicated with Rule by telephone and explained
that the owners of the property wanted an insurance
policy which covered the property and their general
liability exposure (including any injury to LTurner),
but excluded personal contents and earthquake
insurance. Rule was informed that CTurner did not
reside in the property. Rule informed CTurner that
the insurance it had selected provided the coverage
specified by the owners. CTurner was informed by
Rule that the insureds on the policy would be
CTurner, Marian Turner, and Dorian Turner. All
premiums for insurance policies selected by Rule
from 1989 to October 8, 2009 were properly paid.
28.
Commencing in or about October 8, 2004 Rule
insured the property with a policy through Hartford.
The insureds were not provided a copy of the policy.
They were later provided with notice that they were
being overcharged for the Hartford policy. However,

App.131
they were not provided with information of the
reasons or calculation of the overcharge. The bills
and information concerning the insurance was sent
to the State of Mississippi from inception of the
policy until its termination.
29.
Continuously Hartford identified Rule as its
agent and informed CTurner that there was
insurance with Hartford through Rule.
30.
Rule later indicated that it was going to
change the insurance policy and the CTurner again
informed Rule of their requirements for insurance
and were again assured that changes would be made
to meet the requirements consistently specified by
the insureds.
31.
On or about July 24, 2008 LTurner fell in the
shower. Heavy glass fell on her causing severe life
threatening injuries. Ultimately LTurner’s arm,
which had been lacerated to the bone, had to be
amputated.
32.
CTurner attempted to obtain a complete copy
of the policy without success. He sent a written
request to Silletto at Rule.
33.
CTurner is informed and believes and thereon
alleges that on or about August 13, 2008 Grace
Farrell contacted Rule to report the accident of

App.132
LTurner. Authorization by LTurner for any
presentation of a claim did not arise until on or about
June 2009. Hartford and Rule failed to protect the
interest of the insured including but not limited to
failing to conduct a reasonable investigation with
authorization of LTurner or the insureds, falsely
claiming that the insureds had filed a claim in
communications with LTurner, falsely claiming that
LTurner had submitted and authorized a claim in
communications with the insureds, failing to obtain
proper designation from LTurner as a claimant, and
even failing to inform the insureds when LTurner
actually field a claim in June 2009. Hartford acted
to protect its own interest and interest of Rule and
others and failed to initiate or allow an opportunity
for settlement. Under the pretext of processing a
claim of LTurner, which did not yet exist, defendants
began to build a case to deny coverage of the
insureds while refusing to provide the insureds with
information (including a complete copy of the policy
or notification when an authorized claim had been
submitted by LTurner). The conduct of defendants
included but was not limited to:
a.
Rule and Hartford collected
information to deny coverage of the insureds before
LTurner had submitted a claim. See Cal. Code of
Regulations 2695.2 & 2695.5 (c). In this process Rule

App.133
used an independent adjustor Thornhill & Associates
to obtain information without proper releases and
authorization or claimant designation from LTurner
and they refused to provide the insureds with a full
copy of the policy.
b.
Rule and Hartford refused to
provide the insured seniors (CTurner and Marion
Turner) with a copy of their recorded statement until
after Rule and Hartford felt the statute of limitations
had expired on the claims of LTurner. Rule and
Hartford never took an independent recorded
statement of Marian Turner or Dorian Turner. The
recorded statement of CTurner had little to do with
an investigation of any claim of LTurner, but rather
was Hartford and Rule’s effort to terminate coverage
based on their own errors, concealment, and fraud.
Hartford then sent a notice of nonrenewal of the
policy of insurance and erroneously denied coverage
under the policy.
c.
Rule and Hartford refused to
provide a complete copy of the policies. See Cal. Code
of Regulations 2695.4.
d.
In order to facilitate the pretext
of investigating the claim of LTurner, and while
refusing to provide the insureds with a copy of the
policy, Pierson of Rule and Ponci of Hartford, and

App.134
others, devised and orchestrated an investigation to
support termination of coverage and the policy when
the insureds at this point had merely requested to
see the full policy of insurance. See Cal. Code of
Regulations 1695.4 (d) “Except where a time limit is
specified in the policy, no insurer shall require a first
party claimant under a policy to give notification of a
claim or proof of claim within a specified time.”
e.
Hartford began the process of
moving to terminate the policy and coverage of the
property. CTurner is informed and believes and
thereon alleges that the first time that Hartford
attempted but inadequately provided notice of
disclosure of its agent’s compensation was during the
period it was moving to terminate the policy of
insurance.
f.
Hartford notified Rule (as its
agent) that it had not correctly written the Hartford
insurance policy.
g.
Without written authorization or
permission from the insureds or proper disclosure to
CTurner and the insureds, Hartford and Ponci began
to independently contacting and directing employees
in the business of CTurner to provide information
regarding CTurner’s business although the property
has nothing to do with the business of CTurner.

App.135
Hartford and Rule then shared this information
without authorization or permission.
h.
Hartford and Rule established a
reserve for the loss of $1,500,000 for the injuries to
LTurner. Hartford then denied the claim actually
presented by LTurner without allowing an
opportunity for settlement discussions or review
(including the review of medical records) provided by
LTurner.
i.
By the time Hartford received
authorization and a valid claim from LTurner with
her medical records, Hartford had already denied
coverage under a pretext of a nonexistent claim of
the insureds (who were still attempting to obtain a
complete copy of the insurance policy to assess their
rights and interests).
34.
It was later discovered by CTurner after
denial of the claim filed by LTurner that Rule never
made changes to the policy as Rule had explained to
the insureds. Instead, Rule and Hartford had
benefited from the previous overcharging of
premiums. To place the insureds in the policy they
had requested would have resulted in a substantial
reduction in the premium from approximately
$1,951.00 to $ 678. There was an economic benefit to
Hartford and Rule and a conflict of interest with

App.136
respect to the compensation of Rule. By maintaining
the condition of the policy and refusing to provide
complete copies of the policy and information,
Hartford and Rule conspired and concealed their
intent to maintain the high premium and to deny
coverage when an actual liability exposure occurred.
35.
Hartford notified CTurner in February 2009
that it had denied a claim that it had received from
LTurner on August 13, 2008. However, Hartford had
not received a claim from LTurner during this time.
CTurner is informed and believes and thereon
alleges that Hartford did not receive a claimant
designation from LTurner until approximately June
2009. Therefore, Hartford was not acting in the
interest of the insureds. After receiving the medical
records of LTurner, and while issues concerning the
claim of LTurner were pending, Hartford sent out a
notice of nonrenewal of the insurance policy claiming
that “the reason for nonrenewal is the named
insured no longer occupies the dwelling at 5615
Coliseum.” However, from 1989 Rule had always
known of this fact and Hartford and its agents
(including Rule) had always known of this fact from
inception of the policy. Hartford and Rule were
merely taking advantage of their own errors,
concealment, and fraud.

App.137
36.
CTurner is informed and believes and thereon
alleges that the claim of LTurner was denied and
that Hartford made no effort to settle, to initiate
settlement discussions, or to allow any settlement
discussions on the claim of LTurner thereby
resulting in the lawsuit against CTurner. Hartford
never provided the insureds with the copy of the
June 2009 letter denying the actual claim of LTurner
despite repeated requests. CTurner has only been
able to obtain this letter after filing a third party
complaint in federal court.
37.
On or about July 22, 2010 LTurner filed a
complaint for negligence, breach of the warranty of
fitness and habitability, and negligent infliction of
emotional distress and demanded damages in an
amount exceeding $1,000,000. CTurner tendered his
request for defense to Hartford and has requested
independent cumis counsel due to the conflict of
interest between CTurner, Hartford, Rule, and other
defendants (who are related to Hartford and Rule).
CTurner continued to request copies of the policies
from 1989 to the date of termination of insurance.
[…]

App.138
15th CAUSE OF ACTION
Discrimination In Violation of 42 U.S.C. 1981 &
1982
[All Defendants]
192. Plaintiff refers to and incorporates, as though
set forth herein in full, paragraphs 1 through 81 and
paragraphs 116 through 191 above.
192. Plaintiff is entitled Equal Rights under the
Law under 42 U.S.C. §1981 & 1982.
194. Defendants intentionally discriminated
against plaintiff on the basis of race and engaged in
disparate treatment of plaintiff and his family.
195. The policies, practices, and conduct has a
disparate impact or discriminatory effect or
disproportionately adverse impact on African
Americans or other protected classes of person and is
in violation of 42 U.S.C. §1981 & 1982 and other
federal laws.
196.

42 U.S.C. 1981 states:

Sec. 1981. Equal rights under the law
(a) Statement of equal rights
All persons within the jurisdiction of the United
States shall have

App.139
the same right in every State and Territory to make
and enforce contracts, to sue, be parties, give
evidence, and to the full and equal benefit of all laws
and proceedings for the security of persons and
property as is enjoyed by white citizens, and shall be
subject to like punishment, pains, penalties, taxes,
licenses, and exactions of every kind, and to no other.
(b) ``Make and enforce contracts'' defined
For purposes of this section, the term ``make and
enforce contracts'' includes the making, performance,
modification, and termination of contracts, and the
enjoyment of all benefits, privileges, terms, and
conditions of the contractual relationship.
(c) Protection against impairment
The rights protected by this section are protected
against impairment by nongovernmental
discrimination and impairment under color of State
law.
197.

42 U.S.C. 1982 states:

Sec. 1982. Property rights of citizens
All citizens of the United States shall have the
same right, in every State and Territory, as is
enjoyed by white citizens thereof to inherit,
purchase, lease, sell, hold, and convey real and

App.140
personal property.
198. Defendants engaged in conduct which
discriminated against plaintiff and his family in
violation of 42 U.S.C. § 1981 & 1982 and other
standards by conduct specified above and also
including but not limited to the following:
a.
Overcharging for the policy of
insurance, renewing the policy of insurance knowing
of the overcharges, and then terminating the policy
of insurance during a pending claim or after a claim
was filed.
b.
By refusing to provide a copy of the
policy of insurance and/or or only mailing the alleged
policy of insurance to the agent or broker as a
method to conceal discriminatory practices and
conduct.
c.
Through applying discriminatory and
unfair practices, pricing, and services that have a
disparate impact on a protected class of persons and
those residing in predominately African American
Communities as identified above.
d.
Since lenders require owners to secure
insurance for real property, the discriminatory and
unfair practices unfairly applied to plaintiff and his
family and to persons in the ECWANDC, the Zip

App.141
Code of 90016, or in Jackson, Mississippi have an
adverse impact on housing, its availability, and cost.
e.
Plaintiff is informed and believes and
thereon alleges that during the period of 1989 to the
date of termination of insurance that defendants had
practices of redlining or reverse redlining as to
writing insurance or charging high rates of
insurance, or erroneously writing policies of
insurance (which cost more) in areas where there are
high African American populations.
f.
Defendants intentionally targeted
Africans-Americans with insurance policies with
grossly unfavorable terms while offering
homeowners’ insurance policies with more favorable
terms to others non- African-Americans. The
insureds were overcharged for insurance premiums
for approximately 20 years. To place the insureds in
the policy they had requested and specified would
have resulted in a substantial reduction in the
premium from approximately $1,951.00 to $678.00.
g.
By refusing to provide services and
information comparable to persons who are not in a
protected class such as the actual policy, recorded
statements, information regarding overcharges, use
of claimant designation as required by law,
authorizations for obtaining private information,

App.142
notification of actual receipt of claims, notification of
denial of actual claim received, timely response to
tendered defense.
h.
By failing to provide a fair and
reasonable investigation of claims.
i.
By Rule acting as a “claims office” to
investigate and engage Thornhill, when it
intentionally continued to write the policy of
insurance to obtain higher commissions and
perpetuate the discriminatory conduct.
j.
By providing brokerage, agency, and
services in a discriminatory manner to perpetuate
extraordinary rates, fees, and charges, and to fairly
deny claims.
k.
By using interference, coercion and
intimidation as a method to perpetuate
discriminatory practices.
l.
By Thornhill conducting an intrusive
investigation without a claimant designation from
LT.
m.
By falsely claiming that the insureds
had requested a coverage determination as a pretext
to perpetuate discriminatory conduct.
n.

By aiding or encouraging other persons

App.143
or co-defendants to engage in discriminatory conduct.
o.
By conduct set forth in this complaint at
paragraph 1 through 81 and paragraphs 116 through
191.
199. Defendants’ actions interfered with plaintiff’s
rights to the enjoyment of all benefits, privileges,
terms, and conditions of the contractual relationship.
200. Defendant’s discrimination was designed to
deprive the insureds and members of a protected
class from benefits of insurance.
201. Defendants conduct intentionally targets or
has a disparate impact by causing plaintiffs and
members of the Africans-American Community to
purchase and maintain insurance with grossly
unfavorable terms when having such insurance is
essential to the purchase, maintenance, and
ownership of real property comparable to white
citizens.
202. The insureds were overcharged for insurance
premiums for approximately 20 years. To place the
insureds in the policy they had requested and
specified would have resulted in a substantial
reduction in the premium from approximately
$1,951.00 to $678.00. There was an economic benefit
to defendants to perpetuating the discrimination and

App.144
conducting an intrusive and discriminatory
investigation designed to terminate the insurance
policy. By maintaining the condition of the policy and
refusing to provide complete copies of the policy and
information, defendants conspired and concealed
their intent to maintain the high premium and to
deny coverage when an actual liability exposure
occurred.
203. Defendants’ conduct was pervasive and had
disproportionately adverse effects on AfricanAmericans as compared with non- AfricanAmericans.
204. Defendants’ acts were willful and oppressive
and justify an award of punitive damages according
to proof.
205. Plaintiff seeks injunctive relief as to the
discrimination and discriminatory practices of
defendants.
206. Plaintiff seeks seek attorneys’ fees and costs
for all litigation arising from the issues referred to in
this complaint, litigation as to this complaint, and as
consequential damages for the period covered during
incidents at issue in this complaint. Plaintiff has
been injured and will continue to suffer injuries and
damages and request injunctive relief. Plaintiff has
or will incur attorney’s fees, expert fees, and costs

App.145
and seek an award in an amount according to proof.
The request for fees includes but is not limited to
fees under the Civil Rights Attorney Fees Awards
Act of 1976 (42 U.S.C § 1988).
207. As to Rule at all times it was acting on behalf
of itself as an entity, purported “claims office” for
itself, as a broker, or as an agent of Hartford.
208. As to Western, plaintiff requests that this
surety make necessary contributions to compensate
them for the damages associated with the conduct of
Rule.
16th CAUSE OF ACTION
Discrimination In Violation of 42 U.S.C. 1985
[All defendants]
209. Plaintiff refers to and incorporates, as though
set forth herein in full, paragraphs 1 through 81 and
paragraphs 116 through 208 above.
210. Plaintiff is entitled Equal Rights under the
Law under 42 U.S.C. §1985.
211. Defendants engaged in conduct which
discriminated against plaintiff in violation of their
Civil Rights under 42 U.S.C. §1982.
212. Plaintiff is informed and believes and thereon
allege that homeowner’s insurance including liability

App.146
insurance is inherent to property ownership, not only
in the purchase of the property but also in the
maintenance of the property.
213.

42 U.S.C. § 1985, in part, states:

Sec. 1985. Conspiracy to interfere with civil rights
(3) Depriving persons of rights or privileges
If two or more persons in any State or Territory
conspire or go in disguise on the highway or on the
premises of another, for the purpose of depriving,
either directly or indirectly, any person or class of
persons of the equal protection of the laws, or of
equal privileges and immunities under the laws; or
for the purpose of preventing or hindering the
constituted authorities of any State or Territory from
giving or securing to all persons within such State or
Territory the equal protection of the laws; or if two or
more persons conspire to prevent by force,
intimidation, or threat, any citizen who is lawfully
entitled to vote, from giving his support or advocacy
in a legal manner, toward or in favor of the election
of any lawfully qualified person as an elector for
President or Vice President, or as a Member of
Congress of the United States; or to injure any
citizen in person or property on account of such
support or advocacy; in any case of conspiracy set
forth in this section, if one or more persons engaged

App.147
therein do, or cause to be done, any act in
furtherance of the object of such conspiracy, whereby
another is injured in his person or property, or
deprived of having and exercising any right or
privilege of a citizen of the United States, the party
so injured or deprived may have an action for the
recovery of damages occasioned by such injury or
deprivation, against any one or more of the
conspirators.
235. Defendants engaged in a conspiracy to directly
or indirectly deprive plaintiff and other members of a
protective class of the equal protection and equal
benefits of the laws and to perpetuate discriminatory
conduct in violation of 42 U.S.C. § 1985 and other
standards by conduct specified above and also
including but not limited to the following:
a.
Overcharging for the policy of
insurance, renewing the policy of insurance knowing
of the overcharges, and then terminating the policy
of insurance during a pending claim or after a claim
was filed.
b.
By refusing to provide a copy of the
policy of insurance and/or or only mailing the alleged
policy of insurance to the agent or broker as a
method to conceal discriminatory practices and
conduct.

App.148
c.
Through applying discriminatory and
unfair practices, pricing, and services that have a
disparate impact on a protected class of persons and
those residing in predominately African American
Communities as identified above.
d.
Since lenders require owners to secure
insurance for real property, the discriminatory and
unfair practices unfairly applied to plaintiff and to
persons in the ECWANDC, the Zip Code of 90016, or
in Jackson, Mississippi have an adverse impact on
housing, its availability, and cost.
e.
Plaintiff is informed and believe and
thereon allege that during the period of 1989 to the
date of termination of insurance that defendants had
practices of redlining or reverse redlining as to
writing insurance or charging high rates of
insurance, or erroneously writing policies of
insurance (which cost more) in areas where there are
high African American populations.
f.
Defendants intentionally targeted
Africans-Americans with insurance policies with
grossly unfavorable terms while offering
homeowners’ insurance policies with more favorable
terms to others non- African-Americans. The
insureds were overcharged for insurance premiums
for approximately 20 years. To place the insureds in

App.149
the policy they had requested and specified would
have resulted in a substantial reduction in the
premium from approximately $1,951.00 to $678.00.
g.
By refusing to provide services and
information comparable to persons who are not in a
protected class such as the actual policy, recorded
statements, information regarding overcharges, use
of claimant designation as required by law,
authorizations for obtaining private information,
notification of actual receipt of claims, notification of
denial of actual claim received, timely response to
tendered defense.
h.
By failing to provide a fair and
reasonable investigation of claims.
i.
By Rule acting as a “claims office” to
investigate and engage Thornhill, when it
intentionally continued to write the policy of
insurance to obtain higher commissions and
perpetuate the discriminatory conduct.
j.
By providing brokerage, agency, and
services in a discriminatory manner to perpetuate
extraordinary rates, fees, and charges, and to fairly
deny claims.
k.
By using interference, coercion and
intimidation as a method to perpetuate

App.150
discriminatory practices.
l.
By Thornhill conducting an intrusive
investigation without a claimant designation from
LT.
m.
By falsely claiming that the insureds
had requested a coverage determination as a pretext
to perpetuate discriminatory conduct.
n.
By aiding or encouraging other persons
or co-defendants to engage in discriminatory conduct.
o. By conduct set forth in paragraph 1 through
100 and paragraphs 134 through 213.
214. Defendant’s actions interfered with TPPs
rights to the enjoyment of all benefits, privileges,
terms, and conditions of the contractual relationship.
215. Defendant’s discrimination was designed to
deprive the insureds and members of a protected
class from benefits of insurance.
216. Defendants conduct intentionally targets or
has a disparate impact by causing plaintiff and
members of the Africans-American Community to
purchase and maintain insurance with grossly
unfavorable terms when having such insurance is
essential to the purchase, maintenance, and
ownership of real property comparable to white

App.151
citizens.
217. The insureds were overcharged for insurance
premiums for approximately 20 years. To place the
insureds in the policy they had requested and
specified would have resulted in a substantial
reduction in the premium from approximately
$1,951.00 to $678.00. There was an economic benefit
to defendants to perpetuating the discrimination and
conducting an intrusive and discriminatory
investigation designed to terminate the insurance
policy. By maintaining the condition of the policy and
refusing to provide complete copies of the policy and
information, defendants conspired and concealed
their intent to maintain the high premium and to
deny coverage when an actual liability exposure
occurred.
218. Defendants’ conduct was pervasive and had
disproportionately adverse effects on AfricanAmericans as compared with non- AfricanAmericans.
219. Defendants’ acts were willful and oppressive
and justify an award of punitive damages according
to proof.
220. Plaintiff seeks injunctive relief as to the
discrimination and discriminatory practices of
defendants.

App.152
221. Plaintiff seeks attorneys’ fees and costs for all
litigation arising from the issues referred to in this
complaint, litigation as to this complaint, an as
consequential damages for the period covered during
incidents at issue in this complaint. Plaintiff has
been injured and will continue to suffer injuries and
damages and request injunctive relief. Plaintiffs
have or will incur attorney’s fees, expert fees, and
costs and seek an award in an amount according to
proof. The request for fees includes but is not
limited to fees under the Civil Rights Attorney Fees
Awards Act of 1976 (42 U.S.C § 1988).
222. As to Rule at all times it was acting on behalf
of itself as an entity, purported “claims office” for
itself, as a broker, or as an agent of Hartford.
223. As to Western, plaintiff requests that this
surety make necessary contributions to compensate
them for the damages associated with the conduct of
Rule.
17th CAUSE OF ACTION
FAIR HOUSING ACT In Violation of 42 U.S.C.
§3604 & 3605
[All Defendants]
224. Plaintiff refers to and incorporates, as though
set forth herein in full, paragraphs 1 through 81 and

App.153
paragraphs 116 to 223 above.
225. Plaintiff is entitled to protection under 42
U.S.C. §3604 & 3605 and the Fair Housing Act. The
Fair Housing Act covers property insurers. Dunn v.
Midwestern Indemnity Mid-American Fire &
Casualty Co., 472 F.Supp. 1106 (S.D. Ohio 1979),
McDiarmid v.Economy Fire & Casualty Company,
604 F.Supp. 105 (1984). Prohibited activities under
24 C.F.R. Section 100.70 (d)(4) include, but are not
limited to…refusing to provide…property or hazard
insurance for dwellings or providing such…insurance
differently because of race, color, religion, sex,
handicap, familial status, or national origin..”). Also,
discrimination in the renewal of an insurance policy
is actionable under the Fair Housing Act. Lindsey v.
Allstate Insurance, 34 F.Supp.2d (W.D. Tenn. 1999).
226. Defendants intentionally discriminated
against plaintiff on the basis of race and engaged
disparate treatment of plaintiff.
227. The policies and practices of defendants have
a disparate impact or discriminatory effect or
disproportionately adverse impact on African
Americans or other protected classes of persons.
228.

42 U.S.C. §3604, in part, states:

Sec. 3604. Discrimination in the sale or rental of

App.154
housing and other prohibited practices
As made applicable by section 3603 of this title
and except as exempted by sections 3603(b) and 3607
of this title, it shall be unlawful-(a) To refuse to sell or rent after the making of a
bona fide offer, or to refuse to negotiate for the sale
or rental of, or otherwise make unavailable or deny,
a dwelling to any person because of race, color,
religion, sex, familial status, or national origin.
(b) To discriminate against any person in the terms,
conditions, or privileges of sale or rental of a
dwelling, or in the provision of services or facilities in
connection therewith, because of race, color, religion,
sex, familial status, or national origin.
229.

42 U.S.C. §3604, in part, states:

Sec. 3605. Discrimination in residential real estaterelated transactions
(a) In general
It shall be unlawful for any person or other entity
whose business includes engaging in residential real
estate-related transactions to discriminate against
any person in making available such a transaction,
or in the terms or conditions of such a transaction,
because of race, color, religion, sex, handicap,

App.155
familial status, or national origin.
(b) "Residential real estate-related transaction''
defined
As used in this section, the term ``residential real
estate-related transaction'' means any of the
following:
(1) The making or purchasing of loans or
providing other financial assistance-(A) for purchasing, constructing, improving,
repairing, or maintaining a dwelling; or
(B) secured by residential real estate.
(2) The selling, brokering, or appraising of
residential real property.
230. Defendants engaged in conduct which
discriminated against TPPs and which was in
violation of 42 U.S.C. §3604 & 3605, the provisions
and regulations under the Fair Housing Act, and
other standards by conduct specified above and also
including but not limited to the following:
a.
Overcharging for the policy of
insurance, renewing the policy of insurance knowing
of the overcharges, and then terminating the policy
of insurance during a pending claim or after a claim
was filed.

App.156
b.
By refusing to provide a copy of the
policy of insurance and/or or only mailing the alleged
policy of insurance to the agent or broker as a
method to conceal discriminatory practices and
conduct.
c.
Through applying discriminatory and
unfair practices, pricing, and services that have a
disparate impact on a protected class of persons and
those residing in predominately African American
Communities as identified above.
d.
Since lenders require owners to secure
insurance for real property, the discriminatory and
unfair practices unfairly applied to plaintiff and his
family and to persons in the ECWANDC, the Zip
Code of 90016, or in Jackson, Mississippi have an
adverse impact on housing, its availability, and cost.
e.
Plaintiff is informed and believes and
thereon alleges that during the period of 1989 to the
date of termination of insurance that defendants had
practices of redlining or reverse redlining as to
writing insurance or charging high rates of
insurance, or erroneously writing policies of
insurance (which cost more) in areas where there are
high African American populations.
f.
Defendants intentionally targeted
Africans-Americans with insurance policies with

App.157
grossly unfavorable terms while offering
homeowners’ insurance policies with more favorable
terms to others non- African-Americans. The
insureds were overcharged for insurance premiums
for approximately 20 years. To place the insureds in
the policy they had requested and specified would
have resulted in a substantial reduction in the
premium from approximately $1,951.00 to $678.00.
g.
By refusing to provide services and
information comparable to persons who are not in a
protected class such as the actual policy, recorded
statements, information regarding overcharges, use
of claimant designation as required by law,
authorizations for obtaining private information,
notification of actual receipt of claims, notification of
denial of actual claim received, timely response to
tendered defense.
h.
By failing to provide a fair and
reasonable investigation of claims.
i.
By Rule acting as a “claims office” to
investigate and engage Thornhill, when it
intentionally continued to write the policy of
insurance to obtain higher commissions and
perpetuate the discriminatory conduct.
j.
By providing brokerage, agency, and
services in a discriminatory manner to perpetuate

App.158
extraordinary rates, fees, and charges, and to fairly
deny claims.
k.
By using interference, coercion and
intimidation as a method to perpetuate
discriminatory practices.
l.
By Thornhill conducting an intrusive
investigation without a claimant designation from
LT.
m.
By falsely claiming that the insureds
had requested a coverage determination as a pretext
to perpetuate discriminatory conduct.
n.
By aiding or encouraging other persons
or co-defendants to engage in discriminatory conduct.
o.
By conduct set forth in paragraph 1
through 100 and paragraphs 134 through 213.
231. The acts complained of in this complaint are
included in the broad scope of the Fair Housing Act
and the “legislative design of the Act which seeks to
eliminate discrimination within the housing field.”
Dunn supra at 1109.
232. Even if the policy of insurance had been
written correctly, defendants renewed the policy with
the excessive charges (knowing the policy was
required to be modified), refused to provide a copy of

App.159
the alleged policy of insurance, and then terminated
the policy based on a condition always known to have
existed. (i.e. that the insured lived in Mississippi).
233. Defendant’s actions interfered with plaintiff’s
rights to be free from discrimination.
234. Defendant’s intentionally failed to provide the
correct insurance policy as requested by the insureds
for their own benefit and to perpetuate
discrimination and discriminatory practices.
235. Defendants’ discriminatory conduct was
pervasive and had disproportionately adverse effect
on African-Americans and persons residing in the
ECWANDC, the Zip Code of 90016, or Jackson,
Mississippi
236. As a direct and proximate result of defendant’s
conduct, plaintiff has suffered and will continue to
suffer damages including economic and
compensatory in an amount according to proof.
237. Defendants’ acts were willful and oppressive
and justify an award of punitive damages according
to proof.
238. Plaintiff seeks injunctive relief as to the
discrimination and discriminatory practices of
defendants.

App.160
239. Plaintiff seeks attorneys’ fees and costs for all
litigation arising from the issues referred to in this
complaint, litigation as to this complaint, and as
consequential damages for the period covered during
incidents at issue in this complaint. Plaintiff has
been injured and will continue to suffer injuries and
damages and request injunctive relief. Plaintiff has
or will incur attorney’s fees, expert fees, and costs
and seek an award in an amount according to proof.
The request for fees includes but is not limited to
fees under the Civil Rights Attorney Fees Awards
Act of 1976 (42 U.S.C § 1988).
240. As to Rule at all times it was acting on behalf
of itself as an entity, purported “claims office” for
itself, as a broker, or as an agent of Hartford.
241. As to Western, plaintiff requests that this
surety make necessary contributions to compensate
them for the damages associated with the conduct of
Rule.
DEMAND FOR JURY TRIAL
CTurner demands a jury trial of all issues so triable.
WHEREFORE Plaintiff prays for a judgment
in his favor against Hartford, Rule, Western, Ponci,
Silletto, Pierson, Gaitan, Albrecht, Thornhill as
provided in the causes of action set forth above and

App.161
as follows:
1.
For actual, general, compensatory, and
consequential damages in an amount to be proven at
trial;
2.

For costs of suit;

3.
For punitive damages in a sum sufficient to
punish and set an example of Defendants;
4.
For treble damages as provided under Cal.
Ins. Code § 785 and Cal. Civil Code § 3345.
5.
For restitution of all money, property, profits
and other benefits and anything of value that
Defendants received preceding this lawsuit;
6.
For reformation of the contract and for
reimbursement of payments made prior to and after
of termination of the policy;
7.
For indemnity in favor of CTurner and
apportionment between Hartford and Rule with
respect to any damages or award made to LTurner;
8.
For declaratory, injunctive relief, and other
relief as provided under Cal. Business and
Professions Code § 17200 et seq.;
9.

For equitable relief;

10.

For prejudgment interest at the rate of ten

App.162
percent (10%) per annum;
11.

For reasonable attorney’s fees and costs;

12.
For such other and further relief as this Court
deems just and proper.
Dated: June 17, 2011
  
  
  
  
  

  
  
  
            
          

LAW  OFFICE  OF  NINA  RINGGOLD  
  
s/  Nina  Ringgold  
By:__________________________________  
Nina  Ringgold,  Esq.  
  Attorney  Plaintiff

App.163
APPENDIX F3
Case 2:11-cv-07653-PA-E Document 19 Filed
09/27/11 Page ID #181
FILED
CLERK U.S. DISTRICT COURT
SEP 27 2011
Central District of California
By PB Deputy
UNITED STATES DISITRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case Number CV 11-07653 ODW (PLAx)
ORDER RE TRANSFER PURSUANT TO GENERAL
ORDER 08-05 (Related Cases)
Cornelius Turner
v.
Hartford Casualty Insurance
Company et al

Plaintiff(s),

Defendant(s).

App.164
CONSENT
I hereby consent to the transfer of the above-entitled case to
my calendar, pursuant to General Order 14-03.
[SIGNATURE OF JUDGE
PERCY ANDERSON]
9/27/11
_______

Valerie Baker Fairbank
______________________
DECLINATION

I hereby decline to transfer the above-entitled case to my
calendar for the reasons set forth:
___________________________________________________
___________________________________________________
___________________________________________________
___________________________________________________
___________________________________________________
___________
Date

___________________________
United States District Judge

App.165
REASON FOR TRANSFER INDICATED BY
COUNSEL
CASE CV 10-05435 VBF (Ex) and the present case:
__
A. Arise from the same or closely related
transactions, happening or events; or
X
B. Call for determination of the same or
substantially related or similar questions of law and fact; or
__
C. For other reasons would entail substantial
duplication of labor if heard by different judges; or
__
D. Involve the same patent, trademark or copyright,
and one of the factors identified above in a, b or c also is
present.
__
E. Involve one or more defendants from the criminal
case in common, and would entail substantial duplication
of labor if heard by different judges (applicable only on civil
forfeiture action).
NOTICE TO COUNSEL FROM CLERK
Pursuant to the above transfer, any discovery
matter that are or may be referred to a Magistrate Judge
are hereby transferred from Magistrate Judge Abrams to
Magistrate Judge Eick.
On all documents subsequently filed in this case,
please substitute the initials VBF (Ex) after the case

App.166
number in place of the initials of the prior judge, so that the
case number will read CV 11-07653 VBF (Ex). This is very
important because the documents are routed to the
assigned judges by means of these initials. The case file,
under seal documents, exhibits, docket, transcripts or
depositions may be viewed at the x Western __ Southern __
Eastern Division.
Traditionally, filed subsequent documents must be
filed at the x Western __ Southern __ Eastern
Division. Failure to file at the proper location will
result in your documents being returned to you.
Cc: __ Previous Judge __Statistics Clerk
CV-34 (05/08) ORDER RE TRANSFER PURSUANT
TO GENERAL ORDER 08-05 (RELATED CASES)

App.167
APPENDIX F4
Case 2:14-cv-03688-R-PLA Document 53 Filed
02/20/14 Page 1 of 4
Page ID #:2970
Kevin M. McCormick - CSBN 115973
BENTON, ORR, DUVAL & BUCKINGHAM
A PROFESSIONAL CORPORATION
39 North California Street
Post Office Box 1178
Ventura, California 93002
Telephone: (805) 648-5111
Facsimile: (805) 648-7218
E-mail: kmccormick@bentonorr.com
Attorney for Defendants, Superior Court of
California, County of Los Angeles; Judge Barbara
Scheper; Judge Douglas Sortino; Judge Carolyn
Kuhl; John A. Clarke; William Mitchell; Sherri
Carter; Nagi Ghobrial; Sylvie Bland; Ovsanna
Chaparyan; Justice Roger Boren; Joseph Lane;
Becky Fischer; Frank McGuire; Jennifer Casados;
Nicole Benavides; and Linda McCulloh

App.168
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
ASAP COPY AND
PRINT, ET AL,
Plaintiffs,
v.
JERRY BROWN,
Defendants.

CASE NO. 13-cv-04621 SI
DEFENDANTS,
SUPERIOR COURT OF
CALIFORNIA, COUNTY
OF LOS ANGELES, ET
AL'S CERTIFICATION
OF INTERESTED
PARTIES
[ND CA Local Rule 3-15]
Judge: Hon. Susan Illston

COME NOW defendants, the Superior Court of
California, County of Los Angeles (“LASC”): Barbara
Scheper, Judge of the LASC; Douglas Sortino, Judge
of the LASC; Carolyn Kuhl, Judge of the LASC; John
A. Clarke, Former Executive Officer of the LASC;
William Mitchell, Interim Executive Officer of the
LASC; Sherri Carter, Executive Officer of the LASC;
Sylvie Bland, Judicial Assistant, LASC; Nagi
Ghobrial, Management Analyst of the LASC;
Ovsanna Chaparyan, Court Services Assistant III,
LASC; Roger Boren, Justice of the California Court
of Appeal, Second Appellate District; Joseph Lane,
Clerk and Executive Officer of the California Court
of Appeal, Second Appellate District; Becky Fischer,

App.169
Supervising Deputy Clerk of the California Court of
Appeal, Second Appellate District; Frank McGuire,
Court Administrator and Clerk of the California
Supreme Court; Jennifer Casados, Supervising
Deputy Clerk of the California Supreme Court;
Nicole Benavidez, Deputy Clerk of the California
Supreme Court; and Linda McCulloh, Senior
Attorney, Center for Judiciary Education and
Research (“CJER”), Judicial and Court Operations
Services Division, (hereinafter and collectively the
“Judicial Branch Defendants” or “JBD”), and certify
that the following persons, association of persons,
firms, partnerships, corporations or other entities
have a financial interest in the subject matter in
controversy or in a party to the proceedings or have a
non-financial interest in the subject matter in
controversy or in a party to the proceedings or in a
party that could be substantially affected by the
outcome if the proceedings as follows:
• Superior Court of California, County of Los
Angeles (LASC); Barbara Scheper, Judge of the
LASC; Douglas Sortino, Judge of the LASC; Carolyn
Kuhl, Judge of the LASC; John A. Clarke, Former
Executive Officer of the LASC; William Mitchell,
Interim Executive Officer of the LASC; Sherri
Carter, Executive Officer of the LASC; Sylvie Bland,

App.170
Judicial Assistant, LASC; Nagi Ghobrial,
Management Analyst of the LASC; Ovsanna
Chaparyan, Court Services Assistant III, LASC;
• California Court of Appeal, Second Appellate
District; Roger Boren, Justice of the California Court
of Appeal, Second Appellate District; Joseph Lane,
Clerk and Executive Officer of the California Court
of Appeal, Second Appellate District; Becky Fischer,
Supervising Deputy Clerk of the California Court of
Appeal, Second Appellate District;
• California Supreme Court; Frank McGuire, Court
Administrator and Clerk of the California Supreme
Court; Jennifer Casados, Supervising Deputy Clerk
of the California Supreme Court; Nicole Benavidez,
Deputy Clerk of the California Supreme Court; and
• Judicial Council of California, Administrative
Office of the Courts; Linda McCulloh, Senior
Attorney, Center for Judiciary Education and
Research (“CJER”), Judicial and Court Operations
Services Division.

App.171
Dated: February 20, 2014
BENTON, ORR, DUVAL & BUCKINGHAM
By: /s/ Kevin M. McCormick Kevin M. McCormick
Attorney for Defendants, Superior Court of
California, County of Los Angeles; Judge Barbara
Scheper; Judge Douglas Sortino; Judge Carolyn
Kuhl; John A. Clarke; William Mitchell; Sherri
Carter; Nagi Ghobrial; Sylvie Bland; Ovsanna
Chaparyan; Justice Roger Boren; Joseph Lane;
Becky Fischer; Frank McGuire; Jennifer Casados;
Nicole Benavides; and Linda McCulloh

App.172
PROOF OF SERVICE
ASAP Copy and Print, et al, v. Brown, et al
Case No. 13-cv-04621 SI
STATE OF CALIFORNIA, COUNTY OF VENTURA
I certify that I am employed in the County of
Ventura, State of California. I am over the age of 18
and not a party to the within action. My business
address is 39 N. California Street, Ventura, CA
93001.
On February 20, 2014, I served the foregoing
document(s) described as:
DEFENDANTS, SUPERIOR COURT OF
CALIFORNIA, COUNTY OF LOS ANGELES, ET
AL’S CERTIFICATION OF INTERESTED PARTIES
on the interested parties in this action as
follows:
BY CM/ECF NOTICE OF ELECTRONIC FILING: I
caused said document(s) to be served by means of
this Court’s electronic transmission of the Notice of
Electronic Filing through the Court’s transmission
facilities, to the parties and/or counsel who are
registered CM/ECF Users set forth in the service list
obtained from this Court.
Executed on February 20, 2014, at Ventura,
California.
/s/ Kevin M. McCormick
Kevin M. McCormick

App.173
APPENDIX F5
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FOUR
FILED
Jul 19, 2016
Joseph A. Lane, Clerk
S. Veverka, Deputy Clerk
MARIAN TURNER, et al.,
Plaintiffs and Appellants
v.
HARTFORD CASUALTY
INSURANCE COMPANY,
et al.,
Defendants and Respondents.

B248667, B250084,
B256763, B261032
and B268792
(Super. Ct. No.
BC463850)
ORDER
CONSOLIDATING
APPEAL

THE COURT*:
On the court’s own motion, it is hereby ordered
that case numbers B248667 (notice of appeal filed
May 3, 2013), B250084 (notice of appeal filed July 10,
2013), B256763 (notices of appeal filed May 30, 2014
and June 27, 2014), B261032 (notice of appeal filed

App.174
December 29, 2014), and B268792 (notice of appeal
filed November 30, 2015) are consolidated for the
purposes of oral argument and decision. Oral
argument currently scheduled on August 11, 2016 in
case number B261032 is ordered off calendar.
______________________________
*EPSTEIN, Presiding Justice

App.175
APPENDIX F6
Court of Appeal
Second Appellate District
Daniel P. Potter, Clerk
Electronically RECEIVED
on 5/9/2019 at 4.16.38 PM

Court of Appeal
Second Appellate District
Daniel P. Potter, Clerk
Electronically FILED
0n 5/9/2019 at by
Sandy Veverka
Deputy Clerk

LAW OFFICE OF NINA RINGGOLD
17901 Malden St.
Northridge, CA 91235
(818) 318-2842 - Telephone
(866) 340-4312 Facsimile
Email nrringgold@aol.com
May 9, 2019
Presiding Justice Nora M. Manella Associate Justice
Brian S. Currey Justice Pro Tem Kim G. Dunning
Assigned Panel In The Referenced Appeal
180 Howard St.
San Francisco, CA 94105
Re: Marian Turner, Lisa Turner, Cornelius Turner
v. Hartford Casualty Insurance Company et al.
(Appellate Case Nos. B248667, B250084,
B256763, and B261032) Set for Oral Argument
on May 10, 2019

App.176
Dear Justices:
This office has just received the assignment of
the panel of justices for oral argument tomorrow. It
is always a difficult decision to request recusal or to
seek disqualification of a judge. This letter is in no
way intended to attack the integrity or the character
of any justice. As the United States stated in In re
Murchison (1955) 349 U.S. 133, 136 it is recognized
that the stringent requirement is applied even
though “disqualification may sometimes bar judges
who have no actual bias and do their very best to
weigh the scales of justice equally between the
parties.” The critical factor is that a justice must
satisfy the appearance of justice. I would be remiss
in my duties if I did not request that each member of
the assigned panel recuse themselves. I request this
recusal on behalf of my client Cornelius Turner.
I request that the assigned panel consider the
following authorities.

App.177
Authorities:
Aetna Life Insurance Company v. Lavoie
(1986) 475 U.S. 813
Caperton v. A.T. Massey Coal Co., Inc.
(2009) 556 U.S. 868
Gibson v. Berryhill
(1973) 411 U.S. 564
In re Murchison
(1955) 349 U.S. 133
Tumey v. Ohio
(1927) 273 U.S. 510
Ward v. Village of Monroeville
(1972) 409 U.S. 57
CJEO Oral Advice Summary No. 2016-015
Full Bench Disqualification (March 30, 2016)
CJEO Formal Opinion 2017-011
Judicial Service on a Nonprofit Charter School Board
(May 2, 2017)
CJEO Oral Advice Summary 2018-023
Disqualification Responsibilities of Appellate Court
Justices
CJEO Oral Advice Summary 2018-025

App.178
Disqualification and Disclosure Duties of a Trial
Judge Assigned as an Appellate Justice
Mr. Turner is over ninety (90) years old. He is
a living legacy in the Civil Rights movement in the
State of Mississippi. He shared and worked with
Medgar Evers (a well known civil rights activist in
the state). He is the co-founder of the Mississippi
Free Press Newspaper that was the voice of the civil
rights movement in Mississippi and an undisputed
organizing centerpiece used by the NAACP and other
civil rights organizations focused on eliminating
former racist Jim Crow laws in the state. Mr. Turner
is a part of the federal voting rights case referred to
in this appeal. He never agreed to any proceeding in
the state court and was involuntarily brought into
the state when he was sued in the United States
District Court for the Central District. He filed a
counter claim against Hartford and others in the
federal court. His case involves discrimination. He
and his wife had been paying over three times the
market rate for insurance for over 20 years. When
his daughter fell through a glass enclosure –an
insurable loss—the policy of insurance was cancelled
even though Hartford admitted the policy had been
written incorrectly by its agent.

App.179
Mr. Turner never received disclosure that the
judge assigned to his case would be subject to
constitutional resignation or that he had a right to
withhold consent. Moreover, as the panel is aware he
contends that he is being forced to make waivers of
federal law and rights. These forced waivers are
taking place when (1) there does not exist proper
remand order from the federal court, and (2) the
forced waiver is effectuated in proceedings where the
state court does not provide an official record (via
court reporter or audiotape). Mr. Turner requested
dismissal with tolling to extricate himself from
proceedings based on his view that his rights under
federal law cannot be adequately protected in the
state court forum. The issues on appeal challenge the
fundamental jurisdiction of the court and the
grounds for recusal under federal law that impacts
both trial and appellate judges.
When the issue concerning the conflict
between California Constitution Article VI Sections
17 & 21 and Section 5 of SBX 2 11 began to come to
light Justice Candace Cooper’s (ret.) who is African
American and a former member of Division 8 of this
court filed an appeal raising issues concerning the
interpretation of California Constitution Art VI
Section 17.

App.180

The federal voting rights case that is referred
to in this appeal was filed on March 21, 2012. On
March 28, 2012 Justice Cooper’s petition for review
was denied. See Candace Cooper v. Controller of the
State of California and Secretary of State of
California, Cal. Sup. Ct. (S200215). After Justice
Cooper’s effort to obtain review in the California
Supreme Court failed there was a recognized conflict
between members of the voting rights case that
claimed a constitutional resignation had occurred
and were seeking to implement a special judicial
election and to implement disclosure and consent
procedures (with an official record) on the one hand
and the impacted judges on the other hand. In the
appeal of a lead member of the voting rights case
that was pending when Justice Cooper’s petition for
review was denied, the majority of the members of
the assigned panel recused themselves. Certainly
there appears to be disagreement (even among
justices within the district) of whether members of
whether recusal is required.
The federal voting rights case involving Mr.
Turner does not raise judicial compensation in any
fashion. The California Commission on Judicial
Performance has twice provide written opinions that

App.181
the payment of compensation by the county to judges
of the state courts of record is impermissible. Instead
the case involving Mr. Turner claims that the public
employment and office which is occurred and is
occurring in Los Angeles County and other counties
is constitutionally impermissible under California
Constitution Art VI Section 17 and that out of state
court users and California residents must receive
disclosure and consent under California Constitution
Art VI Section 21. It also claims that this obligation
cannot be waived and the immunity provision under
Section 5 of Senate Bill x211 violates federal law and
enforces involuntary waiver of federal law and
rights. Unlike the racial and language minorities in
the voting rights case, who were actually using
public court services, an acknowledged conservative
group challenged judicial compensation. (i.e.
Sturgeon cases). In these cases the entire Superior
Court for the County of Los Angeles recused itself as
well as the entire Second Appellate District. The
grounds for disqualification which exist and raised in
this appeal or greater than in the cases concerning
judicial compensation because they challenge the
nature of the judicial office itself, the disclosure
obligation, and the involuntary waivers of federal
law attempted through immunity allowed in an
uncodified section of the law. Mr. Turner also claims

App.182
that any person who attempts to exit the system by
dismissal without prejudice (and with tolling) or
raise the issue is subject to retaliation.
The assigned panel has both financial and
general interest in the pending appeal. Each justice
of the panel has previously been either a former
Municipal Court Judge or Superior Court judge.
They could be potentially subject to the statutory
fines and penalties at issue under the California
Political Reform Act claims in the federal voting
right case. There is an inference of bias in this
appeal. These appeals were set for oral argument
over 3 years ago. The matters were taken off
calendar and were dormant for three years. Inquiries
to the court provided no reason for the decision.
Respectfully, on behalf of Mr. Turner, the
undersigned requests that this panel recuse itself.
Persons involved in the federal voting rights case
should be treated the same as persons involved in
more conservative organizations where this court
ordered the recusal of the entire court and the Chief
Justice transferred the appeal to a different district.
Alternatively, as requested in the briefing, this court
should enter a stay pending disposition of the United
States Supreme Court’s determination of the request

App.183
for stay and injunction pending review or
determination of the request of whether a threejudge court will be appointed.
Very truly yours,
NINA R. RINGGOLD, Esq.
Attachment: Judicial Profiles

App.184

APPENDIX G
440 ATTORNEY GENERAL’S OPINIONS
[VOLUME 66 NOVEMBER 1983]
Opinion No. 83-607—November 23, 1983
SUBJECT: CALIFORNIA CONSTITUTION ART.
VI, § 17--California Constitution, Art. VI,
§ 17 prohibits a superior court judge who resigns
before the expiration of that term of office from
accepting a public teaching position before the
expiration of such term.
Requested by: MEMBER, CALIFORNIA STATE
SENATE
Opinion by: JOHN K.VANDEKAMP, Attorney
General Clayton P. Roche, Deputy

App.185
The Honorable H. L. Richardson, Member of the
California Senate, has requested an opinion on the
following question:
Does article VI, section 17, of the California
Constitution prohibit a superior court judge who
resigns that office before the expiration of that term
of office from accepting a public teaching position
before the expiration of such term?
CONCLUSION
Article VI, section 17, of the California Constitution
does prohibit a superior court Judge who resigns that
office before the expiration of its term from accepting
a public teaching position before the expiration of
such term.
ANALYSIS
Article VI, section 17, of the California Constitution,
provides:
"A judge of a court of record may not practice law
and during the term for which the judge was selected
is ineligible for public employment or public office
other than judicial employment or judicial office. A

App.186
judge of the superior or municipal court may,
however, become eligible for election to other public
office by taking a leave of absence without pay prior
to filing a declaration of candidacy. Acceptance of the
public office is a resignation from the office of judge.”
“A judicial officer may not receive fines or- fees for
personal use."
Our opinion is requested as to whether a superior
court judge may resign before the end of his term
and accept a public teaching position during such
term. Such question requires a resolution of the
question whether the ineligibility provided in article
VI, section 17, as to accepting another public position
was intended to continue during the entire term for
which the judge was originally elected or appointed.
We conclude that such ineligibility provision of
article VI, section 17, continues throughout the
entire term for which a particular judge was elected
or appointed. We so conclude based on (1) the plain
meaning of the article; (2) the history of provision;
and (3) case law and prior opinions of this office.

App.187
Accordingly, we also conclude that a superior court
judge may not resign during his term and take a
public teaching position.
I.
The Plain Meaning of Article VI, Section
17, Demonstrates That Its Disqualification
Provisions Apply Throughout The Entire Term
Or Period For Which The Judge Was Originally
Selected.
With the exception of superior and municipal court
judges, who are deemed eligible for election to
another nonjudicial office, article VI, section 17,
literally makes all judges of courts of record
“ineligible” for other public office or other public
employment “during the term for which the judge
was selected.” Since “eligible” means “capable of
being chosen – the subject of selection or choice”
(Samuels v. Hite (1950) 35 Cal. 2d 115, 116), the
word “ineligible” in the context of article VI, section
17, means incapable of being chosen or been the
subject of selection or choice.
Focusing on the period of such ineligibility, we see
that it is for a prescribed period, that is, “during the
term for which the judge was [originally] selected.”
Significantly, the disqualification provision does not

App.188
specify that the period shall be during the judge’s
“tenure,” or words of similar import. As a general
proposition, there is a clear distinction between the
concepts of “term of office” and “tenure in office” with
respect to public officers. As stated in the leading
case, Holbrook v. Board of Directors, Etc. (1937) 8
Cal. 2d. 158, 161: “The term of an office relates to the
office and not the incumbent.” (Harrold v. Barnum, 8
al. App. 21, 25 [96 Pac. 104, 105].) It is, therefore, not
to be confused with the tenure of office and it is not
affected by the holding over of an incumbent beyond
the expiration of the term. In a term of office there
may be several tenures, but the term of office
remains the same….’” (See also, e.g., Brown v. Hite
(1996) 64 Cal. 2d 120, 124; Younger v. Board of
Supervisors (1979) 93 Cal. App. 3d 864, 872; 64 Ops.
Cal. Atty. Gen. 1, 3 (1981); 33 Ops. Cal. Atty. Gen.
163, 164 (1959).)
Superior Court judges are elected for sixyear terms. (Cal. Const., art. VI, § 16, subd. (c).)31
Where a vacancy occurs, the governor appoints a person to fill
the vacancy until an election can be held to fill a full six-year
term at the first general election after January 1 following
accrual of the vacancy.

31

For other judicial offices, their prescribed term, and the
manner of filling vacancies and the prescribed time an

App.189

Accordingly, a judge elected to such a sixyear term would, under the literal provisions of
article VI, section 17, of the California Constitution,
be in eligible for appointment to any other
nonjudicial public office or public employment, and
would be eligible for election to another nonjudicial
public office only by taking a leave of absence to run
for that office.
That the disqualification provisions are to
last for the entire period or term for which the judge
was originally elected or appointed (i.e., “selected”) is
supported by the case which construed similar
wording in the analogous provision of the state
Constitution applicable to state legislators, that is,
article IV, section 13, thereof.32 Thus, in Chenoweth
v. Chambers (1917) 33 Cal. App. 104, 107 the court
said with respect to the similarly worded predecessor
section [referred to therein as “the amendment”] in
appointee may fill those vacancies, see Cal. Const. art. VI, §16
subds. (a) and (d). Supreme Court judges and Court of Appeal
judges; Gov. Code, §§ 71145; 71180, Municipal Court judges.
32

That provision states:

“A member of the Legislature may not, during the term for
which the member is elected, hold any office or employment
under the State other than an elective office."

App.190
holding resignation from the Legislature did not
make a legislator eligible for appointment to another
state office:
“The question here is: Was it [the
constitutional provision] intended to apply to
petitioner, whose term of office began before the
adoption of the amendment and had not expired at
the time it went to effect? And, if so intended, could
he evade its operation by resigning before the
amendment took effect?
“We may safely accept as rules of
construction what was said in Smith v. Union Oil
Co., 166 Cal. 217, [135 Pac. 966], cited by petitioner:
“Where the words of a statute are not ambiguous and
their effect is not absurd, the court will not give it
other than its plain meaning, although it may appear
probable that a different object was in the mind of
the legislature.’ No question arises here as to what
the people desired to accomplish by adopting this
amendment. Its object is plain enough and is
manifest on its face.
“The word ‘term’ used in this section
refers, we think, to the period for which the
petitioner was elected and not merely to his

App.191
incumbency. (Rice v. National City, 132 Cal. 354 [64
Pac. 580].) When we speak of the ‘term’ for which an
officer has been elected we mean the period of time
fixed by statute during which he may serve and not to
the time he may happen to serve. Said the court in
Ellis v. Lennon, 86 Mich 468 [49 N.W. 308]: ‘The
term for which respondent was elected is clearly
defined by the charter and the language, ‘the term
for which he was elected’, has a clear and welldefined meaning. He was elected to serve for two
years, whether he served that time or not. The
language used in the statute fixes the period of his
ineligibility which would have attached in the
absence of that language.’ In the instant case the
statute fixed the term of petitioner’s office, as
assemblyman.
“We need not consider the effect of
petitioner’s resignation prior to the going into effect
of the amendment. If this section applies to a senator
or assemblyman whose term of office had not expired
on December 21, 1916,[the effective date of the
amendment] we do not think that petitioner
succeeded in evading its force by his resignation prior
to December 21, for this section deals with a fixed

App.192
period of time, to wit, the ‘term’ of the officer and not
to the period of his incumbency.” [Emphasis added]33
Insofar as a judge may be appointed to fill a
vacancy, and accordingly may serve until such time
as an election is prescribed by law to be held to fill
the office for a new term, we believe such period also
should be considered as ‘the term for which the judge
was selected.’ Such periods, like the fixed term, are
prescribed by statute, determinable from the
surrounding facts, and thus, in the words of the court
above, constitute “the period of time fixed by statute
during which he may serve and not the time he may
happen to serve.”
Accordingly, the plain meaning of article VI,
section 17, leads to the conclusion that the
disqualification provision as to accepting another
public position is to apply throughout the entire term
or period for which a judge was originally selected,
whether by election or appointment. Consequently, a
judge may not, in the words of the court in

For similar applications of the legislative disqualification
provision, see 63 Ops. Cal. Atty. Gen. 428, 432-433 (1980); Ops.
Cal. Atty. Gen. N.S. 2900 (1940) and N.S. 2399 (1940); Atty.
Gen. Unpub. Opo. I.I. 66-37.

33

App.193
Chenoweth v. Chambers, supra, 33 Cal. App. at p.
107, “succeed in evading its force by his resignation.”
II.
The History Of Article VI, Section 17,
Further Demonstrates That Its Disqualification
Provisions Apply Throughout The Entire Term
Or Period For Which The Judge Was Originally
Selected
Article VI, section 17, of the California
Constitution had its genesis in article VI, section 16,
of the Constitution of 1849. Its provisions were
extremely similar to the main proviso of the present
section 17, though limited to offices. It provided:
“The Justices of the Supreme Court and
District Judges shall be ineligible to any other office
during the term for which they shall have been
elected.”
An examination of the Constitutional Debates for the
1849 Constitution (at page 234) demonstrates that
this provision was adopted without debate, thus
providing no insight into its purpose.

App.194
When the 1879 Constitution was adopted,
the provision was also numbered article VI, section
18, and stated in full:
“The Justices of the Supreme Court and
Judges of the Superior Courts shall be ineligible to
any other office or public employment than a judicial
office or employment during the term for which they
shall have been elected.”
Again, the debates with respect to the adoption of the
provision are not helpful for our purposes here in.
There was some debate, but it was limited to
whether a judge can serve as a member of the
Constitutional Convention. (See Debates and
Proceedings, 1878-1879 Constitutional Convention,
p. 996.)
In 1904 judges of the District Courts of
Appeal were added to the enumeration of judges in
section, and in 1924 municipal court judges were
added to such enumeration. Thus in 1930, when
article VI, section 18, was next amended, it
contained a complete enumeration of judges of the
present courts of record as falling within its scope,
and its impact was a disqualification for the entire
term, without qualification.

App.195

In 1930, the provision was amended,
providing for the first time an exception to its
absolute disqualification “during the term for which
they shall have been elected.” Thus, in addition to a
limitation on the practice of law by judges the
following proviso with added:
“[P]rovided, however, that a judge of the
superior court or of a municipal court shall be
eligible to election or appointment to a public office
during the term for which he may be elected, and the
exception of any other office shall be deemed to be a
resignation from the office held by said judge.”
The addition of this proviso appears to have been
intended to sanction for the first time resignation
from the judicial office for the purpose of assuming
another public office. Although the provision speaks
in terms of an automatic resignation taking place
upon assumption of the second office, we do not
believe that this meant that previously a judge could
have resigned and then have assumed another office.
We believe it was couched in such terms so that a
judge need not resign in order to run for elective
office, thus obviating the need to place this judgeship
in jeopardy.

App.196

This conclusion is confirmed from an
examination of the arguments to the voters in the
ballot pamphlet for the November 4, 1930, general
election (at pages 24-25). The argument in favor of
the amendments to article VI, section 18, state as
material to our inquiry:
“A clause of the Amendment also permit
the judge to be elected or appointed to other public
office by resigning his judicial position – thus making
available for wider public service to the people the
best judicial minds in the state.”
Such arguments to the voters may be used in
ascertaining the intent of a constitutional
amendment. (Amador Valley Join Union High Sch.
Dist. v. State Bd. of Equalization (1978) 22 Cal. 3d
208, 245-246.)
Accordingly, at this point in time, 1930, it is
patent that only superior and municipal court judges
could be elected or appointed to another public
office34 during the term for which they were selected.
Other judges, that is supreme court judges and
The section at this time is surprisingly silent as to
appointment of these judges to a more public employment.

34

App.197
district court of appeal judges, were not accorded
such privilege and remain disqualified for other
public office or other public employment even if they
resigned. This was the clear import of article VI,
section 18, at that time.
The next change in article VI, section 18, of
the California Constitution came about as the result
of the revision of article VI in 1966 as part of the
work of the Constitutional Revision Commission.
That commission proposed that the disqualification
in the main proviso remain substantively the same,
but that the exception proviso be changed as follows:
“[P]rovided, however, that a judge of the
superior court or of a municipal court shall be
eligible to election to a public office during the time
for which he shall have been elected or appointed if
you shall resign from his judicial office prior to his
declaration of candidacy.” (Emphasis added.)
The “Staff Notes” provided:
“STAFF NOTES: This draft takes the
view that it is inimical to an independent judiciary
for judges to serve in other capacities. The
community can have the benefits of a judge’s special

App.198
knowledge through other means such as his
appearance at hearings or through the Conference of
Judges but that service on boards and commissions
is time-consuming and presents possible conflicts of
interest.
“The provision that judges a municipal or
superior courts are eligible for election or
appointment is deleted because detrimental to the
administration of justice; the possibility of an
appointment in return for a decision is thereby
eliminated. However, a judge resigns is made eligible
for elective office.” (Emphasis added.)35 Thus we
finally see an articulation, though brief, as to the
purpose of the disqualification provision, that is, to
maintain objectivity in court decisions without the
possibility of decisions being rendered in return for
appointments to public office or public employment.36
Article VI, Second Working Draft, Summary (4/26 /65); p.
51, California Constitution Revision Commission, Studies and
Drafts. See also Article VI, Amended Third Working Draft
Summary (9/10/65), pp. 51-52.

35

It is to be noted that early in the case of People v. Sanderson
(1866) 30 Cal. 160, 168, overruled on other grounds in People v.
Provines (1868) 34 Cal. 520, 532, the court likened original
article VI, section 16, to the provision of article III of the
California Constitution; providing for the separation of powers
between the three branches of government. Thus the Court
stated:

36

App.199

In the 1966 report to the Legislature by the
Constitutional Revision Commission, we find the
following comment with respect to its proposed
amendment to article VI, section 18.
“Comment: First paragraph in the section
was transferred from existing Section 18. The new
provision permits a judge of the trial court of record
“This provision of the Constitution (article III) so far
as it relates to the judicial department of the State, is, in our
opinion, in imminently wise. One of its objects seems to have
been to confine Judges to the performance of judicial duties;
and another to secure them from entangling alliances with
matters concerning which they may be called upon to sit in
judgment; and another still to save them from the temptation to
use their vantage ground of position and influence to gain for
themselves positions and places from which judicial propriety
should of itself induce them to refrain. In the same spirit was
conceived the sixteenth section of Article VI of the Constitution,
which declares that ‘The Justices of Supreme Court, and the
District Judges, and the County Judges shall be ineligible to
any other office than a judicial office during the term for which
they shall have been elected’.” (Emphasis added.)
Thus, the danger pointed out by the Constitutional Revision
Commission in 1965 of judicial decisions being rendered which
would enhance a judge's chances for an appointment to a
nonjudicial post was, in fact, articulated one hundred years
previously by the California Supreme Court.
This purpose provides the reason or the existence of the
disqualification for the full term for which selected.

App.200
to run for elective office but prohibits appointment to
a non-judicial public office during his term. Rather
than having the acceptance of another office operate
as resignation from the one held, as in the existing
provision, the proposed section requires a judge to
resign upon declaration of his candidacy….”
(Emphasis added.)37
Thus, the 1966 proposal to the Legislature
by the California Constitutional Revision
Commission demonstrates a clear understanding on
its part that the then section 18 disqualification (now
section 17) could not be avoided by resigning from
office on less a clear proviso to that effect was set
forth in the section itself.

See Proposed Revisions of the California Constitution (Cal.
Const. Rev. Com. Feb. 1966), p. 96. The actual proposal read
as follows, being substantively the same as set forth above in
the staff report:
“Sec. 18. A judge of a court of record may not
practice law and during the term for which he was selected is
ineligible for public employment or public office other than
judicial employment or judicial office. By resigning prior to his
declaration of candidacy however, a judge of a superior or
municipal court may become eligible for election to other public
office.

37

“A judicial officer may not receive fines or fees for
his own use.” (Emphasis added.)

App.201
The Legislature, however, did not accept in toto the
Constitutional Revision Commission’s proposal, but
in submitting the amendment to the People in 1966,
liberalize the proviso somewhat so that, as presently
provided, a superior or municipal court judge may
run for elective office by taking a leave of absence
from his judicial post. The Legislature did, however,
leave intact the commission’s recommendation that
judges remain ineligible for appointment to another
office during their entire term.
Accordingly, we believe that the foregoing
examination of article VI, section 17, of the
Constitution from its genesis in 1849 to the present
demonstrates (1) that its main disqualification
provision applies throughout the full term for which
the judge was originally elected or appointed; (2) that
resignation and acceptance of another “public office”
or “public employment” during that period of time is
to be permitted only as expressly provided in the
section; and (3) that exception relates only to the
judges actually specified. Otherwise, over the years
there would have been no need for the qualifying
provisos and their limitation as to judges in
particular courts.

App.202
The California Supreme Court in 1866, and the
Constitutional Revision Commission through its staff
in 1965, and through its recommendation to the
Legislature in 1966 recognized that the purpose of
the disqualification was to keep judges objective in
their decisions and to free them from the possibility
of rendering decisions favorable to persons or
agencies which could appoint them to another
desired public office or public employment.
III.
The Purposes For The Enactment Of
Article VI, Section 17, Are Also In Accord With
Its Plain Meaning
The first case which interpreted article VI,
section 17, this century is Abbott v. McNutt (1933)
218 Cal. 225. In that case the court held that a
sitting judge was ineligible to serve on a
qualifications Board established by a county charter
to choose candidates for the position of county
executive. Having found no prior case construing
then article VI, section 18, the court borrowed from a
New York case in setting forth the purpose of the
provision. The essence of the court’s holding is as
follows at pages 230-to 31:

App.203
“[1] The phrase ‘any other office or public
employment’ necessarily has application to any other
public office or public employment, as distinguish or
purely private office or private employment. The only
constitutional inhibition against the private
employment of judicial officers as to do with the
practice of law. Research fails to disclose any case
construing or applying that portion of the
constitutional provision above quoted. However, the
purpose and policy underlying such a provision is
cogently stated by Justice Cardoza in In re
Richardson, 247 N.Y. 401[160 N.E. 655, 661],
wherein the following appears: ‘The policy is to
conserve the time of the judges for the performance
of their work, and to save them from the
entanglements, at times the partisan suspicions, so
often the result of other and conflicting duties.’ In
other words, it is intended to exclude judicial officers
from such extrajudicial activities as may tend to
militate against the free, disinterested and impartial
exercise of their judicial functions.
“In our opinion service upon the
‘qualification board’ by the respondent judges would
be in contravention of the purpose and policy
underlying the constitutional inhibition. As already
stated, the charter provision requires that the

App.204
qualification board continue to solicit and select and
submit to the board of supervisors lists of qualified
candidates for the office of county executive until
such time as the board of supervisors determines
upon an appointee for that office.
“[2] It is conceivable that this duty may so
consume the time of the respondent judge as to
seriously embarrass, if not in fact impede, the
orderly and proper discharge of their judicial
functions. What may reasonably be done under a
statute, is a test of its validity.
“Moreover, service upon said qualification
board may tend to involve the respondent judges in
those ‘entanglements’ and subject them to those
‘partisan suspicions’ of which the constitutional
inhibition, in its wisdom, seeks to free them. To
illustrate: If the respondent judges are permitted to
serve upon the qualification board, it is not at all
unlikely that at some time in the future they may be
called upon, as judicial officers, to pass upon the
propriety or validity of the official acts of the county
executive whom they recommended and endorsed as
qualified for appointment to that office. Or, in the
event of misfeasance in the office of the county
executive, the respondent as superior court judges

App.205
may, under section 758-769 of the Penal Code, be
required to preside at a trial having for its purpose
the removal from office of an incumbent theretofore
recommended by them as qualified for the position.
Either or both of these situations pointedly indicate
the impropriety of service by the respondent judges
on the qualification board.
“[3] Having definitely in mind the public
policy underlying the constitutional inhibition, we
are satisfied that membership on the ‘qualification
board’ constitutes an ‘office or public employment’
within the purpose and intent of section 18 of article
VI of the Constitution…” (Emphasis in original.)38
Based on the declared purpose for the
proscriptions of article VI, section 17, set forth in
Abbott v. McNutt, it can be argued that article VI,
section 17, in no way prevents a judge from resigning
Interestingly, the purposes set forth in Abbott v. McNutt
are essentially the first two articulated by the Supreme Court in
1866 in People v. Sanderson supra, 30 Cal. 160, 168
concerning original article VI, section 18. Abbott v. McNutt did
not, since it did not have to, articulate the additional purposes
set forth in People v. Sanderson, that is, to maintain objectivity
of decision and prevent the possibility that judicial decisions
would be made in a manner which would enhance a judge's
chances for nonjudicial appointment. [ See n. 6, ante.]

38

App.206
during his term and then accepting another public
office or public employment.
In response to this argument, we simply
point out that Abbott v. McNutt involved a sitting
judge. Accordingly, the courts’ attention was not
directed to the issue of the duration of the article’s
proscription, that is, the meaning of the words
“during the term for which the judge was selected.”
“’…case, of course, are not authority for propositions
not there considered’.” (People v. Belleci (1979) 24
Cal. 3d 879, 888.) Abbott v. McNutt is helpful in
deciding cases with respect to sitting judges.
However, as to judges who resign from office and
then assume another public office or employment, it
is, in our view, inapposite and not too helpful.
The next and only other case interpreting
the provisions of article VI, section 17, although also
involving a sitting judge, is more helpful for purposes
herein. That case, Alex v. County of Los Angeles
(1973) 35 Cal. App. 3d 994, involved in municipal
court judge who sought back pay for the period he
was required to take a leave of absence to run
(unsuccessfully) for Congress. The judge raise
numerous constitutional objections to such
requirements as presently contained in article VI,

App.207
section 17. The court, however, upheld the provision
of article VI, section 17, imposing that requirement.
In upholding the leave of absence
requirement the court did draw upon Abbott v.
McNutt as well as the federal cases upholding the
Federal Hatch Act’s prohibition against engaging in
partisan politics by federal employees.39 However,
because of the factual difference between Abbott v.
McNutt and Alex v. County of Los Angeles, we see in
Alex and emphasis on the purpose of article VI,
section 17, which we believe underlies the
requirement that a judge be disqualified for other
public office or employment for the entire period for
which he was selected. Such purpose is that the
integrity of the office as well as its efficiency be
protected. Stated, otherwise, in Alex v. County of Los
Angeles we see an emphasis on (1) ensuring that
judicial decisions are not affected by extrajudicial
influence and (2) ensuring that any appearance of
conflict with respect to judicial decisions is avoided
as well. Finally, in Alex(at page 1008, see a
tangential allusion to the separation of powers
purpose which underlies article VI, section 17, first
See United States Civil Service Commission v. National
Association of Letter Carriers, AFL-CIO (1973) 413 U.S. 548 and
United Public Workers v. Mitchell (1947) 330 U.S. 75.

39

App.208
expounded by our Supreme Court over 100 years ago.
(See fn. 6, ante.)
Thus, in Alex v. County of Los Angeles, the
court stated with respect to article VI, section 17:
“Thus, the compelling, legitimate state
purpose and policy underlying the provision and the
necessary distinctions drawn because of the natural,
intrinsic and constitutional requirements of the
judge’s office are (1) to save the judges from the
‘entanglements, at times the partisan suspicions’
which may result when a judge engages in the
extrajudicial activity of campaigning for public office;
and (2) ‘to conserve the time of the judges for the
performance of their work’ so as not to ‘embarrass, if
not in fact impede, the orderly and proper discharge
of their judicial functions.’ (See Abbott v. McNutt,
218 Cal. 225 [22 P.2d 510, 89 A.L.R. 1009].)
“The requirements of section 17 are not
empty. They are essential to maintain in the trial
court an atmosphere in which justice can be done.”
(fn. Omitted.)(35 Cal. App 3d at pp. 1001-1002;
emphasis added.)
And as its conclusion the court stated:

App.209

“CONCLUSION”
“We are living through a period of massive
distrust and loss of confidence in all major
institution of government, including the judiciary.
“The approximately 20 million citizens of
California, speaking through the initiative process at
the ballot box, the approximately 40,000 attorneys in
California, speaking through the committees of the
California State Bar; and the approximately 1000
judges in California, speaking through the Judicial
Council and the California Conference of Judges,
want their trial judges to be free of the ‘suspicion’ of
being warped by political bias. They want their trial
judges to ‘tend the store’ and not be divergent from
the impartial performance of their work by
extrajudicial activities such as running for public
office. These desires are reflected in section 17 and
thus tend to foster confidence in our courts which is
indispensable.” [35 Cal. App. 3d at pp. 1008-1009;
emphasis added.)
The language emphasized above contains an
essence the reason articulated over 100 years ago by
the court in People v. Sanderson, supra, 30 Cal. 160,

App.210
168 and by the Constitutional Revision Commission
in its materials in 1965 in 1966, discussed ante, as to
why a judge should be disqualified from other public
officer or public employment during the full period
for which he was selected. That reason is to ensure
that judicial decisions are not influenced by the
possibility that they will in some manner enhance
the judge’s chances for appointment to another
public position.
CONCLUSION
The plain meaning of article VI, section 17,
of the California Constitution requires that its
disqualification provisions apply throughout the
entire term or period for which a judge was originally
selected. Accordingly, under the plain meaning of the
section a superior court judge may not resign from
office before the expiration of his term and accept a
public teaching position. This conclusion is supported
by an examination of the history of article VI, section
17, from its genesis as article VI, section 16, of the
Constitution of 1849 to the present.
Should the courts, however, look beyond the
plain wording of article VI, section 17, to its
purposes, it will be seen that both case law and

App.211
materials of the California Constitutional Revision
Commission articulate among its purposes (1) the
ensurance that judicial decisions are rendered
impartially and (2) the avoidance of the appearance
of any conflict or bias with respect to those decisions.
A judge’s impartiality will be enhanced and so too
will be the public’s perception of impartiality by the
knowledge that the judge cannot have any other
public office or public employment for the full term of
office. Thus judicial decisions will not be influenced
by the hope for immediate appointment to another
public position. If a judge is permitted to resign and
immediately accept another public position, such
could raise suspicions as to the impartiality of our
court system.
Accordingly, we conclude that a Superior Court judge
may not resign from office before the expiration of
his term and accept a public teaching position based
on the fact that the disqualification provision of
article VI, section 17, continues during the entire
term for which the judge was originally selected.40

It is to be noted that several opinions of this office had
already indicated that article VI, section 17, prevents
resignation from office and the immediate assumption of
another public position. (See 39 Ops. Cal. Atty. Gen. 191, 197
(1962); Atty. Gen. Unpb. Opn. I.I 63-119.)

40

App.212
APPENDIX H
Excerpt From California Ballot Pamphlet
General Election November 8, 1988
Legislative Constitutional Amendment
Proposition 94
94

Judges

Official Title and Summary Prepared by the
Attorney General
JUDGES, LEGISLATIVE CONSTITUTIONAL
AMENDMENT. Permits Judges of courts of record
to accept part-time teaching positions that are
outside the normal hours of their judicial position
and do not interfere with the regular performance of
their judicial duties. Prohibits judicial officer from
earning retirement service credit from a public
teaching position while holding judicial office.
Summary of Legislative Analyst's estimate of net
state and local government fiscal impact will have
little, if any, fiscal impact on the state and local
governments.

Final Vote Cast by the Legislature on ACA 17
(Proposition 94)
Assembly:

Ayes 63
Noes 2

Senate:

Ayes 37
Noes 0

App.213

Analysis by the Legislative Analyst
Background
The California Constitution prohibits judges of
the Supreme Court, the court of appeal, superior
courts, and municipal courts from accepting other
public office or employment, including teaching at
public institutions, during their judicial terms. These
Judges may, however, teach at private institutions.
The California Code of Judicial Conduct sets
standards regarding the compensation judges may
receive from participating in outside activities.
Under existing law, the state provides
retirement benefits for these judges based on their
age and the length of their judicial service.
Proposal
This constitutional amendment permits judges
of the Supreme Court, the courts of appeal, superior
courts, and municipal courts to teach part-time at
public institutions, provided that the activity is
outside the normal hours of their judicial positions
and does not interfere with the performance of their
duties. The measure prohibits judicial officers from
gaining additional retirement credit from a public
teaching position.

App.214
Fiscal Effect
This measure would have little, if any, fiscal
impact on the state and local governments.
Text of Proposed Law
This amendment proposed by Assembly
Constitutional Amendment 17 (Statutes of 1988,
Resolution Chapter 70) expressly amends the
Constitution by amending a section thereof:
therefore, existing provisions proposed to be deleted
are printed in strikeout type and new provisions
proposed to be added or printed in italic type to
indicate that they are new.
PROPOSED AMENDMENT TO
ARTICLE VI. SECTION 17
SEC. 17. A judge of a court of record may not
practice law and during the term for which the judge
was selected is ineligible for public employment or
public office other than judicial employment or
judicial office, except a judge of a court of record may
accept a part-time teaching position that is outside
the normal hours of his or her judicial position and
that does not interfere with the regular, performance
of his or her judicial duties while holding office. A
judge of the superior or municipal court a trial court
of record may, however, become eligible for election,
to other public office by taking a leave of absence
without pay prior to filing a declaration of candidacy.

App.215
Acceptance of the public office is a resignation from
the office of judge.
A judicial officer may not receive fines or fees
for personal use.
A judicial officer may not earn retirement
service credit from a public teaching position while
holding judicial office.

Argument in Favor of Proposition 94
The primary purpose of Proposition 94 is to
amend the State Constitution to allow a judge of a
court of record to accept a part-time teaching
position which does not interfere with his or her
judicial duties. This measure also makes two
technical changes which would: (1) prohibit any
judge from earning retirement service credit from a
public teaching position while holding judicial office,
and (2) clarify the law requiring all judges of trial
courts of record to take a leave of absence without
pay in order to run for election to other public office.
The Constitution prohibits judges of courts of
record from accepting public employment or public
office outside their judicial position during their term
of office. This prohibition has been interpreted to
mean that a judge cannot accept a teaching position
at a public school, but may accept one at a private
School. The prohibition applies during the time the
judge is actually in office and during the entire term

App.216
for which the judge was selected, even if the judge
has resigned part way through the term.
The practical effect of this provision has been
to allow students at private universities and colleges
to benefit from the knowledge and experience of
judges, but to deny to the students at public
educational institutions the contact and exposure to
this valuable source of knowledge and expertise.
Private institutions have been attracting judges as
lecturers and professors for many years and the
experience has been overwhelmingly positive for
these schools and their students.
In order to remedy this inequity, Proposition
94 would allow judges, to accept part-time teaching
positions at public institutions provided that the
work does not interfere with the regular duties of the
judge's position and the work is undertaken outside
the normal hours for that position.
Judges are regulated by the Canons of Judicial
Conduct which require that the judge place primary
emphasis upon his or her judicial position. A failure
to adequately and competently discharge judicial
duties can lead to removal from office. Californians,
thus, can be assured that utilizing judges as teachers
in public schools will be beneficial to the public and
pose minimal potential for abuse.

App.217
We respectfully ask you to vote yes on
Proposition 94.
PETER R. CHACON
Member of the Assembly, 79th District
V. GENE McDONALD
Judge
President, California Judges Association
P. TERRY ANDERLINI
President, State Bar of California

Rebuttal to Argument in Favor of Proposition
94
The provision in Proposition 94 which permits
judges to teach part time for pay at public
institutions only as long as the job "does not interfere
with the regular performance of his or her judicial
duties …" is practically unenforceable.
Under existing law, a judge who allows any
activities to prevent him or her from performing the
duties of the judicial office could be removed by the
California Supreme Court on recommendation of a
Commission on Judicial Performance. This almost
never happens.
Technically, judges of trial courts in California
are elected by local voters. In reality, though, a trial
court judge is ordinarily appointed by the Governor

App.218
and stands election only if a local attorney runs
against the Governor's choice.
Under Proposition 94, it might be possible to
sue a judge whose part-time teaching position at a
public institution is interfering with his or her fulltime position on the bench. But what attorney would
take the case? What questioning of the judge would
be allowed in the lawsuit? What other judge would
want to decide the case?
Given the staggering backlog of criminal and
civil cases pending in California's courts, we should
not authorize judges to take part-time jobs in public
schools or colleges.
On November 8, please exercise your best
judgment concerning the measures and candidates
on the ballot. VOTE and encourage everyone you
know to vote (preferably your way!).
GARY B. WESLEY
Attorney at Law

Argument Against Proposition 94
Proposition 94 is a proposal by the Legislature
to amend our State Constitution, to permit a judge to
teach part time for pay at public institutions as long
as the job "is outside the normal hours of his or her
judicial position and … does not interfere with the
regular performance of his or her judicial duties. …"

App.219
The proposed amendment reflects a concern
that judges not permit part-time teaching positions
to interfere with their full-time jobs on the bench.
However, neither existing law nor the proposed
amendment restricts judges who teach part time in
private institutions, such as the law schools at the
University of Santa Clara, the University of San
Francisco and the University of San Diego.
Why should we amend our State Constitution
to create one rule for judges who wish to teach at
public institutions and maintain another rule for
judges who wish to teach at private institutions?
Allowing judges to teach part time is either a
good idea or a bad idea.
Given the enormous volume of criminal and
civil cases tiled in California's courts, it is probably,
on balance a bad idea to allow judges to teach part
time.
Judges have an immense stack of homework
every day. And, while attorneys sometimes wonder
whether some judges have done their homework,
allowing judges to teach part time at public
institutions can only make matters worse. Teaching
requires many hours of preparation and judges just
do not have the time.
A "no" vote on Proposition 94 will retain the
prohibition against judges teaching for pay at public
institutions. The Legislature should offer voters at

App.220
the next election a measure that would prohibit
judges from, teaching at private institutions as well
Certainly, many judges are marvelous people
and teachers who bring precious insight to the
classroom; however, unless and until the number of
judges across the state is increased dramatically,
judges will not be able to find the time to both teach
and handle their heavy caseloads.
With regard to my remark about attorneys
sometimes wondering whether some judges have
done their homework, I can only hope that the
remark is taken in kindly spirit in which it was
offered!
GARY B. WESLEY
Attorney at Law
Rebuttal to Argument Against Proposition 94
The arguments against Proposition 94 are
misguided.
First, this measure WILL NOT create one set
of rules for those judges who teach at public schools
and another set for those who teach at private
schools. Instead, judges will be subjected to the same
rules on part-time teaching regardless of where they
may choose to teach. This is because all judges must
follow the rules of judicial conduct. These rules
require judges to place primary emphasis upon their
judicial duties. Judges can be removed from office for

App.221
poor performance. This threat will serve as an
effective safeguard from potential abuses that might
otherwise occur.
Second, the opposition asserts that on balance
it is a bad idea to let judges teach part time because
it will worsen the already enormous number of court
cases filed. Yes, there is an enormous number of
cases filed in our courts. Continuing a prohibition on
after-work contact between judges and law students
in public schools, however, WILL NOT reduce or
eliminate the number of cases filed. Instead, it will
hurt our students by depriving them of the practical
experience judges can bring to the classroom.
Many private schools employ judges to teach
on a part-time basis. These schools recognize the
importance of having judges interact with students
in the classroom. Judges are "specialists" in the law
and the rules and procedures of the court.
Improve our public school system. Permit
students in public law schools to benefit from the
experience judges can offer them.
Vote "yes."
PETER R. CHACON
Member of the Assembly, 79th District
P. TERRY ANDERLINI
President, State Bar of California
V. GENE McDONALD
Judge
President, California Judges Association

App.222
APPENDIX I
[County Seal
De Witt W.
Clinton
County
Counsel]

COUNTY OF LOS ANGELES
Office of the County Counsel
648 Hall of Administration
500 West Temple Street
Los Angeles, CA 90012
November 10, 1988

Mr. Frank S. Zolin
County Clerk/Executive Officer
Superior Court
111 North Hill Street
Los Angeles, California 90012
Attention: Eric D. Webber, Chief Deputy
Re:

Judicial Compensation

Dear Mr. Zolin:
You have asked our opinion concerning the
legality of providing judges with County employee
benefits such as the Flexible Benefit and Savings
Plans.
It is our opinion that judges' salaries must be set by
the Legislature, but other benefits may (and in some
cases must) be provided by the County.

App.223
ANALYSIS
Article VI, Section 19 of the California
Constitution provides:
"The Legislature shall prescribe
compensation for judges of courts of
record. A judge of a court of record may
not receive the salary for the official
office held by the judge while any cause
before the judge remains pending and
undetermined for 90 days after it has
been submitted for decision."
Mr. Frank S. Zolin
November 10, 1988
Page Two
As a general proposition, the word
"compensation" originally meant "wages" or "salary,"
but as other benefits have evolved, it has come to
have a broader meaning, and is now commonly used
to include both salary and fringe benefits. The
question of which meaning was intended in Section
19 is critical, since the courts have held that where
the Constitution requires the Legislature to
"prescribe" something, the Legislature must do so
itself, and may not leave or delegate the function to
another body or person. County of Madera v.
Superior Court (1974) 39 C.A.3d 665.
For reasons which will become apparent
below, we believe that "compensation" as used in
Sections 19 refers only to the salary which is the

App.224
emolument of the judicial office. The Attorney
General does not agree. See, e.g., 59 Ops. Cal. Atty.
Gen. 496; 61 Ops. Cal. Atty. Gen. 338. We note
initially that judges, like other elected officers, are
paid under the common law rule that the salary is an
incident of the office. Consequently, they do not
technically have such benefits as vacation, sick leave
or overtime, which otherwise might be considered a
part of compensation.
Reading Section 19 as a whole, it appears that
the words "compensation" and "salary" are used
interchangeably; that is, "salary" in the second
sentence appears to refer to the "compensation"
prescribed pursuant to the first sentence.
This reading of Section 19 is supported by the
fact that Article VI, Section 20 provides:
"The Legislature shall provide for
retirement, with reasonable allowance,
of judges of courts of record for age or
disability."
If "compensation" as used in Section 19 was intended
to include fringe benefits such as retirement benefits,
there would be no need for Section 20.
Mr. Frank S. Zolin
November 10, 1988
Page Three
Prior to Article VI, Section 19 (which was
added as 1966), judicial compensation was provided
under Article IV, Section 11, which read in part:

App.225
"The compensation of the justices or
judges of all courts of record shall be
fixed, and the payment thereof
prescribed by the Legislature."
This language again suggests the payment of a
salary, rather than other benefits.
The predecessor to Article VI, Section 11 was
Article VI, Section 17, which provided:
"The justices of the Supreme Court and
of the District Courts of Appeal, and the
judges of the superior courts, shall
severally, at stated times during their
continuance in office, receive for their
service such compensation as is or shall
be provided by law. The salaries of the
judges of the superior court, in all
counties having but one judge, and in
all counties in which the terms of the
judges of the superior court expire at
the same time, shall not hereafter be
increased or diminished after their
election, nor during the term for which
they shall have been elected. Upon the
adoption of this amendment the salaries
then established by law shall be paid
uniformly to the justices and judges
then in office. The salaries of the
justices of the Supreme Court and of the
District Courts of Appeal shall be paid
by the State. One half of the salary of
each superior court judge shall be paid

App.226
by the State and the other half therefor
shall be paid by the county for which he
is elected. On and after the first day of
January, A.D. 1907, the justices of the
Supreme Court shall each receive an
annual salary of $8,000, and the justices
of the several District Courts of Appeal
shall each receive an annual salary of
$7,000; the said salaries to be payable
monthly."
Former Section 17 also appears to use the terms
"compensation" and "salary" interchangeably.
Mr. Frank S. Zolin
November 10, 1988
Page Four
The language of former Section 17 is directly
traceable to the Constitution of 1879, and thence to
the Constitution of 1849.
Article VI, Section 15 of the Constitution of
1849 provided:
"The Justices of the Supreme Court, and
Judges of the District Court, shall
severally, at stated times during their
continuance of office, receive for their
services a compensation, to be paid out
of the treasury, which shall not be
increased or diminished during the term
for which they shall have been elected.
The County Judges shall also severally,

App.227
at stated times, receive for their
services a compensation to be paid out
of the county treasury of their
respective counties, which shall not be
increased or diminished during the term
for which they shall have been elected."
It is clear that "compensation" as used in
Section 15 meant "salary." For that matter, we doubt
that public officials in either 1849 or 1879 received
much in the way of fringe benefits in any event.
Thus, historically "compensation" for judges
has been used and understood to mean "salary," and
this has carried over to the present day.
The Legislature has interpreted the
constitutional language in the same way. Chapter
1.5 of Title 8 of the Government Code Sections
68200, et seq.) is entitled "Compensation of Justices
and Judges of Courts of Record." It deals exclusively
with salary and not with fringe benefits or any other
form of remuneration. Similarly, Government Code
Section 75003, which is a part of the Judges'
Retirement Law, defines "salary" as follows:
"'Salary' means the compensation
received by a judge as the emolument of
the office of judge…."
Mr. Frank S. Zolin
November 10, 1988
Page Five

App.228
Consequently, we conclude that while the
Legislature must prescribe the salary of a superior
court judge and may not delegate that responsibility
to any other person or body, Article VI, Section 19 of
the California Constitution does not prohibit the
board of supervisors of a particular county from
providing additional benefits for judges in that
county. In fact, the Legislature has authorized or
required such additional benefits in some instances.
For example, Government Code Section
53200.3 provides that judges are deemed to be
county employees for the limited purposes of the
application of that article (dealing with group
insurance) and provides that judges are entitled to
the same or similar health and welfare benefits as
are granted to employees of the county in which the
court is located. Thus, judges are clearly entitled to
medical, dental and life insurance benefits such as
those provided in the Flexible Benefit Plan.
Similarly, Government Code Section 53214.5
authorizes judges to participate in deferred
compensation plans established by counties. While
Section 53214.5 was probably inspired by the
existence of deferred compensation plans established
pursuant to Section 457 of the Internal Revenue
Code, 401(k) plans such as our Savings Plan are also
deferred compensation plans, and health care and
dependent care reimbursement accounts as well as
salary reduction agreements provided under the
Flexible Benefit Plan are deferred compensation
arrangements, and consequently we believe that

App.229
judges' participation therein is authorized by Section
53214.5.
It is true that participants in the Flexible
Benefits Plan may elect to take part or all of the
County's contribution as taxable cash, and that the
County provides matching contributions to the
401(k) plan. We believe that these benefits are
similarly authorized by Sections 53200.3 and
53214.5, since they are part of the plans
authorized by those sections. In addition,
Government Code Section 68206.6, which provides
for payment of superior court judges solely
Mr. Frank S. Zolin
November 10, 1988
Page Six
from a county payroll, was added for the specific
purpose of permitting judges to participate fully in
county cafeteria and 401(k) plans.
However, even assuming that such benefits
are not specifically authorized by statute, we believe
that the County may still provide them to judges, so
long as the Board of Supervisors finds that there is a
benefit to the County in doing so. This would also be
true of other benefits for judges, such as a
professional development allowance or bonus.
Superior court judges are technically State
constitutional officers, but they are in many respects
quasi-county officers. They serve the population of a
particular county, their salaries are paid in part by

App.230
the county in which they sit, and as noted above,
they are deemed to be county employees for purposes
of participation in health and life insurance
programs as well as in deferred compensation plans.
The salary of a superior court judge is the
same statewide. Thus, a judge in a small, rural
county may be well compensated based upon the cost
of living there and in comparison to what he could
earn in private practice. On the other hand, judges in
Los Angeles County are moderately compensated
based upon the cost of living here and in comparison
to what they could earn in private practice. The
Board of Supervisors has evidently found that in
order to attract and retain qualified judges to serve
in this County, it is necessary and appropriate to
provide them with benefits such as the Flexible
Benefit Plan contribution and the 401(k) match,
which are available to many employees in the private
sector, as well as to County employees and court
officers and employees other than judges.

App.231
Mr. Frank S. Zolin
November 10, 1988
Page Seven
It may be necessary for the Board of
Supervisors to provide additional benefits for judges
in the future in order to maintain a high level of
judicial competence and performance in this County.
If we can be of further assistance to you in this
matter, please let us know.
Very truly yours,
DE WITT W. CLINTON
County Counsel
By:

s/ Roger M. Whitey
ROGER M. WHITEY
Senior Assistant
County Counsel

APPROVED AND RELEASED:
s/ De Witt W. Clinton
DE WITT W. CLINTON
County Counsel
RHW:jk
Nov10W (Schedule A, Which Does Not Include Real
Property)

App.232
APPENDIX J
[SEAL]
State of California
Commission on Judicial Performance
455 Golden Gate Avenue, Suite 14400
San Francisco, CA 94102-3660
(415) 557-1200
FAX (415) 557-1266
Web Site: http://cjp.ca.gov
April 3, 2009
Hand delivered
Edmund G. Brown, Jr.
Attorney General
Attorney General’s Office
California Department of Justice
455 Golden Gate Avenue, Suite 1100
San Francisco, CA 94102
Dear Attorney General Brown:
At its March 18, 2009 meeting, the
Commission on Judicial Performance by a vote of ten

App.233
members and none opposed resolved to request a
legal opinion from your office pursuant to
Government Code section 12519 as to the three
issues set out below arising from the Legislature’s
enactment of SB 11 (also known as SBX2
11)(attached). Deputy Attorney General Peter E.
Flores, Jr., is a member of the commission. Mr.
Flores is recused from this matter, and did not
participate in the commission’s decision to request a
legal opinion from your office. Because we
understand that the effective date of SB 11 is to be
May 21, 2009, the commission respectfully requests a
legal opinion at the earliest possible time.
SB 11 was enacted in response to Sturgeon v. County
of Los Angeles (2008) 167 Cal. App. 4th 630; review
den., December 23, 2008 (attached). (See, e.g., Senate
Bill Analysis, February 14, 2009, attached.) Sturgeon
held that supplemental compensation provided by
Los Angeles County to the judges in that County, in
addition to the compensation already prescribed for
the judges by the Legislature, was not authorized by
law and was unconstitutional. The commission was
not involved in the Sturgeon case.
SB 11 is applicable to all state court judges. Section 2
of SB 11 states in part that “Judges of a court whose

App.234
judges received supplemental judicial benefits
provided by the county or court, or both, as of July 1,
2008, shall continue to receive supplemental benefits
from the county or court then paying the benefits on
the same terms and conditions as were in effect on
that date.” The commission understands that judges
in a number of courts receive supplemental
compensation, and that the value of the
supplemental compensation varies between courts.
In Los Angeles County, the county contributes 19
percent of the judges’ salaries to a MegaFlex
Confidential letter to Attorney General Edmund G.
Brown, Jr.
April 3, 2009
Page 2 of 12
California Benefit Plan. The judges either
spend it on medical, dental or vision coverage, or life
and disability insurance (all in addition to the salary
and benefits provided to them by the state). Any
portion of the county’s contribution that is not used
to purchase such benefits is paid to the judges as
taxable income. The county also matches the judges’
401K contribution to up four percent of salary. In
fiscal year 2007, each judge was eligible to receive
$46,436 in supplemental compensation from the

App.235
county, representing 27 percent of his or her salary
prescribed by the Legislature, at a cost for the county
of $21 million. Sturgeon, 167 Cal. App. 4th at 635636. Judges in other courts receive different amounts
and types of supplemental compensation, some paid
in cash, some in the form of benefits that the judges
are free to “cash out” at their sole discretion, some in
the form of professional development allowances paid
in cash for the judges to use at their sole discretion,
some in the form of car allowances and some in the
form of life and disability insurance policies. Judges
in some counties receive nothing.
Section 5 of the SB 11 purports to
retroactively immunize all state court judges from
authorizing or receiving such compensation. It
provides that “(n)otwithstanding any other law, no
governmental entity or officer or employee of a
governmental entity shall incur any liability or be
subject to prosecution or disciplinary action because
of benefits provided to a judge under the official
action of a government entity prior to the effective
date of the act on the ground that those benefits were
not authorized under law.
There were no public hearings on SB 11. It
was inserted into the Budget Act of 2008 at the last

App.236
minute on February 14, 2008, and passed the same
day.
Issues Presented
1.
Does the Legislature have
the authority to enact legislation that
purports to preclude the commission from
disciplining California superior court judges
for authorizing supplemental compensation to
be paid to themselves from public funds,
and/or receiving that supplemental
compensation on the ground that such benefits
were or are not authorized by law?
The commission concludes that the
Legislature does not have this authority, and that
section 5 of SB 11 is invalid and unconstitutional as
a violation of the separation of powers principle. Cal.
Const. art. III §3. Under article IV, section 18 of the
Constitution, the commission and the California
Supreme Court have exclusive authority over judicial
authority.
Analysis
The commission is the independent state agency
charged with investigating complaints of judicial
misconduct and judicial incapacity and for
disciplining judges. The commission’s jurisdiction

App.237
includes all judges of California’s superior courts and
the justices of the Court of Confidential letter to
Attorney General Edmund G. Brown, Jr.
April 3, 2009
Page 3 of 12
Appeal and Supreme Court. Cal. Const. art. VI § 18,
subd. (d).41 The Supreme Court may in its discretion
Article VI, section 18 subd., (d) states in its entirety: “Except
as provided in subdivision (f), the Commission on Judicial
Performance may (1) retire a judge for disability that seriously
interferes with the performance of the judge's duties and
is or is likely to become permanent, or (2) censure a judge or
former judge or remove a judge for action occurring not more
than 6 years prior to the commencement of the judge's current
term or of the former judge's last term that constitutes willful
misconduct in office, persistent failure or inability to perform
the judge's duties, habitual intemperance in the use of
intoxicants or drugs, or conduct prejudicial to the
administration of justice that brings the judicial office into
disrepute, or (3) publicly or privately admonish a judge or
former judge found to have engaged in an improper action or
dereliction of duty. The commission may also bar a former
judge who has been censured from receiving an assignment,
appointment, or reference of work from any California state
court. Upon petition by the judge or former judge, the Supreme
Court may, in its discretion, grant review of a determination by
the commission to retire, remove, censure, admonish, or
disqualify pursuant to subdivision (b) a judge or former judge.
When the Supreme Court reviews a determination of the
commission, it may make an independent review of the record.
If the Supreme Court has not acted within 120 days after
granting the petition, the decision of the commission shall be
final. The referenced exception in subdivision (f) does no limit

41

App.238
grant review of a disciplinary determination by the
commission. Id. “No court, except the Supreme
Court, shall have jurisdiction in a civil action or
other legal proceeding of any sort brought against
the commission by a judge.” Cal. Const. art. VI, § 18
subd. (g). Further, “The Supreme Court shall makes
rules for the conduct of judges, both on and off the
bench … referred to as the Code of Judicial Ethics.”
Cal. Const. art. VI § 18 subd. (m).
There is a conflict between the grant of
immunity in section 5 of SB 11 and the commission’s
constitutional authority to discipline judges. In
addition to the situation in Los Angeles County
Superior Court, judges in other state courts have
authorized payment of supplemental compensation
to themselves from court funds since 1997, even
without benefit of any enactment by their respective
counties. Based on the rule announced in Sturgeon
and unmodified by the Supreme Court, such
supplemental compensation was not authorized by
law and was unconstitutional. Depending on the
the commission’s jurisdiction. It states “A determination by the
Commission on Judicial Performance to admonish or censure a
judge or former judge of the Supreme Court or remove or retire
a judge of the Supreme Court shall be reviewed by a tribunal of
7 court of appeal judges selected by lot.”

App.239
facts, judges’ authorization and receipt of such
supplemental compensation may violate canons 1
and 2A of the California Code of Judicial Ethics
(failing to respect and comply with the law, failing to
promote public confidence in the integrity of the
judiciary, failing personally to observe the high
standards of conduct required to preserve the
integrity of the judiciary and/or raising an
appearance of impropriety.) If violative of the canons,
the judges’ conduct may constitute willful
misconduct or conduct prejudicial to the
administration of justice that brings the judiciary
into disrepute and warrants discipline by the
commission under Article VI, section 18, subd. (d).
See note 1, supra.
Because the authority to determine and
administer discipline for misconduct is expressly and
exclusively in the commission under article VI,
section 18, the Legislature cannot directly or
indirectly remove that authority or authorize it to be
performed by any other authority. State Board of
Education v. Levitt (1959) 52 Cal. 2d 441, 461-62;
Carmel Valley Fire Protection District v. State of
California (2001) 25 Cal. 4th 287, 304. “Powers,
obligations, and rights bestowed or declared by the
Constitution may not be amended, modified, or

App.240
derogated by statute.” Fair Political Practices Com.
v. State Personnel Bd. (1978) 77 Cal. App. 3d 52, 56
Confidential letter to Attorney General Edmund G.
Brown, Jr.
April 3, 2009
Page 4 of 12
disapproved on another ground in Pacific Legal
Foundation v. Brown (1981) 29 Cal.3d 168, 192.
There is nothing in the Constitution that
permits the Legislature to restrict the constitutional
scope of the commission’s authority over judicial
discipline. Consistent with the separation of powers
principle of article III, section 3, where the judicial
branch is to share power with the Legislature, the
Constitution so states. See e.g. California Court
Reporters Assn. v. Judicial Council of California
(1995) 39 Cal. App. 4th 15, 18 (roles of court
promulgated by the Judicial Council held invalid
under article VI section 6 of the Constitution, which
authorizes the Judicial Council to make such rules,
but only to the extent they are “not inconsistent with
statute”). There is no such provision in the
Constitution for the judicial branch to share power
with the Legislature for making rules of judicial

App.241
conduct, or for determining and administering
discipline.
This issue was raised by the commission in
response to past legislative efforts to circumscribe
the commission’s jurisdiction and was one of the
bases for Governor Pete Wilson’s veto of legislation
in 1998. At that time, AB 1110 (Escutia) sought to
prohibit the commission from investigating or
imposing discipline on a judge “solely on the basis of
a judicial decision or an administrative act found to
be incorrect legally” or on the basis of “[a] dissenting
opinion in an appellate case which does not adhere to
precedent set by a higher court.” The Governor’s veto
letter (attached) stated that, “Under the California
Constitution, the Legislature is not authorized to
restrict (or expand) the types of judicial conduct
which constitutes a basis for discipline. The letter
further states:
Under the Constitution, it is the Supreme
Court that is to make rules for the conduct of judges,
and it is the Commission that may discipline a judge
for misconduct, subject to review by the California
Supreme Court. Where the judicial branch is to
share power with the Legislature in promulgating
rules, the Constitution has so stated, as in the case of

App.242
the Judicial Council’s right to adopt rules for court
administration, practice and procedure. In that case,
the Constitution provides that these rules shall “not
be inconsistent with statute.” See Cal. Const. Art. VI,
section 6. The Constitution does not provide a similar
sharing of power here.
The standard for assessing whether the
Legislature has overstepped its authority and
violated the separation of powers principle has been
summarized as follows: “The legislature may put
reasonable restrictions upon constitutional functions
of the courts provided they do not defeat or
materially impair the exercise of those functions.”
Santa Clara County Counsel Attorneys Assoc. v.
Woodside (1994) 7 Cal. 4th 525, 543 (citation
omitted). Even in instances where there is no express
and exclusive grant of authority in the Constitution,
the separation of powers doctrine prevents the
Legislature from usurping “core” functions of another
branch of government, in contrast to actions properly
within the sphere of one branch of government that
have the “incidental” effect of duplicating a function
or procedure, delegated to another branch.

App.243
Confidential letter to Attorney General Edmund G.
Brown, Jr.
April 3, 2009
Page 5 of 12
Younger v. Superior Court (1978) 21 Cal.3d 102, 11517; Hustedt v. Workers’ Comp. Appeals Bd.(1981) 30
Cal. 3d 329, 338 (“[L]egislature may put reasonable
restrictions upon constitutional functions of the
courts provided they do not defeat or materially
impair the exercise of those functions”); Ops. Cal.
Atty.Gen. 146 (2003) (“exercise of such overlapping
functions must be incidental and ancillary to the core
powers of the branch in question, rather than a
usurpation of a power delegated to another branch”).
Determining whether judges are subject to discipline
under the Code of Judicial Ethics is a core function of
the commission. Judicial discipline decisions can in
no way be characterized as “incidental” or “ancillary”
to the commission’s functions as set out in article VI,
section 18.
The Supreme Court has not hesitated to strike
down laws that defeat or materially impair the
exercise of core functions of the judicial branch. The
issue has been addressed in the context of the
judicial branch’s power to regulate the practice of

App.244
law including attorney discipline, which has been
recognized as an inherent power of the state courts.
Sec. e.g. Hustedt, 30 Cal. 3d at 336-342 (Legislature
overreached its authority when it permitted the
Workers’ Compensation Appeals Board to discipline
an attorney, undermining the Supreme Court’s
unlimited original jurisdiction over disciplinary
proceedings); Merco Constr. Engineers, Inc. v.
Municipal Court (1978) 21 Cal. 3d 724, 27-33
(Legislature violated separation of powers principle
when it enacted legislature that encroached on
Supreme Court’s authority over standards for
engaging in the practice of law).
On these bases, we conclude that the
Legislature exceeded its authority in enacting
section 5 of SB 11, purporting to preclude the
commission and from disciplining judges who
authorize or receive supplemental compensation that
is not authorized by law.
In reaching our conclusion, we are mindful
that the California Constitution is a restriction on
the Legislature’s powers and that the Legislature
may exercise any and all legislative powers which
are not expressly, or by necessary implication, denied
to it by the Constitution. We are also mindful that

App.245
doubts about the Legislature’s power to act must be
resolved in the Legislature’s favor. Methodist Hosp.
of Sacramento v. Snyder (1971) 5 Cal. 3d 685, 691
(citations omitted); Levit 52 Cal. 2d at 452 (“[a]ll
presumptions and intendments are in favor of
constitutionality,” and “[t]he general rule is that the
invalidity of a legislative act must be clear before it
can be declared unconstitutional.”).
But there appears to be cause to temper this
deference here. As the Supreme Court has stated,
this presumption in favor of the Legislature is
particularly appropriate when the Legislature has
enacted the statute with the relevant constitutional
prescription clearly in mind, and the statute
represents a “considered legislative judgment” as to
the appropriate reach of the constitution provision.
Pacific Legal Foundation, 29 Cal.3d at 180 (citations
omitted). SB 11 reflects no such “considered
legislative judgment.” There is nothing in the bill
analyses of SB 11 indicative of any considerations of
the commission’s or the Supreme Court’s jurisdiction.
As noted, there were no public hearings. The bill was
inserted into the Budget Act of 2008 at the last
minute on February 14, 2008, and passed the same
day.

App.246
Confidential letter to Attorney General Edmund G.
Brown, Jr.
April 3, 2009
Page 6 of 12
2.
Does section 2 of SB 11 (a) simply
identify which judges are permitted as of the
effective date of SB 11 to continue receiving
supplemental compensation from the effective
date forward, on the terms and conditions in
effect on July 1, 2008, or (b) Retroactively
authorize all or some portion of supplemental
compensation provided by counties to judges or
to judges by the judges themselves so long as it was being
provided as of July 1, 2008?
We believe that section 2 of SB 11 simply
identifies which judges are permitted as of the
effective date of SB 11 to continue receiving
supplemental compensation from that date forward
on the terms and conditions in effect on July 1, 2008,
and that it is not a retroactive authorization of past
supplemental compensation.
Analysis
Section 2 of SB 11, adding Section 6822(a) the
Government Code states:

App.247
Judges of a court whose judges received
supplemental judicial benefits provided by the
county or court, or both, as of July 1, 2008, shall
continue to receive supplemental benefits from the
county or court then paying the benefits on the same
terms and conditions as were in effect on that date.
Section 2 does not state from what date the
supplemental compensation “shall continue.” Nor
does it state that supplemental compensation
received prior to the effective date of the statute is
authorized (except possibly supplemental
compensation received on or after July 1, 2008).
Section 2 may mean that the subset of state court
judges receiving supplemental compensation on July
1, 2008 are permitted, as of the effective date of SB
11, to continue to receive the compensation on the
same terms and conditions in effect on July 1, 2008.
In that case, there is still no legislative enactment
authorizing receipt of such compensation before the
effective date of SB 11, and assuming the immunity
provision in section 5 is invalid, judges who
authorized or received it may be subject to discipline
by the commission if their conduct is found to
constitute misconduct.

App.248
Alternatively, it might be contended that
because of the Legislature’s stated intention in
section 1(a) of SB 11 was to “address” Sturgeon and
the central finding in Sturgeon was that there was
no legislative enactment from 1997 to date
permitting the supplemental compensation at issue
in the case (paid from 1997 to date in at least some
cases), the Legislature must necessarily have
intended SB 11 to be the missing legislative
enactment authorizing the supplemental
compensation for this entire period.
Confidential letter to Attorney General Edmund G.
Brown, Jr.
April 3, 2009
Page 7 of 12
Retroactive legislation is not impermissible
within limits.42 Nevertheless, based on the following
Where it is clear that the Legislature intended a statute to
have retroactive application, separation of powers principles do
not preclude the application of the legislature to both pending
and future cases through any such law cannot “readjudicate” or
otherwise “disregard” judgments already final. People v. Bunn
(2003) 27 Cal.4th 1, 17 (citations omitted)(new criminal statute
applicable because it was in effect when judicial review became
final); Evangelatos v. Superior Court (1988) 44 Cal.3d 1188,
1207 (citations omitted)(statute held not retroactive); Mandel v.
Myers (1981) 29 Cal.3d 531, 547 (rejecting legislative attempt,

42

App.249
principles, it appears that section 2 of SB 11 does not
constitute retroactive authorization of supplemental
compensation, but operates only prospectively.
First, statues are presumed to be prospective.
The principle that statutes operate only
prospectively, while judicial decisions operate
retrospectively, is familiar to every laws student.
[Citations]. This court has often pointed out: “[T]he
first rule of construction is that legislation must be
considered as addressed to the future not to the
past…The rule has been expressed in varying
degrees of strength but always of one import, that a
retrospective operation will not be given to a statute
which interferes with antecedent rights…unless such
be “the unequivocal and inflexible import of the
terms, and manifest intention of the legislature.”
Evangelatos, 44 Cal.3d at 1207, quoting
United States Security Industrial Bank (1982) 459
U.S. 70, 79-80; see also Aetna Cas. & Surety Co. v.
as part of state budget process, to review the merits of an
attorney fee award previously entered and affirmed on appeal);
Hunt v. Superior Court (1999) 21 Cal.4th 984, 1008 (judgments
are not final for separation of powers purposes until both the
trial and appellate process is complete and the case no longer
pending in the courts).

App.250
Ind. Acc. Com. (1947) 30 Cal.2d 388, 393: “[I]t is an
established canon of interpretation that statutes are
not to be given a retrospective operation unless it is
clearly made to appear that such was the legislative
intent”). The lack of an express statement of
retroactivity in a statute has been held to mean that
the presumption of prospective application should
apply. Bolen v. Woo (1979) 96 Cal.App.3d 944, 958959 . (Observing that if the Legislature had intended
the statute to be retroactive, “it could very easily
have inserted such language in the statute itself. It
chose not to so.”); Robins v. Pediatric Affiliates
Medical Group, Inc. (1979) 98 Cal. App. 3d 907, 911912; see also Evangelatos, 44 Cal.3d at 1211-1212.
Second, “In the absence of an express
retroactivity provision, a statute will not be applied
retroactively unless it is very clear from extrinsic
sources that the Legislature …must have intended a
retroactive application.” Evangelatos 44. Cal. 3d at
1209: The California Supreme Court has repeatedly
given retroactive application to statutes “even when
a statute did not contain an express provision
mandating retroactive application, where the
legislative history of the context of the enactment
provided a sufficiently clear indication that the

App.251
Legislature intended the statute to operate
retrospectively.” Id. at 1210 (citations omitted).
Applying these principles here, SB 11 appears
to have only prospective application. First there is no
express statement of retroactivity in SB 11. Section 2
of SB 11 does not state that it is retroactive. Nor is
there an express statement of retroactivity in the
findings and
Confidential letter to Attorney General Edmund G.
Brown, Jr.
April 3, 2009
Page 8 of 12
declaration of purpose in section 1(a). Section 1(a)
states only that the legislation was intended “to
address” Sturgeon. Consistent with Bolen, Robins
and Evangelatos, the absence of an express
statement of retroactivity should mean that the
presumption of prospective application applies. As in
Bolen, had the Legislature intended to retroactively
authorize judges to receive supplemental
compensation, it could’ve said so. For example,
section 2 might have stated, “This provision is
intended to be retroactive and to authorize such
supplemental compensation as provided in this

App.252
section beginning in 1997.” But, it does not. Instead,
it states that judges “shall continue to receive” such
supplemental compensation as was in place on July
1, 2008. This phrase has a prospective meaning.
Nor is there an express statement of
retroactivity in any other section of SB 11. Although
sections 1(b) and (c) of the findings and declarations
referred to events in the past tense (the “benefits
were considered by the Legislature in enacting the
Lockyer-Isenberg Trial Court Funding Act of 1997”,
counties and courts “established” the supplemental
compensation and judges “relied upon the existence
of these long-standing supplemental benefits”).
These statements appear to reflect only an
awareness of the history of the supplemental
compensation, and it seems unreasonable to construe
them as retroactive authorization. Similarly, while
section 4 acknowledges the existence of past
supplemental compensation by stating that neither
the Judicial Council nor the state are obliged “to pay
for benefits previously provided by the county, city
and County, or the court,” this does not state that
such past supplemental compensation is now
retroactively authorize, it simply immunizes the
state from any claims for repayment. Nor does the
retroactive immunity provision in section 5 expressly

App.253
authorizes supplemental compensation retroactively.
To the contrary, the fact that the Legislature felt it
was necessary to immunize judges from liability and
discipline on the ground that such supplemental
compensation was not authorized by law suggests
that the Legislature recognized that such benefits
were not authorized, thus requiring an immunity
provision.
Second, we have located nothing in the
legislative history of SB 11 that meets the standard
in Evangelatos, 44 Cal.3d at 1209 (in the absence of
an express retroactivity provision and must be “very
clear from extrinsic sources that the Legislature…
must have intended a retroactive application”).
Regarding the legislative history, Bill analyses
obtained from the Legislative Counsel’s
Office(attached) echo the “continue to receive”
language of section 2 of the bill, and support a
prospective interpretation. The Assembly floor
analysis states that the bill makes statutory changes
“to address” Sturgeon, and provides that “counties
and courts through subsequent to the LockyerIsenberg Trial Court Funding Act of 1997,
established supplemental benefits to retain qualified
applicants for judicial office and where [sic] paying
such benefits as of July 1, 2008 … shall continue to

App.254
provide supplemental benefits to judges on the same
terms and conditions as were in effect of July 1,
2008.” [Emphasis added]. The digest section of the
Senate floor analysis similarly states that, “This bill
now responds to a recent state court of appeal
decision by authorizing counties and courts to
continue providing existing local benefits to trial
court judges.” [Emphasis added]. The analysis
section of the same document states,
Confidential letter to Attorney General Edmund G.
Brown, Jr.
April 3, 2009
Page 9 of 12
“This bill addresses the Court’s holding in Sturgeon
by expressly authorizing counties and courts to
continue providing existing local benefits to trial
court judges.” [Emphasis added]43

The statement in the Senate Floor analysis that after the
Lockyer-Isenberg Trial Court Funding Act of 1997 was enacted,
“counties and courts were permitted to continue providing
supplemental benefits to trial court judges, as had been the
practice prior to 1997” appears questionable in view of
Sturgeon’s extensive analysis of whether such benefits were
“permitted”, and conclusion that there was no law “permitting”
it.

43

App.255
On the foregoing basis, we conclude that
section 2 of SB 11 is not a retroactive authorization
of past supplemental compensation.
3.
Has the Legislature adequately
prescribed the supplemental compensation
purportedly authorized by SB 11?
We conclude that SB 11 contains no
discernible standards or safeguards, hence it appears
to be an improper delegation by the Legislature of its
duty to prescribe compensation for judges.
Analysis
The Legislature is charged with the
nondelegable duty to “prescribe compensation” for
state judges. Cal. Const. art. VI § 19; Sturgeon, 167
Cal. App. 4th at 642 (citation omitted). When the
Constitution has “prescribed” a duty, it is nondelegable; the named authority must itself exercise
the functions described. Sturgeon, 167 Cal. App. 4th
at 652-653 (citations omitted). Article VI, section 19
“makes manifest as clearly and tersely as words
could do the intent of the framers thereof that the
entire matter of the compensation of justices and
judges … both as to the amount thereof and as to the
time and manner of payment thereof should be

App.256
transferred from the constitution and reposed in the
legislature.” Sturgeon, 167 Cal. 4th at 642, quoting
Sevier v. Riley (1926) 198 Cal. 170, 174-175
(interpreting precursor to this portion of article VI,
section 19).
Even when the legislature bears a
nondelegable duty, however, it may still permit other
bodies “to take action based on a general principle
established by the legislative body so long as the
Legislature provides either standards or safeguards
which are sure that the Legislature’s fundamental
policy is effectively carried out.” Kugler v. Yocum
(1968), 69 Cal. 2d 371, 376-377. The purpose of the
doctrine that legislative power cannot be delegated is
to assure that “truly fundamental issues will be
resolved by the legislature”, and that a grant of
authority is accompanied by “safeguards adequate to
prevent its abuse.” Id. (citations omitted).
There are two Attorney General opinions on
the Legislature’s nondelegable duty to prescribe
judges’ compensation that appear relevant to
whether the Legislature has adequately prescribed
the supplemental compensation purportedly
authorized by SB 11. 59 Ops.Cal.Atty.Gen. 496
(1976); 61 Gps.Cal.Atty.Gen. 388 (1978). The statute

App.257
in question in the first opinion authorize local
governments to provide health and welfare benefits
to their officers and employees, and provided that
judges whose salaries were paid in whole or in part
from County funds were county employees, hence
they also receive the benefits. The Attorney
Confidential letter to Attorney General Edmund G.
Brown, Jr.
April 3, 2009
Page 10 of 12
General found this to be an impermissible delegation
of the Legislature’s nondelegable duty to prescribe
judges’ compensation. 59 Ops.Cal.Atty.Gen at 500
(the power channeled to the counties by the statute
was “totally without standards, and thus would not
satisfy the requirements set forth in Kugler). The
Legislature then amended the statute to provide that
the benefits “shall be subject to the same or similar
obligations and be granted the same or similar
employee benefits as are now required or granted to
employees of the county in which the court of said
judge, officer or attaché is located.” But, the Attorney
General found the amended statute in valid for the
same reason. “[A]s was the case prior to the
amendment, the Legislature authorizes the

App.258
individual County legislative bodies to determine if,
in one what form, and to what extent judges shall be
compensated with county-sponsored health
insurance benefits. There is a complete absence of
effective legislatively established standards to guide
county authorities in the making of this
determination. The Legislature has thus failed to
address itself to those omissions that cause the
original statue to be constitutionally defective.” 61
Ops.Cal.Atty.Gen at 390.
SB 11 appears to suffer from the same
infirmity. The legislature has reported to approve
whatever supplemental compensation County
authorities or the judges themselves approved as of
July 1, 2008. But, there were no standards or
safeguards in any legislations on or before July 1,
2008. Sturgeon, 167 Cal.App.4th at 654-657. Nor
does SB 11 contain any standards or safeguards
going forward.
It appears that the Legislature has attempted
to define around this problem of missing standards
or safeguards by defining “compensation” in article
VI section 19 to mean only “salary” and not
“benefits.” This would mean that the Legislature
does not have nondelegable duty to prescribe

App.259
“benefits,” or to set standards or safeguards
regarding “benefits,” leaving in place the wide
variety of supplemental compensation authorized by
courts and judges themselves as of July 1, 2008. This
is purportedly accomplished via section 3 of SB 11.
Section 3 add section 68221(b) the Government Code.
Section 68221 (b) is to state that Salary” and
Benefits” shall have the meanings given those terms
in Government Code section 1241. Government Code
section 1241 in turn states that, “Whenever a section
of the California Constitution uses both the terms
‘salary’ and ‘compensation’, with respect to public
officer or employee, the terms shall apply only to
salary.” Since article VI, section 19 contains both the
words “salary” and “compensation”, application of
section 1241 would mean that “benefits” are no
longer encompassed by article VI, section 19, thus
there is no requirement that the Legislature
prescribe them, or provide standards or safeguards
for them. Section 3 also add section 6822(a) to the
Government Code, which would now define
professional development allowances as a “benefit.”
We believe there is some doubt as to the
validity of this mechanism for avoiding the import of
Article 6, section 19. Both the Attorney General in
the prior to opinions and the Court of Appeal in

App.260
Sturgeon have rejected this “salary” and “benefits”
dichotomy. The Attorney General opinions conclude
that benefits are part of compensation and must be
prescribed by the Legislature. The Court of Appeal
reach the same conclusion. “Our consideration of the
express language of section 19, article VI, its origins
and purposes and the potential consequences of
adopting a narrow interpretation of its scope,
convince us that notwithstanding section 1241, the
employment benefits provided by the county are part
of each judge’s
Confidential letter to Attorney General Edmund G.
Brown, Jr.
April 3, 2009
Page 11 of 12
compensation and therefore must be prescribed by
the Legislature.” Sturgeon, 167 Cal.App.4th at 645.
Most clearly with respect to the unrestricted
cash payments judges are receiving, it does not
appear that simply attaching the label “benefit
unquote to the payment could legitimately convert it
into something other than an impermissible payment
of enhanced judicial salary. Judges are entitled to
these cash and “cash-in-lieu” payment simply by

App.261
virtue of holding the office of judge, and receive the
money regardless of the quantity or quality of work
performed. These types of cash benefits us appear to
be “salary,” as commonly defined.44 as stated in
People ex. Rel. Lockyer v. Pacific Gaming
Technologies (2000) 82 Cal. App.4th 699, 701 & fn. 1,
“if it looks like a duck, and sounds like a duck, it is a
duck.” See also Civ. Code §3528 (the law of respects
form less than substance). Other courts have applied
these principles to find that compensation termed
“benefits” were actually salary. See e.g. Estes v. City
of Richmond (1957) 249 Cal.App.2d 546 (monthly
“hazardous duty pay unquote to police officers and
firefighters was “a blanket increase … in the ‘payroll’
of the police and fire departments and of the
‘salaries’ of the personnel affected and …the city
Neither section 1241 nor article VI, section 19 define “salary.”
It is essentially a right to payment that “is incident to an office
or employment.” Conover v. Board of Equalization (1941) 44
Cal.App.2d 283, 288; Government Code § 75003 (defining
“salary” under the Judges Retirement Law as “the
compensation received by a judge as the emolument of the office
of judge”). See also Kahn v. Superior Chicken and Ribs, Inc.
(E.D.N.Y. 2004) 331 F.Supp.2d 115, 117 (a salaried employee
received a fixed compensation in period payments, “which
amount is not subject to reduction because of variations in the
quality or quantity of the work performed”); United States v.
Grant (7th Cir. 1956) 237 F.2d 522, 514 (to the same effect);
United States v. Gorman (1948) 76 F.Supp. 218, 219 (“salary”
implies the receipt of a fixed stipend).

44

App.262
Council could not obviate this fact merely by
designating such payments as ‘hazardous duty pay’
and enacting an ordinance purporting to remove
such pay from the scope of [the pension provision] of
the city charter”).45
On these bases, we conclude that to the extent
that the supplemental “benefits” are salary and thus
“compensation” under article VI, section 19, the
Legislature has failed to provide standards are
safeguards as required by Kugler. Instead, SB 11
purports to authorize counties in individual judges to
continue receiving a wide spectrum of supplemental
compensation designed either by the counties or the
judges themselves, including unrestricted cash
payments and cash-in-lieu of benefits. This appears
entirely inconsistent with the meaning of article VI,
See also City of Fort Wayne v. Ramsey (Ind.App. 1991) 578
N.E.2d 723, 737 (designating a payment as something other
than “salary” does not mean it is not salary, and prior cases
involving longevity pay properly found such pay was part of
salary for purposes of computing pension benefits); Hemphill v.
City of Bogalusa (La.App. 1982) 417 So.2d 462, 464
(supplemental payments paid to city firefighters by the state
were part of “salary” for purposes of computing pay differentials
between ranks under state statute; Joseph Radtke v. United
States (E.D. Wis. 1989) 712 F.Supp. 143 (the sole shareholder of
a corporation could not evade Social Security and
unemployment taxes by characterizing his remuneration as
“dividends” instead of “wages”).

45

App.263
section 19, as set forth out, Sevier, 198 Cal. at 174175, and Sturgeon, 167 Cal.App.4th at 654. As stated
by the Court of Appeal, “in the context of judicial
compensation, we must carefully observe the limits
of legislative delegation… in considering
compensation judges receive we must be careful that
in fact the Legislature has exercised its prescriptive
role. In particular, unlike the concern employees
might receive excessive pay … we must in addition
be sensitive to the potential that,
Confidential letter to Attorney General Edmund G.
Brown, Jr.
April 3, 2009
Page 12 of 12
in the absence of proper direction from the
Legislature, judges might be subject to substantial
variations in compensation determined solely by
local authorities.” Id. SB 11 perpetuates the same
lack of rationality and uniformity in judicial
compensation found problematic in Sturgeon, and
defeats the principle purpose of article VI, section 19
that the Legislature prescribe judges’ compensation.
The commission appreciate your attention to this
matter. To the extent that the Attorney General’s

App.264
office will entertain input from other parties on this
issue, we ask that the commission be given an
opportunity to respond to that input prior to your
final opinion.
Please not hesitate to contact me if you would
like to discuss this further.
Very truly yours,
s/Victoria B. Henley
Director, Chief Counsel

VBH:MB:cj/040309Brown
Enclosures

App.265

APPENDIX K
EDMUND G. BROWN, JR.
Attorney General of California STEPHEN P.
ACQUISTO
Supervising Deputy Attorney General
ANTHONY R. HAKL
Deputy Attorney General State Bar No.
197335 1300 I Street, Suite 125
P.O. Box 944255 Sacramento, CA 94244-2550
Telephone: (916) 322-9041 Fax: (916) 324-8835
E-mail: Anthony.Hakl@doj.ca.gov
Attorneys for Defendants
FILED
LOS ANGELES
SUPERIOR COURT
DECEMBER 10, 2010
John A. Clarke, Clerk
By s/ Raul Sanchez, Deputy
SUPERIOR COURT OF THE STATE OF
CALIFORNIA
COUNTY OF LOS ANGELES
BY FAX
Case No. BC425491

App.266

CANDACE COOPER,
Plaintiff,
v.
CONTROLLER OF THE STATE OF
CALIFORNIA
and SECRETARY OF THE STATE OF
CALIFORNIA
Defendants.

NOTICE OF ENTRY OF JUDGMENT
Dept: 33
Judge: The Honorable Charles F. Palmer
Action Filed: November 6, 2009
PLEASE TAKE NOTICE that on
November 22, 2010, the Court entered the
attached Judgment.
Dated: December 10, 2010

App.267

Respectfully Submitted,
EDMUND G. BROWN, JR.
Attorney General of California
STEPHEN P. ACQUISTO
Supervising Deputy Attorney General
s/ Anthony R. Hakl
ANTHONY R. HAKL
Deputy Attorney General Attorneys
for Defendants

SA2009103156 10643750.doc

App.268

EDMUND G. BROWN, JR.
Attorney General of California STEPHEN P.
ACQUISTO
Supervising Deputy Attorney General
ANTHONY R. HAKL
Deputy Attorney General State Bar No.
197335 1300 I Street, Suite 125
P.O. Box 944255 Sacramento, CA 94244-2550
Telephone: (916) 322-9041 Fax: (916) 324-8835
E-mail: Anthony.Hakl@doj.ca.gov Attorneys for
Defendants
EXEMPT FROM FILING FEES PURSUANT
TO GOVERNMENT CODE § 6103
ORIGINAL FILED NOV 22 2010
LOS ANGELES SUPERIOR COURT
SUPERIOR COURT OF THE STATE OF
CALIFORNIA COUNTY OF LOS ANGELES
Case No.BC425491
[PROPOSED] JUDGMENT

App.269

CANDACE COOPER,
Plaintiff,
v.
CONTROLLER OF
THE STATE OF CALIFORNIA
and SECRETARY OF THE STATE OF
CALIFORNIA
Defendants
Date: None
Time: None
Dept: 33
Judge: The Honorable
Charles F. Palmer
Trial Date November 8, 2010
Action Filed: November 6, 2009
The motion for summary judgment of
Plaintiff Candace Cooper and the motion for
summary judgment, or in the alternative
summary adjudication, of Defendant
Controller of the State of California came on
regularly for hearing upon notice on
September 9, 2010, before the Honorable
Charles F. Palmer, in Department 33 of the
court identified above, located at the Stanley
Mosk Courthouse, 111 North Hill Street, Los

App.270
Angeles, California. Further hearing on the
motions occurred on September 30. Elwood
Lui and Erica L. Reilley appeared on behalf of
Cooper. Anthony R. Hakl, Deputy Attorney
General, appeared on behalf of the Controller.
Following oral argument, the Court took the
matter under submission.
Having reviewed and considered all papers
in support of and in opposition to the motions,
and after hearing oral argument, the Court
issued its Order Re Motions for Summary
Judgment and Summary Adjudication,
consisting of twenty-seven pages, on October
20. For the reasons and to the extent set forth
in that Order, which is attached hereto and
incorporated by reference, and there being no
disputed material facts, the Court finds,
adjudges and orders that the Controller is
entitled to judgment in his favor as follows:
1. Cooper's motion for summary judgment is
denied;
2. The Controller's motion for summary
judgment is denied;

App.271
3. The Controller's motion for summary
adjudication as set to the first cause of action
granted in part and denied in part; and
4. The Controller's motion for summary
adjudication as to the second cause of action is
granted.
IT IS SO ORDERED.
Dated: NOV 22 2010
s/ CHARLES F. PALMER
The Honorable Charles F. Judge of
the Superior Court
Approved as to form:
s/Erica L. Reilley
Attorney for Plaintiff Candace Cooper

SA2009103156 10630755.doc

App.272

FILED
LOS ANGELES SUPERIOR COURT
OCT 20 2010
SUPERIOR COURT OF THE STATE OF
CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
Case No. BC425491
CANDACE COOPER,
Plaintiff,
vs.
CONTROLLER OF THE STATE OF
CALIFORNIA, ET.AL.
Adjudication Defendants

Order Re: Motions for Summary Judgment
and Summary Adjudication
Background
Plaintiff Candace Cooper ("Justice
Cooper") was appointed to the Court of Appeal
in 1999.

App.273
In 2006, Justice Cooper was elected to a
twelve year term, pursuant to Article VI,
Section 16 of the California Constitution
("Section 16"). Justice Cooper's (Ret.)Separate
Statement of Undisputed Material Facts, etc.
("Justice Cooper's UMF") at 1 and 2.
Justice Cooper resigned and retired
from the Court of Appeal, effective December
31, 2008. Justice Cooper's UMF 3. At the time
of her retirement, their remained
approximately 10 years of the term to which
she had been elected. Ibid. Justice Cooper has
had a long- standing interest in teaching at
the university level and would like to "seize
upon a teaching opportunity at a public
institution during her retirement...but is
reluctant to do so because she is concerned
that a few non-judicial interpretations of
Article VI, Section 17 of the California
Constitution ("Section 17") have construed the
provision so as to preclude her from any
public employment during the remainder of
the term for which she was elected – that is,
until the year 2018." Verified Complaint for
Declaratory Relief, filed herein November 6,
2009 (the "Complaint") at para. 18. She is
further concerned that "acceptance of such
public employment could result in her
forfeiting all her State retirement benefits or

App.274
other vested benefits (health, dental, etc.) to
which she is entitled." Ibid.
The Complaint seeks the following
judicial declarations: (1) that a proper
construction of Section 17 requires that its bar
against public employment applies only to
sitting judges or justices and not to judges or
justices who have resigned or retired from
the bench and (2) if Section 17 is construed
as a bar to post-retirement public
employment, Section 17 violates equal
protection insofar as it treats similarly
situated judges or justices differently and
such differential treatment bears no
rational relationship to any legitimate state
purpose. Complaint, p.8. The Complaint
names as defendants the Controller of the
State of California (the "Controller") and the
Secretary of State of the State of California
(the "Secretary of State"). The Secretary of
State was dismissed without prejudice on
March 23, 2010.
Justice Cooper has moved for summary
judgment; the Controller has moved for
summary judgment or, in the alternative,
summary adjudication. There are no disputed
material facts. See Defendant's Separate
Statement of Undisputed Material Facts in
Opposition to Plaintiff's Motion for Summary
Judgment, filed herein August 12, 2010

App.275
and Justice Cooper's (Ret.) Response to
Separate Statement of Undisputed Material
Facts in Support of Defendant's Motion for
Summary Judgment, or in the Alternative
Summary Adjudication, filed herein August
12, 2010. In that there are no disputed
material facts, the issues presented by the
pending motions are purely legal and the case
is ripe for resolution by summary judgment.
Pertinent Provisions of the California
Constitution
The pertinent provisions of the
California Constitution for purposes of these
motions are Article VI, section 16 ("Section
16") and Article VI, section 17 ("Section 17").
Section 16 provides, in pertinent part:
"(a) Judges of the Supreme Court shall
be elected at large and judges of courts of
appeal shall be elected in their districts at
general elections at the same time and place
as the Governor. Their terms are 12 years
beginning the Monday after January 1
following their election, except that a judge
elected to an unexpired term serves the
remainder of the term. In creating a new
Court of appeal district or division the
Legislature shall provide that the first
elective terms are 4, 8, and 12 years.

App.276
"...

"(c) Terms of judges of superior courts
are six years beginning the Monday after
January 1 following their election. A vacancy
shall be filled by election to a full term at the
next general election after the January 1
following the vacancy, but the Governor shall
appoint a person to fill the vacancy
temporarily until the elected judge's term
begins.
"(d) (1) Within 30 days before August 16
preceding expiration of the judge's term, a
judge of the Supreme Court or a Court of
appeal may file a declaration of candidacy to
succeed to the office presently held by the
judge. If the declaration is not filed, the
Governor before September 16 shall nominate
a candidate. At the next general election, only
the candidate so declared or nominated may
appear on the ballot, which shall present the
question whether the candidate shall be
elected...
(2) The Governor shall fill vacancies in
those courts by appointment. An appointee
holds office until the Monday after January 1
following the first general election at which
the appointee had the right to become a
candidate or until an elected judge qualifies...

App.277
Section 17 provides, in pertinent part:
"A judge of a court of record may not
practice law and during the term for which
the judge was selected is ineligible for public
employment or public office other than judicial
employment of judicial office, except a judge of
a court of record may accept a part-time
teaching position that is outside the normal
hours of his or her judicial position and does
not interfere with the regular performance of
his or her judicial duties while holding off
A judge of a trial court of record may, however,
become eligible for election to other public
office by taking a leave of absence without pay
prior to filing a declaration of candidacy.
Acceptance of the public office is a resignation
from the office of judge...A judicial officer may
not earn retirement service credit from a
public teaching position while holding judicial
office."
It is undisputed that "judges of a court
of record" encompasses Superior Court judges
and justices of the Supreme Court and Courts
of Appeal.
Textual Analysis of Sections 16 and 17
The first declaration sought by Justice
Cooper – that Section 17's ineligibility

App.278
provision applies only to sitting judges and
not to resigned or retired judges – requires a
determination of the meaning of the word
"term" as it is used in Section 17 ("A judge of a
court of record...during the term for which the
judge was selected is ineligible for public
employment...") Justice Cooper asserts, as she
must, that the term to which a justice is
elected ends upon the justice's resignation or
retirement. If the term does not end upon
resignation or retirement, under Section 17,
the term necessarily continues and the
retired justice remains ineligible for public
employment.
Since 1849, Article VI of the California
Constitution has provided for the judicial
branch of government Lungren v. Davis (1991)
234 Cal.App.3d 806, 810 and fin.3. The
present Section 16 addresses the election and
appointment of judges of the Supreme Court,
the Court of Appeal, and the superior court,
defines their terms, and provides for filling
vacancies in those courts. Ibid. The present
Section 17 addresses restrictions on
employment by judges of courts of record,
including justices of the Court of Appeal.
Section 17 does not define the word "term."
The only definition of "term" in Article VI is
found in Section 16, the section that
immediately precedes Section 17.

App.279
"It is a cardinal rule to be applied to the
interpretation of particular words, phrases,
or clauses in a statute or a constitution that
the entire substance of the instrument or of
that portion thereof which has relation to
the subject under review should be looked to
in order to determine the scope and purpose
of the particular provision therein of which
such words, phrases, or clauses form a part;
and in order also to determine the particular
intent of the framers of the instrument in
that portion thereof wherein such words,
phrases, or clauses appear." Wallace v. Payne
(1925) 197 Cal.539, 544. This applies even
where the particular part of the constitution
at issue was added or amended subsequently.
Lungren v. Davis, supra, 234 Cal.App.3d at
823. "There can be no question then that
words and phrases within article VI of the
Constitution must be interpreted in the light
of other provisions of that article [Citations] ...
[T]here is nothing in the history of these two
sections [Sections 16 and 17] which indicates
or even suggests that the word "term" was
meant to have one meaning in section 16 and
another in 17." Ibid.
Section 16(a) defines the term of justices
of the Supreme Court and the Court of
Appeal. It provides: "Their terms are 12
years beginning the Monday after January 1
following their election, except that a judge

App.280
elected to an unexpired term serves the
remainder of the term." Thus, "term" is
defined as 12 years and the exception ("except
that a judge elected to an unexpired term
serves the remainder of the term") on its face
contemplates that when a justice elected to a
term ceases to hold that position, the
successor justice will be elected to an
unexpired term and serves the remainder of
the term. If a term ended upon retirement,
resignation, or other vacation of judicial office,
there would be neither an unexpired term nor
a remainder of the term. To sum up, Section
16(a) defines "term" for justices of the
Supreme Court and Court of Appeal as 12
years commencing the Monday following
January 1 following a justice's election, unless
there is an "unexpired term" which could only
occur because the prior occupant failed to
serve the full term to which she was elected,
in which case, the successor justice serves he
remainder of the term.
It should be noted that Section 16's
definition of "term" for superior court judges is
markedly different from that provided for
justices. Section 16(c), set forth above,
provides that the terms of superior court
judges are 6 years beginning the Monday
after January 1 following their election and
that a vacancy shall be filled by election to a
full term at the next general election after the

App.281
January 1 following the vacancy. Thus, not
only is the term half that of a justice, but
section 16(c) expressly provides that an
election following a vacancy is to a "full term."
There is no reference to an "unexpired term"
or "remainder of their term."
Applying Section 16(a)'s definition of
"term" for Supreme Court and Court of
Appeal justices to the ineligibility provision of
Section 17 ("...during the term for which the
judge was elected is ineligible for public
employment of public office..."), the language
of Section17does not tie ineligibility for public
employment to the justice's service in office or
the time the justice holds office, but to the
"term for which the judge was selected."
Section 16 defines that term as 12 years,
unless the justice was elected to an unexpired
term, in which case it is the unexpired term.
Moreover, Section 17 by itself
distinguishes between a prohibition tied to a
justice's service in office and a prohibition tied
to the term to which the justice was elected.
The prohibition on the practice of law by its
terms only applies to sitting judges and
justices ("A judge of a court of record may not
practice law"). This prohibition is
immediately followed by the language
rendering judges and justices ineligible for
public employment or public office ("and

App.282
during the term for which the judge was
selected is ineligible for public employment or
public office..." Presumably, had the drafters
and voters intended the ineligibility provision
to apply only to sitting justices, they need only
to have deleted the phrase" during the term
for which the judge was selected" and the
operative language would have read "A judge
of a court of record may not practice law and is
ineligible for public employment of public
office..." The fact that Section 17makes this
distinction in the same sentence which creates
the ineligibility provision further evidences an
intent to tie the ineligibility provision not to
the justice's service in office, but to the term
to which the justice was elected. Thus, absent
some contrary intent reflected in the
legislative history of Article VI or judicial
precedent, it appears a justice who resigns,
retires, or leaves office for any other reason,
remains ineligible for public employment or
public office until the expiration of the most
recent term to which she was elected.
The History of Constitutional Revisions and
Judicial Authorities
The parties have not identified, and the
court has been unable to find, any case in
which an appellate court has considered
whether the ineligibility provision of Section
17 or its predecessors applied to justices of the

App.283
Court of Appeal or Supreme Court who have
retired or resigned. However, the Supreme
Court and the Court of Appeal have
addressed related issues which may be of
assistance in determining the meaning of
those provisions. Similarly, the history of
the ineligibility provision in its various forms
throughout the State's history may be
pertinent to a determination of the issues
before the court.
In divining the "legislative history" of
the ineligibility provision, the court relies
upon the submissions of the parties as well as
the comprehensive summary of that history
contained in Lungren v. Davis, supra, 234
Cal.App.3d at 811-819. Lungren cautions
that it focuses on constitutional provisions
and decisional authorities concerned with
the office of superior judge and that
"while there are many similarities
between the office of superior court judge and
justice of the Supreme Court or Court of
Appeal, there are also many differences. For
example, appellate justices must stand for
election, but they always run unopposed
(Section 16(d)). Upon their initial election
they succeed in the unexpired term of their
predecessor, and thereafter their terms are 12
years. (Section 16(a)). Due to these and other
differences, authorities concerned with

App.284
appellate justices are not strictly analogous to
superior court judges." Lungren v. Davis,
supra, 234 Cal.App.3d at 818-819.
With this admonition in mind, the court has
endeavored to avoid analogizing authorities
concerned with superior court judges to
appellate justices where the differences
between the offices render them inapplicable
or suspect.
California's initial 1849 Constitution
had a provision in Article VI, section 16 that
"The Justices of the Supreme Court and
District Judges shall be ineligible to any other
office during the term for which they shall
have been elected." Lungren v. Davis, supra,
234 Cal.App.3d at 811. The position of district
judge was analogous, but not identical, to the
position of superior court judge today. Ibid.
For convenience of reference, the court will
refer to the constitutional provision making
justice or judges ineligible for public office or
public employment, as that provision was
amended from time to time, as the
"ineligibility provision."
In 1858 and 1859, the California
Supreme Court considered two cases
concerning the term to which a district
judge was elected. People v. Weller (1858) 11
Cal.77 and People v. Burbank (1859) 12

App.285
Cal.378. In Burbank, in considering the
issue presented, the court discussed the
purpose of, among other constitutional
provisions, the above- described provision in
the 1849 Constitution making Supreme
Court justices and district judges ineligible
for other office, and explained these
provisions were intended to secure the
impartiality and independence of the
judiciary:
"The Constitution of California shows a
wise and peculiar solicitude to secure the
independence of the Judiciary. For that
purpose, it provides that the Supreme and
District Judges shall not be eligible to any
other office during the terms for which they
shall have been elected; and further, that
their compensation shall not be increased or
diminished during that term." People v.
Burbank, supra, 12 Cal at 391-392.
In 1866, the California Supreme Court
considered whether the Legislature could
make the Chief Justice a trustee of the State
Library, a position which the Court found to
be "within the sphere of the executive
department of the Government." People v.
Sanderson (1866) 30 Cal. 160, 168. In holding
that the Legislature could not do so, the
Court relied primarily upon the separation of
powers provisions then in the Constitution,

App.286
but also referenced the ineligibility
provision and emphasized that the same
policies underlie both:
"This provision of the Constitution [the
separation of powers provisions], so far as it
relates to the judicial department of the
State, is, in our judgment, eminently wise.
One of its objects seems to have been to
confine Judges to the performance of judicial
duties; and another to secure them from
entangling alliances with matters
concerning which they may be called up to
sit in judgment; and another still to save
them from the temptation to use their
vantage ground of position and influence to
gain for themselves positions and places from
which judicial propriety should of itself induce
them to refrain. In the same spirit was
conceived the sixteenth section of Article VI. of
the Constitution, which declares that "The
Justices of the Supreme Court, and the
District Judges, and the County Judges shall
be ineligible to any other office than a judicial
office during the term for which they shall
have been elected." Ibid. (Emphasis added).
This appears to be the only instance in
which an appellate court considered the
application of the ineligibility provision to
justices of the Supreme Court or Court of
Appeal.

App.287
In 1879, the Constitution was revised to
create the present superior court system
and the ineligibility provision was moved to
Article VI, section 18 and revised to provide,
in pertinent part, that justices of the
Supreme Court and superior court judges
"shall be ineligible to any other office or
public employment than a judicial office or
employment during the term for which they
shall have been elected."
In 1904, Article VI, section 18 was
amended to make the ineligibility provision
applicable to justices of the Court of Appeal.
In 1924, Article VI, section 18 was amended to
add municipal court judges to the prohibition
on holding public office and to revise the
language of the provision:
"The justices of the supreme court, and
the district courts of appeal, and the judges of
the superior courts and of the municipal
courts shall be ineligible to any other office or
public employment than a judicial office or
appointment during the term for which they
shall have been elected or appointed, and no
justice or judge of a court of record shall
practice law in any court of the state during
his continuance in office." Lungren v. Davis,
supra, 234 Cal.App.3d at 812.

App.288
This provision very clearly distinguished
between the time of applicability of the
ineligibility provision ("during the term for
which they shall have been elected or
appointed") and the practice of law ("during
his continuance in office"). As previously
noted, this distinction, in somewhat modified
language continues in Section 17 today.
In 1930, Article VI, section 18 was again
amended to add the following exception to the
ineligibility provisions:
"provided, however, that a judge of the
superior court or of a municipal court shall be
eligible to election or appointment to a public
office during the time for which he may be
elected, and the acceptance of any other office
shall be deemed to be a resignation from the
office held by said judge." (Italics in original).
Lungren v. Davis, supra, 234 Cal.App.3d at
813.
Thus, superior and municipal court
justices – but not justices of the Supreme
Court or Court of Appeal – were affirmatively
made eligible for election or appointment to
public office. The court is aware of no
authority or legislative history addressing the
basis for the distinction in the 1930
amendment between trial court judges and
justices of the Supreme Court and the Court

App.289
of Appeal. Regarding the purpose of this
change, the members of the Assembly who
authored the ballot argument in favor of the
amendment asserted that the provision
"permits a judge to be elected or appointed to
other public office by resigning his judicial
position thus making available for wider
public service to the people the bet judicial
minds in the state." Defendants' Request for
Judicial Notice ("RJN"), Exh. 7. Ballot
summary, arguments and analysis "may be
helpful in determining the probably meaning
of uncertain language." Amador Valley Joint
Union High Sch. Dist. v. State Bd. of
Equalization (1978) 22 Cal.3d 2008, 245-246.
In light of the distinction between trial court
judges and justices, the ballot argument's
stated rationale is puzzling in that one would
hope the justices of the Supreme Court and
Court of Appeal would be among the "best
judicial minds in the state." Nonetheless, the
ballot argument does carry with it the
inference that in the absence of the
amendment, superior court and municipal
court judges could not be elected to public
office by resigning their judicial position.
In 1963 the Legislature created a
Constitutional Revision Commission to
recommend desirable constitutional changes
to the Legislature. Alex v. County of Los
Angeles (1973) 35 Cal.App.3d 994, 948, fn.1.

App.290
The Commission established a subcommittee
on the general revision of Article VI, the
judicial article. From the outset of the redrafting of Article VI, the staff notes of the
subcommittee recommended that the
ineligibility provision be revised to delete the
1930 exception making a trial court judge
eligible for election or appointment to public
office, and provide that a trial court judge
could be elected to public office upon
resignation from judicial office prior to
declaration of candidacy. Staff notes
accompanying subsequent drafts reflect that
the recommendation continued and stated the
rationale for the change:"the provision that
judges of municipal or superior courts are
eligible for election or appointment is deleted
because detrimental to the administration of
justice; the possibility of an appointment in
return for a decision is thereby eliminated."
Defendant's Request for Judicial Notice
("Defendant's RJN"), Exh. 12, p. 51.
Successive drafts of a pending bill may
be helpful to interpret a statute if its meaning
is unclear; official reports and comments of
the Constitution Revision Commission may
also be considered. Carter v. California Dept.
of Veteran's Affairs (2006) 38 Cal.4th 927-928;
Katzberg v. Regents of the University of
California (2002) 29 Cal.4th 300, 319, fn. 18.

App.291
The Constitutional Revision
Commission's recommendation that the 130
exception providing that a judge of the
superior court or municipal court was eligible
for election or appointment to any other office
or public employment be deleted was approved
by the Legislature and submitted to the
voters; the recommendation that the
ineligibility provision be revised to provide
that a trial court judge could seek public office
only by resigning was changed by the
Legislature prior to submission to the voters
to provide that trial court judges may become
eligible for election to other public office by
taking a leave of absence without pay prior to
filing a declaration of candidacy and that
acceptance of the public office is a resignation
of the office of judge. The voters adopted the
resulting amendments to the ineligibility
provision in 1966.
The 1966 amendments to the
Constitution made another change pertinent
to the present inquiry – "elected" in the
ineligibility provision was changed to
"selected." ("and during the term for which the
judge was selected"). As explained in Lungren
Davis, supra, 234 Cal.App.3d at 821-822, this
change was necessitated by the expansion of
the ineligibility provision's coverage to all
judge of a court of record:

App.292
"Until 1924, the [ineligibility provision]
applied only to justices of Supreme Court and
Courts of Appeal and to superior court judges.
Throughout the period preceding 1924 the
[ineligibility provisions] applied during the
term for which the judge was 'elected.' In
1924 the [ineligibility provisions] were
enlarged to include judges of the municipal
courts. As we have previously noted, judges of
the municipal courts do serve fixed and
definite terms and an appointee to the
municipal court is appointed to finish the
unexpired term of the previous judge.
[Citations]. Accordingly, if the [ineligibility
provisions] of the Constitution were to be
enlarged to include judges of the municipal
court, then it was necessary to use a word or
phrase of greater breadth than the word
'elected.' Indeed, in conjunction with the
inclusion of municipal court judges in the
[ineligibility provisions] of the Constitution,
the reference to the term of [ineligibility] was
changed from 'elected' to 'elected or
appointed.' In the 1966 constitutional
revision, the [ineligibility provisions] were
expanded to include all judges of a court of
record and the use of the word 'selected' was
necessary in order to include all such judges
serving a term of office."
In 1988, the voters approved Proposition
94, a legislatively-referred constitutional

App.293
amendment which, with respect to Section 17,
(1) added a part-time teaching exception to
the ineligibility provision ("...except a judge of
a court of record may accept a part-time
teaching position that is outside the normal
hours of his or her judicial position and that
does not interfere with the regular
performance of his or her judicial duties while
holding office..."); (2) changed the phrase "the
superior court or municipal court" to "a trial
court," and (3) prohibited a judge from
earning retirement service credit from a
public teaching position while holding judicial
office. Defendant's RJN, Exh.20, p. 63. With
these changes, Proposition 94 brought Section
17 to its current language.
Significantly, the authors of the
argument in favor of Proposition 94 in the
ballot pamphlet included a member of the
Assembly, the President of the California
Judges Association, and the President of the
State Bar. In explaining the need for
Proposition 94, the authors stated their
understanding of the scope of Section 17's
ineligibility provision:
"The Constitution prohibits judges of
courts of record from accepting public
employment or public office outside their
judicial position during their term of office.
This prohibition has been interpreted to mean

App.294
that a judge cannot accept a teaching position
at a public school, but may accept one at a
private school. The prohibition applies during
the time the judge is actually in office and
during the entire term for which the judge was
selected, even if the judge has resigned part
way through the term." Controllers RJN,
Exh.20, p.64. (Emphasis added).
Thus, the ballot argument authors
apparently understood and acknowledged
that a judge's resignation did not render
Section 17's ineligibility provision
inapplicable, but continued during the entire
term to which the judge was elected.
Conclusions As To The Applicability of the
Ineligibility Provision to Resigned or Retired
Justices of the Court of Appeal
As discussed above, the textual analysis of
Sections 16 and 17 indicates, with little
ambiguity, that a resigned or retired justice of
the Court of Appeal is ineligible for public
employment or public office during the
balance of the most recent term to which they
were elected. In sum, this analysis is as
follows:
1) Section 16 (a) defines the "term" of a
justice of the Court of Appeal as "twelve
years beginning the Monday after

App.295
January 1 following their election,
except that a judge elected to an
unexpired term serves the remainder of
the term;"
2) On its face, Section 16 (a) contemplates
that upon resignation or other vacation
of office, the term to which a justice was
most recently elected will continue until
completed ("...except that a judge elected
to an unexpired term serves the
remainder of the term")
3) Section 16 (a)'s definition of the "term" of
a justice applies to section 17. See
Lungren v. Davis, supra, 234 Cal.App.3d
at 823.
4) Section 17's utilization of the word "term"
("...during the term for which the judge
was selected is ineligible for public
employment...") is consistent with the
above-described definition of "term" in
Section 16;
5) Section 17 itself distinguishes between a
prohibition that continues only during
service in office ("A judge of a court of
record may not practice law...") and a
prohibition that continues for the
balance of the term to which the judge
was elected ("...and during the term for

App.296
which the judge was selected is
ineligible for public employment...")
6) Section 16 (c)'s definition of the "term" of
a superior court judge differs
substantially from Section 16 (a)'s
definition of the "term" of a justice in
that Section 16 (c) provides that an
election following a vacancy is to a "full
term," while Section 16 (a) provides that
"a judge elected to an unexpired term
serves the remainder of the term." This
is further indication that the term of a
justice continues until it has expired.
There is nothing inconsistent with this
analysis or its resulting conclusion in the
"legislative history" of the ineligibility
provision. Commencing with at least the 1924
amendment and continuing to the present,
there has been a distinction between the
duration of the prohibition on the practice of
law (..."no justice or judge of a court of record
shall practice law...during his continuance in
office") and the ineligibility provision
(..."during the term for which they shall have
been elected or appointed..."). Indeed, as noted
above, the language of the 1924 amendment
made the distinction even more unavoidable
("the justices of ...the district courts if
appeal...shall be ineligible to any other office
or public employment than a judicial office or

App.297
appointment during the term for which they
shall have been elected or appointed, and no
justice...shall practice law in any court of the
state during his continuance in office.").
Lungren v. Davis, supra, 234 Cal.App.3d at
812.
As discussed above, the ballot argument
in favor of the 1930 amendment, which
removed superior and municipal court judges
from the effect of the ineligibility provision,
argued that the amendment permitted "a
judge to be elected or appointed to other
public office by resigning his judicial
position..." This argument carries with it the
inference that in the absence of the
amendment, a trial judge could not be
eligible for appointment or election to public
office and that justices of the Court of Appeal,
who were not subject to the 1930
amendment, similarly could not simply
resign and accept appointment to public
office.
Moreover, as discussed above, the ballot
argument in favor of Proposition 94 in 1988,
authored by a legislator and the Presidents of
the California Judges Association and the
State Bar essentially adopted the same
interpretation of the duration of the
effectiveness of the ineligibility provision –
that "it applies during the time the judge is

App.298
actually in office and during the entire term
for which the judge was selected, even if the
judge has resigned part way through the
term."
Regarding the purposes of the
ineligibility provision, as discussed above,
since as early as 1859, in People v. Burbank,
supra, 12 Cal.378 and 1866 in People v.
Sanderson, supra, 30 Cal. 160, our Supreme
Court has emphasized its importance in
securing the independence and impartiality of
the judiciary. As Sanderson made clear, the
ineligibility provision was "[i]n the same spirit
conceived" as the doctrine of the separation of
powers. To be sure, the ineligibility provision
also serves the purpose of avoiding a nonjudicial employment of office unduly
interfering with a judge's judicial duties. See
Abbott v. McNutt (1933) 318 Cal.225, 229.
However, even in Abbott v. McNutt, after
quoting the language of Justice Cardozo
relative to a similar provision in New York,
our Supreme Court immediately summed up:
"In other words, it [the ineligibility
provision] is intended to exclude judicial
officers from such extrajudicial activities as
may tend to militate against the free,
disinterested and impartial exercise of their
judicial functions." 218 Cal. at 229.

App.299
In perhaps the most direct statement of
the purpose of the ineligibility provision, the
staff notes of the Constitutional Revision
Commission's committee on the revision of
Article VI,
"the provision that judges of municipal
or superior courts are eligible for election or
appointment is deleted because detrimental
to the administration of justice; the
possibility of an appointment in return for a
decision is thereby eliminated." Defendants
RJN, Exh. 12, p.51. Judicial independence, the
separation of powers, and judicial impartiality
are critical to our system of justice. The State
is a frequent litigant in our courts. The
executive branch and, to a more limited
extent, the legislative branch, have a
multitude of appointments and positions to
which a justice or judge could aspire.
The ineligibility provision serves to
substantially reduce, if not eliminate, the
possibility that a justice in considering cases
could be influenced by aspiration to public
office or public employment. Limiting the
effect of the ineligibility provision to sitting
justices would serve to substantially erode its
protections in that any justice aspiring to nonjudicial office or employment would know that
by simply resigning, she would be eligible for
the position aspired to. In its grossest forms, a

App.300
justice contemplating, in the words of the
Constitutional Revision Commission staff
notes, "an appointment in return for a
decision," would not be deterred at all, since
by simply resigning, the justice would become
eligible for the appointment traded for.
Having determined (1) that the text of
Sections 16 and 17 contemplates that the
effectiveness of the ineligibility provision shall
continue following a justice's resignation or
retirement until expiration of the last term to
which the justice was elected and (2) that the
purposes of the ineligibility provision are
substantial and would not be served if its
effectiveness was limited sitting justices,
there remains the issue of the harshness of its
application in the present case. As Justice
Cooper points out, while a shorter period of
effectiveness, such as the two years of
ineligibility imposed following vacation of
judicial office in Michigan, may be justified to
accomplish the ineligibility purposes, ten
years seems excessive. The court find itself in
a difficult quandary in that Legislatures and
voters since the state's founding in 1849 have,
as to justices of the Supreme Court and the
Court of Appeal, maintained the ineligibility
provision in the Constitution and the
appellate courts have consistently found it to
serve an important purpose in preserving the
independence of the judiciary. Having found

App.301
that its effectiveness continues following
resignation, the court does not find it
appropriate for it to "second-guess" the
Constitution as to the proper length of the
period of effectiveness because the court finds
a shorter period to be better public policy.
That responsibility is appropriately placed by
our Constitution with the legislative branch
or the initiative process and, ultimately with
the voters. Thus, while sharing the view
that the result in the present and similar
circumstances is harsh, if not unfair, the cour
finds that remedying the degree of harshness
is beyond the proper scope of its authority.
Justice Cooper further questions the
application of the ineligibility provision to
retired or resigned justices because it
produces "unreasonable" or "absurd" results.
See, e.g., Pollack v. Hamm (1970) 3 Cal.3d
264, 273 ("because the language of [a
constitutional provision] does not compel the
result suggested by petitioner, we are
governed by the well-established rules that
constitutional and statutory provisions be
construed consistently with the intent of the
adopting body and in such manner as not to
produce unreasonable results."); Barber v.
Blue, supra, at 188 ("we indulge in a
presumption that constitutional and
legislative provisions were not intended to
produce unreasonable results").

App.302
First, the text, purposes, and legislative
history of the ineligibility provision reflects an
intent that it apply to justices who have
vacated their judicial office. This
distinguishes it from the cases cited by
Justice Cooper, where the result of applying
the rejected interpretation of a statutory or
constitutional provision would have resulted
in a determination that was at odds with
the intent or purposes of the provision
under consideration or some other important
public policy. See Barber v. Blue, supra, 65
Cal.2d at 188 (general rule in pertinent
section allowing time for an orderly and
complete elective process overcomes
interpretation which would have resulted in
"hit-or-miss" election); Pollack v. Hamm
(1970) 3 Cal.3d 264, 273 (constitutional
provision that contemplates that an
opportunity to pass on the qualifications of
superior court judges no less than every six
years overcomes interpretation that a new
vacancy is created each time an appointee
vacates the office of judge, thereby making it
possible for carefully timed resignations to
avoid an election indefinitely.)
Second, while the result in this
particular case is harsh, it is consistent with
the purposes of Section 17. The public policies
served by the ineligibility provision are

App.303
substantial and important: judicial
independence, separation of powers and
judicial impartiality. Because of the
importance of keeping them independent and
impartial, justices have a term of 12 year
unless elected to an unexpired term. Having
an election to the unexpired term furthers the
policy of subjecting the judiciary to election;
however, justices, unlike superior court
judges, run unopposed in confirmation
elections, further insulating them from the
political sphere. During the term to which
they are elected, the compensation of justices
may not be reduced. As discussed above, the
language of the ineligibility provision as well
as its legislative history reflect an intent that
its provisions apply after vacation of the office,
precisely to avoid justices being affected in
their deliberations by aspirations for nonjudicial public employment or public office – to
avoid the possibility of trading an
appointment for a decision, but also to avoid
the more subtle influence of a generalized
interest in future government employment. It
appears to the court that this can be
accomplished in one of three ways (although
there may be others): (1) by specifying a
specific time period following vacation of office
during which a justice would be ineligible for
public employment or public office; or, (2) by
making it concurrent with the term to which
the justice was most recently elected; or, (3) by

App.304
making it applicable for the lifetime of the
justice. California has chosen the second
option. Any unfairness of the result is, at
least to some extent ameliorated by the fact
that justices are at least constructively on
notice at the time they stand for election that
they will be ineligible for public employment
or public office for the duration of that term.
Moreover, with the one exception
discussed below, the court does not find the
potential results cited by Justice Cooper to be
absurd or unreasonable. Section 17 treats all
justices the same – they are subject to the
ineligibility provision for the duration of the
term to which they are elected. Justice
Cooper's assertion that it is unreasonable that
a justice could practice law privately, but not
be a county bus driver ignores one of the
critical purposes of the ineligibility provision
which is to remover or minimize the
possibility that contemplation of future
appointment to public non-judicial position in
any capacity could influence a justice's
decisions. With respect to one of Justice
Cooper's examples of positions foreclosed to
her by the ineligibility provision, the position
of court clerk, the court feels constrained to
point out that Section 17 specifically by its
terms excludes from the ineligibility provision
judicial employment ("other than judicial
employment or judicial office"); thus, a retired

App.305
judge would be eligible for employment as a
court clerk or elsewhere in the judicial
branch.
The one exception referred to above,
relates to the part-time teaching exception to
the ineligibility provision ("except a judge of a
court of record may accept a part-time
teaching position that is outside the normal
hours of his or her judicial duties while
holding office."). The court finds that it would
be an unreasonable result and contrary to the
purposes for which Proposition 94 was
adopted in 1988, to permit part-time teaching
at a public institution by a sitting justice, but
prohibit it when the justice, for whatever
reason, vacates her office. Such a result, in
light of the part-time teaching exception for
sitting justices, in no way advances any
purposes of the ineligibility provision or any
other significant public policy, while it is
contrary to the purposes for which Proposition
94 was adopted in 1988 – making judges and
justices available to teach at public
institutions. Similarly, it would be
unreasonable to limit a judicial officer who
has vacated her judicial position to part-time
teaching, in that a former justice who vacates
her position has no judicial duties with which
her teaching activities can interfere. The
Controller concedes that applying the
ineligibility provision to bar retired justices

App.306
from teaching at a public institution, parttime or full-time would be an unreasonable
result.
In view of the above, the court finds that
a justice of the Court of Appeal who has
vacated her judicial position may accept a
part-time or full-time teaching position at a
public institution during the term to which
she was elected. While Justice Cooper did not
move for summary adjudication, at the
hearing on this matter, Justice Cooper and
the Controller stipulated and agreed that to
the extent the court were to conclude that a
retired justice may accept a part-time or fulltime teaching position, the court may to that
extent grant her motion for summary
judgment. Accordingly, the court concludes
that Justice Cooper is entitled to a judicial
declaration that a retired or resigned justice
of the Court of Appeal may accept a part-time
or full-time teaching position at a public
institution during the term to which the
justice was most recently elected consistent
with the provisions of Section 17. In all other
aspects, a retired or resigned Justice of the
Court of Appeal is ineligible for public
employment or public office during the term
to which she was most recently elected.

App.307
Conclusions As To Whether The Applicability
of the Ineligibility Provision to Resigned or
Retired Judges Violates Equal Protection
In her second cause of action, Justice
Cooper seeks a judicial declaration that if
Section 17 is construed as a bar to postretirement public employment, it violates the
equal protection of the laws guaranteed by
the Fourteenth Amendment of the United
States Constitution, as well as by various
provisions of the California Constitution. In
her moving papers, she asserts that Section
17 violates equal protection "insofar as its
provisions will treat similarly situated
judges or justices differently," and describes
two examples: (1) a justice who retires at the
end of her elected term will face no bar to
post-retirement public employment, while a
justice who retires at some point during her
elected term could face up to a near-twelveyear bar to post- retirement public
employment; and, (2) a trial judge could take
a leave of absence to run for public office (and
could return to her judicial office if
unsuccessful), but an appellate justice could
not even resign from the bench to run for
office for potentially upwards of twelve years
following her resignation.

App.308
The United States and California Supreme
Court have adopted the same general
description of equal protection:
"The Equal Protection Clause...denies to
States the power to legislate that different
treatment be accorded to persons placed by a
statue into different classes on the basis of
criteria wholly unrelated to the objective of
that statute. A classification 'must be
reasonable, not arbitrary, and must rest upon
some ground of difference having a fair and
substantial relation to the object of the
legislation, so that all persons similarly
circumstanced shall be treated alike.'" Reed v.
Reed (1971) 404 U.S. 71, 75-76, quoting
Royster Guano Co. v. Virginia (1920) 253 U.S.
412, 415. See also Brown v. Merlo (1973) 8
Cal.3d 855.
As an initial matter, "[t]he first
perquisite to a meritorious claim under an
equal protection analysis is a showing that
the state has imposed a classification which
affects two or more similarly situated groups
in an unequal manner." In re Eric J. (1979) 25
Cal.3d 522, 530 (Emphasis in original). See
also, Reed v. Reed, supra, 404 U.S. at 75-76
and Royster Guano Company v. Virginia,
supra, 253 U.S. at 415. This is an
insurmountable obstacle to Justice Cooper's
assertion that the differential effect of the

App.309
ineligibility provision on different justices of
the Court of Appeal is a violation of equal
protection. Section 17 does not impose a
classification which affects two or more
similarly situated groups of justices of the
Court of Appeal. As between justices of the
Court of Appeal, the ineligibility provision by
its terms imposes but one classification:
justices of the Court of Appeal. They are all
ineligible for public employment or public
office during the term to which they were
elected. There are not two or more classes of
justices imposed by Section 17. Accordingly,
there can be no violation of equal protection.
As between justices of the Court of
Appeal and superior court judges, section 17
does impose two classifications: justices of the
Court of Appeal and superior court judges.
Justice Cooper asserts as the differential
treatment of these two classifications that "[a]
trial judge could take a leave of absence to run
for public office (and could return to his
judicial office if unsuccessful), but an appellate
justice could not even resign from the bench to
run for office for potentially upwards of twelve
years following her resignation." Justice
Cooper's (Ret.) Memorandum of Points and
Authorities in Support of Her Motion For
Summary Judgment, p. 14; Justice Cooper's
(Ret.) Opposition, etc., p. 11. However, Justice
Cooper lacks standing to assert her inability

App.310
to seek political office in that she is a retired
justice of the Court of Appeal and a retired
judge of the superior court, like Justice
Cooper, is ineligible for public office during the
term to which she was elected. Section 17
authorizes superior court judges to "become"
eligible for election to public office only if they
have taken a leave of absence without pay
prior to filing a declaration of candidacy. ("A
judge of a trial court of record may, however,
become eligible for election to other public
office by taking a leave of absence without pay
prior to filing a declaration of candidacy.") A
superior court judge who has not first taken a
leave of absence without pay remains
ineligible for public office pursuant to Section
17 during the term to which the judge was
elected. Put another way, in that a retired
superior court judge is not capable of taking a
leave of absence without pay, a retired
superior court judge, like Justice Cooper, is
ineligible for public office during the term to
which the judge was elected. There is no
differential treatment of Justice Cooper as
compared with a similarly situated superior
court judge and Justice Cooper lacks standing
to challenge any differential treatment of
sitting justices and judges because she is not a
sitting justice.

App.311
For the reasons discussed above, the
Controller's motion for summary adjudication
of the second cause of action is GRANTED and
the motion for summary judgment of Justice
Cooper is DENIED.
Summary of Court's Order
For the reasons set forth above, the
motions for summary judgment of Justice
Cooper and of the Controller are DENIED.
The Controller's motion for summary
adjudication as to the first cause of action is
GRANTED in part and DENIED in part as
follows: the court finds that (1) Justice Cooper
is not entitled to a judicial declaration that
Section 17 requires that its bar against public
employment applies only to sitting judges or
justices and not to judges or justices who have
resigned or resigned from the bench, but the
court finds that (2) Justice Cooper is entitled
to a judicial declaration that a justice of the
Court of Appeal who has vacated her judicial
position may, consistent with Section 17,
accept a part-time or full-time teaching
position at a public institution during the
term to which she was elected. The
Controller's motion for summary adjudication
as to the second cause of action is GRANTED.
The Controller shall submit a proposed form
of judgment within 15 days.

App.312
DATED: October 20, 2010
s/Charles F. Palmer
Judge of the Superior Court

App.313
DECLARATION OF SERVICE BY U.S.
MAIL
Case Name: Candace Cooper v. Controller of
the State of California, et al.
No.: BC425491
I declare:
I am employed in the Office of the
Attorney General, which is the office of a
member of the California State Bar, at which
member's direction this service is made. I am
18 years of age or older and not a party to this
matter. I am familiar with the business
practice at the Office of the Attorney general
for collection and processing of
correspondence for mailing with the United
States Postal Service. In accordance with that
practice, correspondence
placed in the internal mail collection system
at the Office of the Attorney General is
deposited with the United States Postal
Service that same day in the ordinary course
of business.
On November 4, 2010, I served the
attached [PROPOSED] JUDGMENT by
placing a true copy thereof enclosed in a
sealed envelope with postage thereon fully
prepaid, in the internal mail collection system

App.314
at the Office of the Attorney General at 1300
I Street, Suite 125, P.O. Box 94425,
Sacramento, CA 94244-2550, addressed as
follows:
Elwood Lui Jones Day
555 South Flower Street, Fiftieth Floor Los
Angeles, CA 90071-2300 Telephone: (213) 4893939
E-Mail: elui@jonesday.com Attorney for Plaintiff
I declare under penalty of perjury under
the laws of the State of California the
foregoing in true and correct and that this
declaration was executed on November 4,
2010, at Sacramento, California.
Brooke C. Carothers s/Brooke C. Carothers
Declarant Signature
SA2009103156 1051281.doc

App.315
DECLARATION OF SERVICE BY U.S. MAIL
Case Name: Candace Cooper v. Controller of
the State of California, et al.
No.: BC425491
I declare:
I am employed in the Office of the Attorney
General, which is the office of a member of the
California State Bar, at which member's
direction this service is made. I am 18 years
of age or older and not a party to this matter.
I am familiar with the business practice at the
Office of the Attorney general for collection
and processing of correspondence for mailing
with the United States Postal Service. In
accordance with that practice, correspondence
placed in the internal mail collection system
at the Office of the Attorney General is
deposited with the United States Postal
Service that same day in the ordinary course
of business.
On December 10, 2010, I served the
attached NOTICE OF ENTRY OF
JUDGMENT by placing a true copy thereof
enclosed in a sealed envelope with postage
thereon fully prepaid, in the internal mail
collection system at the Office of the Attorney

App.316
General at 1300 I Street, Suite 125, P.O. Box
94425, Sacramento, CA 94244-2550,
addressed as follows:
Elwood Lui Jones Day
555 South Flower Street, Fiftieth Floor Los
Angeles, CA 90071-2300 Telephone: (213) 4893939
E-Mail: elui@jonesday.com Attorney for Plaintiff
I declare under penalty of perjury under
the laws of the State of California the
foregoing in true and correct and that this
declaration was executed on December 10,
2010, at Sacramento, California.
Brooke C. Carothers s/Brooke C. Carothers
Declarant Signature
SA2009103156 1051281.doc

App.317
APPENDIX L
[SEAL]
State of California
Commission on Judicial Performance
455 Golden Gate Avenue, Suite 14400
San Francisco, CA 94102-3660
(415) 557-1200
FAX (415) 557-1266
Web Site: http://cjp.ca.gov
May 23, 2011
PERSONAL AND CONFIDENTIAL
Hand Delivered
Attorney General Kamala Harris
Attorney General's Office
California Department of Justice
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102
Dear Attorney General Harris:
At its May 18, 2011 meeting, the Commission
on Judicial Performance by a vote of nine members
and one opposed resolved to request a legal opinion
from your office pursuant to Government Code
Section 12519 as to the two issues set out below
arising from the Legislature's enactment of Senate

App.318
Bill X 2 11 (SBX2 11) (enclosed). One commission
member was absent and did not vote.
SBX2 11 was enacted in response to Sturgeon
v. County of Los Angeles (2008) 167 Cal.App.4th 630;
review den., December 23, 2008 (Sturgeon I)
(enclosed). (See, e.g., Senate Bill Analysis, February
14, 2009, enclosed.) The commission took no part in
the legislative process. There were no public
hearings on SBX2 11. It was inserted into the Budget
Act of 2008 at the last minute on February 14, 2008,
and passed the same day. Sturgeon I had held that
supplemental compensation provided by Los Angeles
County to the superior court judges in that county, in
addition to the compensation already prescribed for
the judges by the Legislature, was not authorized by
law and was unconstitutional. The dispute was
subject to further litigation after the enactment of
SBX2 11, which authorized the compensation.
Sturgeon was recently resolved in favor of the
defendants, based on SBX2 11. Sturgeon v. County of
Los Angeles (2010) 191 Cal.App.4th 344; review den.,
March 16, 2011 (Sturgeon II) (copy enclosed). The
commission was not involved in the Sturgeon case.
Although the supplement compensation in Los
Angeles was authorized by the county, judges in
other counties have authorized supplemental
compensation for themselves from court funds
without any action by a legislative body.

App.319
Confidential letter to Attorney General
Kamala Harris
May 23, 2011
Page 2 of 9
Sturgeon II did not address the two issues raised in
this letter, which arise from the following tow provisions in
the bill:
•

Section 2 of SBX2 ll states in part that "Judges of a court
whose judges received supplemental judicial benefits
provided by the county or court, or both, as of July 1, 2008,
shall continue to receive supplemental benefits from the
county or court then paying the benefits on the same terms
and conditions as were in effect on that date."

•

Section 5 of SBX2 11 purports to retroactively immunize
all state court judges as to their authorizing or receiving
such compensation. It provides that, "[n]otwithstanding
any other law, no government entity, or officer or employee
of a governmental entity, shall incur any liability or be
subject to prosecution or disciplinary action because of
benefits provided to a judge under the official action of a
governmental entity prior to the effective date of the act on
the ground that those benefits were not authorized under
law."

App.320
Issues Presented
1.
Does the Legislature have the authority
to enact legislation that purports to preclude
the commission from disciplining California
superior court judges for authorizing
supplemental compensation to be paid to
themselves from public funds, and/or receiving
that supplemental compensation, on the ground
that such benefits were or are not authorized
by law?
The commission concludes that the
Legislature does not have this authority, and that
section 5 of SBX2 11 is invalid and unconstitutional
as a violation of the separation of powers principal.
Cal Const., art. III, § 3. Under article VI, section 18
of the Constitution, the commission and the
California Supreme Court have exclusive authority
over judicial discipline.
Analysis
The commission is the independent state
agency charged with investigating complaints of
judicial misconduct and judicial incapacity and for
disciplining judges. The commission's jurisdiction
includes all judges of California's superior courts and
the justices of the Court of
Confidential letter to Attorney General
Kamala Harris

App.321
May 23, 2011
Page 3 of 9
Appeal and Supreme Court. Cal. Const art. VI, § 18,
subd. (d).46 The Supreme Court may in its discretion
grant review of a disciplinary determination by the
Article VI, section 18 subd., (d) states in its entirety: “Except
as provided in subdivision (f), the Commission on Judicial
Performance may (1) retire a judge for disability that seriously
interferes with the performance of the judge's duties and is or is
likely to become permanent, or (2) censure a judge or former
judge or remove a judge for action occurring not more than 6
years prior to the commencement of the judge's current term or
of the former judge's last term that constitutes willful
misconduct in office, persistent failure or inability to perform
the judge's duties, habitual intemperance in the use of
intoxicants or drugs, or conduct prejudicial to the
administration of justice that brings the judicial office into
disrepute, or (3) publicly or privately admonish a judge or
former judge found to have engaged in an improper action or
dereliction of duty. The commission may also bar a former
judge who has been censured from receiving an assignment,
appointment, or reference of work from any California state
court. Upon petition by the judge or former judge, the Supreme
Court may, in its discretion, grant review of a determination by
the commission to retire, remove, censure, admonish, or
disqualify pursuant to subdivision (b) a judge or former judge.
When the Supreme Court reviews a determination of the
commission, it may make an independent review of the record.
If the Supreme Court has not acted within 120 days after
granting the petition, the decision of the commission shall be
final. The referenced exception in subdivision (f) does no limit
the commission’s jurisdiction. It states “A determination by the
Commission on Judicial Performance to admonish or censure a
judge or former judge of the Supreme Court or remove or retire
a judge of the Supreme Court shall be reviewed by a tribunal of
7 court of appeal judges selected by lot.”

46

App.322
commission. Ibid. "No court, except the Supreme
Court, shall have jurisdiction in a civil action or
other legal proceeding of any sort brought against
the commission by a judge." Cal. Const. Art. VI, § 18,
subd. (g). Further, "The Supreme Court shall make
rules for the conduct of judges, both on and off the
bench...referred to as the Code of Judicial Ethics."
Cal. Const. art. VI, § 18, subd. (m).
There is a conflict between the grant of
immunity in section 5of SBX2 11 and the
commission's constitutional authority to discipline
judges. Because the authority to determine and
administer discipline for misconduct is expressly and
exclusively in the commission under article VI
section 18, the Legislature cannot directly or
indirectly remove that authority, or authorize it to be
performed by any other authority. State Board of
Education v. Levit (1959) 52 Ca1.2d 441, 461-62;
Carmel Valley Fire Protection District v. State of
California (200l) 25 Cal.4th 287, 304. "Powers,
obligations, and rights bestowed or declared by the
Constitution may not be amended, modified, or
derogated by statute." Fair Political Practices Com.
v. State Personnel Bd. (1978) 77 Cal.App.3d 52 56,
disapproved on another ground in Pacific Legal
Foundation v. Brown (1981) 29 Cal.3d 168, 192.
There is nothing in the Constitution that
permits the Legislature to restrict the constitutional
scope of the commission's authority over judicial
discipline. Consistent with the separation of powers

App.323
principle of article III, section 3, where the judicial
branch is to share power with the Legislature, the
Constitution so states. See e.g., California Court
Reporters Assn. v. Judicial Council of California
(1995) 39 Cal.App.4th 15, 18 (rules of court
promulgated by the Judicial Council held invalid
under article VI section 6 of the Constitution, which
authorizes the Judicial Council to make such rules,
but only to the extent they are "not inconsistent with
statute"). There is no such provision in the
Constitution for the judicial branch to share power
with the Legislature for making rules of judicial
conduct, or for determining and administering
discipline.
Confidential letter to Attorney General
Kamala Harris
May 23, 2011
Page 4 of 9
This issue was raised by the commission in
response to past legislative efforts to circumscribe
the commission's jurisdiction, and was one of the
bases for Governor Pete Wilson's veto of legislation
in 1998. At that time, AB 1110 (Escutia) sought to
prohibit the commission from investigating or
imposing discipline on a judge "solely on the basis of
a judicial decision or an administrative act found to
be "incorrect legally" or on the basis of "[a) dissenting
opinion in an appellate case which does not adhere to
precedent set by a higher court." The Governor's veto
letter (enclosed) stated that, "Under the California

App.324
Constitution, the Legislature is not authorized to
restrict (or expand) the types of judicial conduct
which constitute a basis for discipline." The letter
further stated:'
Under the Constitution, it is the Supreme
Court that is to make rules for the conduct of judges,
and it is the Commission that may discipline a judge
for misconduct, subject to review by the California
Supreme Court. Where the judicial branch is to
share power with the Legislature in promulgating
rules, the Constitution has so stated, as in the case of
the Judicial Council's right to adopt rules for court
administration, practice and procedure. In that case,
the Constitution provides that these rules shall "not be
inconsistent with statute." See Cal. Const. Art. VI,
section 6. The Constitution does not provide a similar
sharing of power here.
The standard for assessing whether the
Legislature has overstepped its authority and
violated the separation of powers principle has been
summarized as follows: "The legislature may put
reasonable restrictions upon constitutional functions
of the courts provided they do not defeat or
materially impair the exercise of those functions."
Santa Clara County Counsel Attorneys Assoc. v.
Woodside (1994) 7 Cal.4th 525, 543 (citation
omitted). Even in instances where there is no express
and exclusive grant of authority in the Constitution,
the separation of powers doctrine prevents the
Legislature from usurping ''core" functions of another

App.325
branch of government, in contrast to actions properly
within the sphere of one branch of government that
have the "incidental" effect of duplicating a function
or procedure delegated to another branch. Younger v.
Superior Court (1978) 21 Cal.3d 102, 115-17; Hustedt
v. Workers' Comp. Appeals Bd. (1981) 30 Cal.3d 329,
338 ("[L]egislature may put reasonable restrictions
upon constitutional functions of the courts provided
they do not defeat or materially impair the exercise
of those functions"); Ops.Cal.Atty.Gen. 146 (2003)
("exercise of such overlapping functions must be
incidental and ancillary to the core powers of the
branch in question, rather than a usurpation of a
power delegated to another branch"). Determining
whether judges are subject to discipline under the
Code of Judicial Ethics is a core function of the
commission. Judicial discipline decisions can in no
way be characterized as "incidental" or "ancillary" to
the commission's functions as set out in article VI,
section 18.
The Supreme Court has not hesitated to strike
down laws that ·defeat or materially impair the
exercise of core functions of the judicial branch. The
issue has been addressed in the context of the
judicial branch's power to regulate the practice of
law, including attorney discipline,
Confidential letter to Attorney General
Kamala Harris
May 23, 2011
Page 5 of 9

App.326
which has been recognized as an inherent power of
the state courts. See, e.g., Hustedt, 30 Cal.3d at 336342 (Legislature overreached its authority when it
permitted the Workers' Compensation Appeals
Board to discipline an attorney, undermining the
Supreme Court's unlimited original jurisdiction over
disciplinary proceedings); Merco Constr. Engineers,
Inc. v. Municipal Court (1978) 21 Cal.3d 724, 727-33
(Legislature violated separation of powers principle
when it enacted legislation that encroached on
Supreme Court's authority over standards for
engaging in the practice of law).
On these bases, it appears that the
Legislature exceeded its authority in enacting
section 5 of SBX2 11, purporting to preclude the
commission and from disciplining judges who
authorize or receive supplemental compensation that
is not authorized by law.
In reaching our conclusion, we are mindful
that the California Constitution is a restriction on
the Legislature's powers, and that the Legislature
may exercise any and all legislative powers which
are not expressly, or by necessary implication, denied
to it by the Constitution. We are also mindful that
doubts about the Legislature's power to act must be
resolved in the Legislature's favor. Methodist Hosp.
of Sacramento v. Saylor (1971) 5.Cal.3d 685, 691
(citations omitted); Levit 52 Cal.2d at 452 ("[a]ll
presumptions and ntendments are in favor of

App.327
constitutionality;" and "[t]he general rule is that the
invalidity of a legislative act must be clear before it
can be declared unconstitutional'').
But, there appears to be cause to temper this
deference here. As the Supreme Court has stated,
this presumption in favor of the Legislature is
particularly appropriate when the Legislature has
enacted the statute with the relevant constitutional
prescriptions clearly in mind, and the statute
represents a "considered legislative judgment" as to
the appropriate reach of the constitutional provision.
Pacific Legal Foundation, 29 Cal.3d at 180 (citations
omitted). SBX2 11 reflects no such "considered
legislative judgment." There is nothing in the bill
analyses of SBX2 11 indicative of any consideration
of the commission's or the Supreme Court's
jurisdiction. As noted, there were no public hearings.
The bill was inserted into the Budget Act of 2008 at
the last minute on February 14, 2008, and passed
the same day.

App.328
2.
Does section 2 of SBX2 11 (a) simply
identify which judges are permitted as of the
effective date of SBX2 11 to continue receiving
supplemental compensation from the effective
date forward, on the terms and conditions in
effect on July 1, 2008 or (b) retroactively
authorize all or some portion of supplemental
compensation provided by counties to judges, or
to judges by the judges themselves, so long as it
was being provided as of July 1, 2008?
It appears that section 2 of SBX2 11 most
likely identifies which judges are permitted as of the
effective date of SBX2 11 to continue receiving
supplemental compensation from that date forward
on the terms and condition in effect on July 1, 2008,
and that it is not a retroactive authorization of past
supplemental compensation.
Confidential letter to Attorney General
Kamala Harris
May 23, 2011
Page 6 of 9
Analysis
Section 2 of SBX2 11, adding Section 68220(a)
the Government Code states:
Judges of a court whose judges received
supplemental judicial benefits provided by the
county or court, or both, as of July 1, 2008, shall
continue to receive supplemental benefits from the

App.329
county or court then paying the benefits on the same
terms and conditions as were in effect on that date.
Section 2 does not state from what date the
supplemental compensation "shall continue." Nor
does it state that supplemental compensation
received prior to the effective date of the statute is
authorized (except possibly supplemental
compensation received on or after July 1, 2008).
Section 2 may mean that the subset of state court
judges receiving supplemental compensation on July
1, 2008 are permitted, as of the effective date of
SBX2 11, to continue to receive the compensation on
the same terms and conditions in effect on July 1,
2008. In that case, there is still no legislative
enactment authorizing receipt of such compensation
before the effective date of SBX2 11, and assuming
the immunity provision in section 5 is invalid, judges
who authorized or received it may be subject to
discipline by the commission if their conduct is found
to constitute misconduct. ·
Alternatively, it might be contended that
because the Legislature's stated intent in section l(a)
of SBX2 11 was to "address" Sturgeon I, and the
central finding in Sturgeon I was that there was no
legislative enactment from 1997 until 2009
permitting the supplemental compensation at issue
in the case (paid from 1997 to date in at least some
cases), the Legislature must necessarily have
intended SBX2 11 to be the missing legislative

App.330
enactment authorizing the supplemental
compensation for this entire period.
Retroactive legislation is not impermissible,
within limits.47 Nevertheless, based on the following
principles, it appears that section 2 of SBX2 11 does
not constitute retroactive authorization of
supplemental compensation, but operates only
prospectively.
First, statutes are presumed to be prospective.
Confidential letter to Attorney General
Kamala Harris
May 23, 2011
Page 7 of 9

Where it is clear that the Legislature intended a statute to
have retroactive application, separation of powers principles do
not preclude the application of the legislature to both pending
and future cases through any such law cannot “readjudicate” or
otherwise “disregard” judgments already final. People v. Bunn
(2003) 27 Cal.4th 1, 17 (citations omitted)(new criminal statute
applicable because it was in effect when judicial review became
final); Evangelatos v. Superior Court (1988) 44 Cal.3d 1188,
1207 (citations omitted)(statute held not retroactive); Mandel v.
Myers (1981) 29 Cal.3d 531, 547 (rejecting legislative attempt,
as part of state budget process, to review the merits of an
attorney fee award previously entered and affirmed on appeal);
Hunt v. Superior Court (1999) 21 Cal.4th 984, 1008 (judgments
are not final for separation of powers purposes until both the
trial and appellate process is complete and the case no longer
pending in the courts).

47

App.331
The principle that statutes operate only
prospectively, while judicial decisions operate
retrospectively, is familiar to every law student.
[Citations.]. This court has often pointed out: "[T]he
first rule of construction is that legislation must be
considered as addressed to the future, not to the
past... The rule has been expressed in varying
degrees of strength but always of one import, that a
retrospective operation will not be given to a statute
which interferes with antecedent rights...unless such
be "the unequivocal and inflexible import of the
terms, and the manifest intention of the legislature."
Evangelatos, 44 Cal.3d at 1207, quoting
United States Security Industrial Bank (l982) 459
U.S. 70, 79-80; see also Aetna Cas. & Surety Co. v.
Ind. Acc. Com. (1947) 30 Cal.2d 388, 393 ("[i]t is an
established canon of interpretation that statutes are
not to be given a retrospective operation unless it is
clearly made to appear that such was the legislative
intent"). The lack of an express statement of
retroactivity in a statute has been held to mean that
the presumption of prospective application should
apply. Bolen v. Woo (1979) 96 Cal.App.3d 944, 958959 (Observing that if the Legislature had intended
the statute to be retroactive, "it could very easily
have inserted such language in the statute itself. It
chose not to do so."); Robins v. Pediatric Affiliates
Medical Group. Inc. (1979) 98 Cal.App.3d 907, 911912; see also Evangelatos, 44 Cal.3d at 1211-1212.·

App.332
Second, "In the absence of an express
retroactivity provision, a statute will not be applied
retroactively unless it is very clear from extrinsic
sources that the Legislature ... must have intended a
retroactive application." Evangelatos, 44 Cal.3d at
1209. The California Supreme Court has repeatedly
given retroactive application to statutes "even when
a statute did not contain an express provision
mandating retroactive application, where the
legislative history or the context of the enactment
provided a sufficiently clear indication that the
Legislature intended the statute to operate
retrospectively." Id. at 1210 (citations omitted).
Applying these principles here, SBX2 11
appears to have only prospective application.
First, there is no express statement of
retroactivity in SBX2 11. Section 2 of SBX2 11 does
not state that it is retroactive. Nor is there an
express statement of retroactivity in the findings and
declaration of purpose in section l(a). Section 1(a)
states only that the legislation was intended "to
address" Sturgeon. Consistent with Bolen, Robins
and Evangelatos, the absence of an express
statement of retroactivity should mean that the
presumption of prospective application applies. As in
Bolen, had the Legislature intended to retroactively
authorize judges to receive supplemental
compensation, it could have said so. For example,
section 2 might have stated, "This provision is
intended to be retroactive, and to authorize such

App.333
supplemental compensation as provided in this
section, beginning in 1997." But, it does not. Instead,
it states that judges "shall continue to receive" such
supplemental compensation as was in place on July
l, 2008. This phrase has a prospective meaning.
Confidential letter to Attorney General
Kamala Harris
May 23, 2011
Page 8 of 9
Nor is there an express statement of
retroactivity in any other section of SBX2 11.
Although sections l(b) and (c) of the findings and
declarations refer to events in the past tense (the
"benefits were considered by the Legislature in
enacting the Lockyer-Isenberg Trial Court Funding
Act of 1997," counties and courts "established" the
supplemental compensation, and judges "relied upon
the existence of the longstanding supplemental
benefits"), these statements appear to reflect only an
awareness of the history of the supplemental
compensation, and it seems unreasonable to construe
them as retroactive authorization. Similarly, while
section 4 acknowledges the existence of past
supplemental compensation by stating that neither
the Judicial Council nor the state are obliged to "pay
for benefits previously provided by the county, city
and county, or the court," this does not state that
such past supplemental compensation is now
retroactively authorized, it simply immunizes the
state from any claims for repayment. Nor does the

App.334
retroactive immunity provision in section 5 expressly
authorize the supplemental compensation
retroactively. To the contrary, the fact that the
Legislature felt it was necessary to immunize judges
from liability and discipline on the ground that such
supplemental compensation was not authorized by
law, as held by Sturgeon I, suggests that the
Legislature recognized that such benefits were not
authorized, thus requiring an immunity provision.
Second, we have located nothing in the
legislative history of SBX2 11 that meets the
standard in Evangelatos, 44 Cal.3d at 1209 (in the
absence of an express retroactivity provision it must
be ''very clear from extrinsic sources that the
Legislature ... must have intended a retroactive
application"). Regarding the legislative history, bill
analyses obtained from the Legislative Counsel's
Office (enclosed) echo the "continue to receive''
language of section 2 of the bill, and support a
prospective interpretation. The Assembly floor
analysis states that the bill makes statutory changes
"to address Sturgeon, and provides that "counties
and courts who, subsequent to the Lockyer-Isenberg
Trial Court Funding Act of 1997, established
supplemental benefits to retain qualified applicants
for judicial office and where [sic] paying such
benefits as of July 1, 2008 ... shall continue to provide
supplemental benefits to judges on the same terms
and conditions as were in effect on July 1, 2008."
(Italics added.) The digest section of the Senate floor
analysis similarly states that, "This bill now

App.335
responds to a recent state court of appeal decision by
authorizing counties and courts to continue providing
existing local benefits to trial court judges." (Italics
added.) The analysis section of that same document
states, "This bill addresses the Court's holding in
Sturgeon by expressly authorizing counties and
courts to continue providing existing local benefits to
trial court judges." (Italics added.)48
On the foregoing bases, we conclude that
section 2 of SBX2 11 is not a retroactive
authorization of past supplemental compensation.
Confidential letter to Attorney General
Kamala Harris
May 23, 2011
Page 9 of 9
The commission appreciates your attention to
this matter. To the extent that the Attorney
General's Office will entertain input from other
parties on this issue, we ask that the commission be
given an opportunity to respond to that input prior to
your final opinion.
The statement in the Senate Floor analysis that after the
Lockyer-Isenberg Trial Court Funding Act of 1997 was enacted,
“counties and courts were permitted to continue providing
supplemental benefits to trial court judges, as had been the
practice prior to 1997” appears questionable in view of
Sturgeon’s extensive analysis of whether such benefits were
“permitted”, and conclusion that there was no law “permitting”
it (until SBX2 11 was signed by the Governor on February 20,
2009).

48

App.336
Please do not hesitate to contact me if
you would like to discuss this further.
Very truly yours,
s/Victoria B. Henley
Director-Chief Counsel
VBH:al/1051Harris.doc
Enclosures

App.337
APPENDIX M
Court of Appeal, Second Appellate District, Division
Two - No. B230208
S200215
IN THE SUPREME COURT OF CALIFORNIA
En Banc
JUSTICE CANDACE COOPER (RET.),
Plaintiff and Appellant
v.
CONTROLLER OF THE STATE OF CALIFORNIA,
Defendant and Respondent

The petition for review is denied
SUPREME COURT
FILED
MAR 28 2012
Frederick K. Ohlrich
________________
Deputy
s/ CANTIL-SAKAUYE
_______________________
Chief Justice

App.338
APPENDIX N
SUPREME COURT
S220748
FILED
AUG 25 2014
Frank A. McGuire Clerk
_____
Deputy
G049148
Law Office of Nina Ringgold
9420 Reseda Blvd # 361
Northridge, CA 91324
(818) 773-2409 Telephone
(866) 340-4312 Facsimile
August 25, 2014
Justices of the California Supreme Court
California Supreme Court
350 McAllister Street
San Francisco, CA 94102-7303
Re: Request For Depublication Of Arthur
Gilbert v. John Chiang, As State Controller, Etc.
Pursuant California Rule Of Court, Rule 8.1125
By ASAP Copy And Print, Ali Tazhibi, David
Juarez, Nathalee Evans, Nazie Azam, Karim
Shabazz, Cornelius Turner, Justin RinggoldLockhart, Lisa Havel, Kijhana Burks, Qadeer
Azam, Nina Ringgold, Esq., And The Law

App.339
Offices Of Nina Ringgold
Dear Justices of the Supreme Court:
ASAP COPY and Print, Ali Tazhibi, David
Juarez, Nathalee Evans, Nazie Azam, Karim
Shabazz, Cornelius Turner, Justin RinggoldLockhart, Lisa Havel, Kijhana Burks, Qadeer Azam,
Nina Ringgold, Esq., and the Law Offices of Nina
Ringgold request that the published opinion
rendered in the Arthur Gilbert v. John Chiang, as
State Controller, etc, (2014) 227 Cal.App.4th 537
dated June 27, 2014 be depublished. See California
Rule of Court, Rule 8.1125. The decision became
final thirty days after filing on July 27, 2013. (Cal.
Rule of Court, Rule 8.264 (b)). This request is timely
delivered to the Supreme Court within 30 days after
the decision is final in the Court of Appeal. (Cal.
Rule of Court, Rule 8.1125 (a)(4)).
A. Statement of Interets
The persons or entities requesting
depublication are interested in one or all of the
following categories:
1. Court users; and/or
2. Register California Voters; and/or

App.340
3. Members of a protected case under the Civil
Rights Act of 1866 or the Civil Rights Act of 1964;
and/or
4. Members of the case, Law Offices of Nina
Ringgold and All Current Clients Thereof v. Jerry
Brown (United States District Court for the Eastern
District Case No. 2:12-cv-00717-JAM-JFM) (“Voting
Rights case”).
The decision of the Court of Appeal Fourth
Appellate District Division Three held that
California Constitution Article VI § 17 “does not
prohibit [Justice Arthur Gilbert] from commencing
other public office or public employment immediately
following his resignation or retirement from judicial
office, even if that resignation or retirement occurs
before the end of his current judicial term”. This
determination is in contradiction to longstanding law
in the State of California and is expressly contrary to
the plain language in the California Ballot Pamphlet
for the General Election on November 8, 1988
concerning the Legislative Constitutional
Amendment to California Constitution Art. VI § 17.
(Proposition 94). Moreover, the panel rendering the
decision had specific financial interests and should
not have been involved in the decision making
process. If there is an effort by members of the
judicial branch to modify the longstanding
interpretation and plain language of the constitution,
the matter should be determined by all voters of the
State of California. See Alex v. County of Los

App.341
Angeles, (1973) 35 Cal. App.3d 994, Abbott v.
McNutt, 218 Cal. 225 (Cal. 1933), Cal. Attorney
General Opn 83-607, 66 Cal. Attorney General 440.
Not only has an interested panel of decision makers
written an opinion in conflict with well-established
law, it is also in conflict with the information
provided to the electorate. Additionally, the panel
determines that the public must bear the expense of
Justice Gilbert’s appeal. Gilbert at 876.
B. Context
The Gilbert decision was decided while there is
a fundamental controversy between voters and court
users and member of the judiciary concerning
Section 5 of California Senate Bill X2 11 (“Section 5
of SBX2 11”). Section 5 of SBX2 11 states as follows:
Notwithstanding any other law, no
governmental entity, or officer or
employee of a governmental entity,
shall incur any liability or be subject to
prosecution or disciplinary action
because of benefits provided to a judge
under the official action of a
governmental entity prior to the
effective date of this act on the ground
that those benefits were not authorized
under law.
The California Commission on Judicial
Performance has twice issued opinions that the

App.342
uncodified immunity provision is unconstitutional.
The provision also conflicts with the Supremacy
Clause and federal law pertaining to racial equality.
It is designed to conceal the fact that in existing
proceedings, judges of the courts of record must
disclose current public employment and they must
obtain consent from litigants in the proceedings.
(Cal. Const. Art. VI §§ 17, 21).
California Government Code § 53200.3 stated
that “judges of the superior and municipal
courts…whose salaries are paid either in whole or in
part from the salary fund of the county are county
employees….” This provision was deemed
unconstitutional in Sturgeon v. County of Los
Angeles, (2008) 167 Cal.App4th 630 (“Sturgeon I”).
Sturgeon I did not deal directly with section 5 of
SBX2 11.
The County of Los Angeles pays for the
premium for the public bond of the judges of the
courts of record. Also, the same judges were
designated by statute to be county officials. (See Cal.
Govt. Code §§ 1505, 1651, 29320 (thr 9/23/12)).
The pending Voting Rights Case challenges
section 5 of SBX2 11 and is seeking to implement
disclosure and consent requirements mandated by
California Constitution Article VI § 17 and § 21. It is
seeking a special judicial election in the municipal
districts that existed before trial court unification (a
point where public employment and office of the

App.343
judges of the courts of record expanded). The
plaintiffs claim there are existing constitutional
resignations and vacancies of judicial office which
must be disclosed to court users and the California
voters. The constitutional provisions at issue state
as follows:
Article VI, Section 17
A judge of a court of record may not practice law and
during the term for which the judge was selected is
ineligible for public employment or public office other
than judicial employment or judicial office, except a
judge of a court of record may accept a part-time
teaching position that is outside the normal hours of
his or her judicial position and that does not
interfere with the regular performance of his or her
judicial duties while holding office. A judge of a trial
court of record may, however, become eligible for
election to other public office by taking a leave of
absence without pay prior to filing a declaration of
candidacy. Acceptance of the public office is a
resignation from the office of judge.
A judicial officer may not receive fines or fees for
personal use.
A judicial officer may not earn retirement service
credit from a public teaching position while holding
judicial office.

App.344
Article VI, Section 21
On stipulation of the parties litigant the court may
order a cause to be tried by a temporary judge who is
a member of the State Bar, sworn and empowered to
act until final determination of the cause.
There is serious doubt whether the appeal of
Justice Gilbert presented a justiciable controversy.
The justice never identified a specific job opportunity
at issue that he was intending to accept immediately.
He identified a friendly offer by the Governor for
possible work after retirement. There is no doubt
that the information provided to voters is in direct
conflict with Justice Gilbert’s position.
The ballot pamphlet stated the following:
“The Constitution prohibits judges of courts of record
from accepting public employment or public office
outside their judicial position during their term of
office. This prohibition has been interpreted to mean
that a judge cannot accept a teaching position at a
public school, but may accept one at a private School.
The prohibition applies during the time the
judge is actually in office and during the entire
term for which the judge was selected, even if
the judge has resigned part way through the
term.” (See Exhibit 1)

App.345
C. The Rule of Necessity Did Not
Authorize The Fourth District’s Resolution of
the Appeal
The decision begins its analysis by attempting
to explain why members the panel did not recuse
themselves in the appeal. The decision states that
the panel asked the California Supreme Court
Committee on Judicial Ethics Opinions “to advise us
if the rule of necessity authorizes us to decide this
case. The committee advises us ‘[u]nder the ‘rule of
necessity,’ a judge is not precluded from adjudicating
a cause because of a disqualifying financial interest
if there is no judge or court available to hear and
resolve the cause.” (Emphasis added). Gilbert at
869.
First, there is no evidence of a request by the
panel. CJEO Oral Advice Summary No. 2014-008
states that “[t]he question was asked by an appellate
justice assigned to author an opinion”. The author of
the decision is Justice William F. Rylaarsdam who
was formerly a judge of the Orange County Superior
Court. The Orange County Superior Court has a
similar compensation structure as the Los Angeles
Superior Court and therefore the justice is a
recipient of the same immunity promise of section 5
of SBX2 11.
Not every judge in the State of California has
the same conflicting interest as Judge Rylaarsdam
and the panel deciding the Gilbert case. CJEO Oral

App.346
Advice Summary No. 2014-008 expressly states that
the rule of necessity does not preclude a judge from
adjudicating a cause because of a disqualifying
financial interest “if there is no judge or court
available to hear and resolve the cause.”
The judicial branch reported to the Legislature
that as of July 1, 2008 that there were at least 151
judgeships which received no supplemental benefits.
(See Exhibit 2). Initially Justice Gilbert’s case was
transferred out of his home court, the Second
Appellate District. The case was not transferred to a
district, panel, or judges pro tempore who were not
impacted by the promise of immunity through
section 5 of SBX2 11. Even if theoretically a
discussion of California Constitution Art. VI § 17
would impact any judge, the reality is that only
certain judges are subject to a self-effectuating
constitutional resignation from judicial office.
Justice Arthur Gilbert was formerly a judge of
the Los Angeles Superior Court and clearly a person
intended to be covered by section 5 of SBX2 11.
Because there exist a segment of the judicial branch
which have more specific disqualifying interests and
are intended to benefit from the uncodified immunity
provision, those persons should have been excluded
from the decision making process. Moreover, the test
of whether the complaint presented a justiciable
controversy should have been strictly construed
requiring a showing of actual retirement, or
admission of judicial resignation by acceptance of

App.347
public employment or office, or a specific offer of
employment which the impacted person intends to
accept immediately.
Application of the rule of necessity was not
proper because (1) there were other justices which
did not have the same disqualifying interest49, (2)
there are pending cases in the federal court
addressing the issue, (3) this court had already
denied the petition for review of Justice Candace
Cooper (ret) after the Voting Rights case was filed on
March 21, 2012. (See denial of petition for review in
S200215 on 3/28/12), and (4) the seriousness of the
disqualifying interest of the panel goes well beyond
that identified by the Fourth District which failed to
take into consideration the existence and
detrimental impact of section 5 of SBX2 11.
D. It Is The Decision Which Leads To
Absurd Results Not The Controller’s Defense
Of The Longstanding Interpretation Of
California Constitution Article VI § 17
The plain language of California Constitution
Art. VI § 17 states that a judge may not accept public
office during the term for which the judge was
selected. The term of office is set forth in the
constitution. The fact that a judge resigns early does
i.e., There are justices and judges which receive no benefit
from the promised immunity under section 5 of SBX2 11 and
justices and judges which have never accepted public
employment or office).

49

App.348
not nullify the disqualification during the term of
office. Not only is the language unambiguous, the
rational for the provision makes practical and
common sense. It is intended to bar a judge from
jumping ship to join those who were appearing before
the judge (and possibly receiving favorable treatment
from the judge).
Alex v. County of Los Angeles supra
demonstrates that there could not realistically have
been a doubt as to the interpretation of California
Constitution Article VI § 17. This case stressed that
20 million citizens speaking through the initiative
process at the ballot box, approximately 40,000
attorneys through the State Bar, and 1,000 judges
speaking through the Judicial Council did not want
judges to be diverted from the impartial performance
of their work and that these desires were reflected in
California Constitution Article VI § 17 in order to
foster confidence in the courts. Alex at 1009. The
judge signed an affidavit acknowledging the risk of
forfeiture of judicial office. Gilbert v. Chiang
undermines public confidence. Moreover, section 5 of
SBX2 11 and Justice Gilbert’s pursuit of Assembly
Bill 2693 (Introduced by Assembly Member Bloom)
while the Gilbert’s case was pending undermines the
right of California citizens to have the benefit of the
constitutional amendment which they adopted.
IV.

CONCLUSION
It is respectfully requested that this court
depublish the case of Gilbert v. Chiang and that this

App.349
court strike the provision which provides that the
state is to pay for the expenses associated with the
appeal. Under the cloud of section 5 of SBX2 11 the
attempt to amend or modify the California
Constitution without participation of the electorate
by judges that have specific and unique disqualifying
interests beyond general retirement is void. See
Legislature v. Eu, 54 Cal.3d 492, 506-512 (Cal. 1991),
Amador Valley Joint Union High School v. State Bd.
Of Equalization, 22 Cal.3d 208 (Cal. 1978).
Date: August 24, 2014
Respectfully Submitted
By: s/ Nina R. Ringgold, Esq.
Nina Ringgold, Esq.
ASAP Copy And Print, Ali Tazhibi, David
Juarez, Nathalee Evans, Nazie Azam, Karim
Shabazz, Cornelius Turner, Justin RinggoldLockhart, Lisa Havel, Kijhana Burks, Qadeer
Azam, Nina Ringgold, Esq., And The Law
Offices Of Nina Ringgold

App.350
PROOF OF SERVICE
I hereby declare and state:
I am over the age of eighteen years, employed
in the City of Los Angeles, County of Los Angeles,
California, and not a party to the within action.
On August 24, 2014 I served the following:
REQUEST FOR DEPUBLICATION OF ARTHUR
GILBERT V. JOHN CHIANG, AS STATE
CONTROLLER, ETC. PURSUANT
CALIFORNIA RULE OF COURT, RULE 8.1125
BY ASAP COPY AND PRINT, ALI TAZHIBI,
DAVID JUAREZ, NATHALEE EVANS, NAZIE
AZAM, KARIM SHABAZZ, CORNELIUS
TURNER, JUSTIN RINGGOLD-LOCKHART,
LISA HAVEL, KIJHANA BURKS, QADEER
AZAM, NINA RINGGOLD, ESQ., AND THE LAW
OFFICES OF NINA RINGGOLD
by electronic service and personal delivery to
the following:
California Supreme Court
350 McAllister Street
San Francisco, CA 94102-7303
by deposit of a true and correct copy in the
United States Mail to the following:

App.351
Hon. Richard Fruin
c/o Clerk of Court
Los Angeles Superior Court
Department 15
111 No. Hill Street
LA, CA 90012
Anthony R. Hakl
Deputy Attorney General
Government Law Section
Office of the Attorney General
Department of Justice
1300 I Street, Suite 125
P.O. Box 9442255
Sacramento, CA 94244-2550
Legal Office
State Controller’s Office
300 Capitol Mall, Suite 1850
Sacramento, CA 95814
Elwood Lui
Jones Day
555 S. Flower Street, Fifth Floor
Los Angeles, CA 90071-2300
I declare under penalty of perjury under the
laws of the State of California that the foregoing is
true and correct. Executed at Los Angeles, California
on August 24, 2014.

App.352
APPENDIX O

CALIFORNIA SUPREME COURT COMMITTEE
ON JUDICIAL ETHICS OPINIONS
350 McAllister Street, Room 1144A
San Francisco, CA 94102
(855) 854-5366
www.JudicialEthicsOpinions.ca.gov
CJEO Formal Opinion 2017-011
[Issued May 2, 2017]

JUDICIAL SERVICE ON A NONPROFIT CHARTER
SCHOOL BOARD

App.353

Question Presented

I.

The Committee on Judicial Ethics Opinions
has been asked to provide an opinion on the following
question:
“May a judicial officer serve on the board of a charter
school or a nonprofit organization operating one or
more charter schools? The charter school receives
public funds but is not likely to be involved in
litigation within the jurisdiction of the judge’s court.
It does not have an open enrollment policy and board
membership is uncompensated and unelected.”
Summary of Conclusions

II.

Judges are encouraged to participate in
extrajudicial activities, so long as these activities
adhere to the restrictions within the California Code
of Judicial Ethics.50 One of these restrictions is that
judges are prohibited from receiving appointment to
a governmental committee or commission or other
governmental position that is concerned with issues
of fact or policy on matters other than the
All further references to canons and to Advisory Committee
commentary are to the California Code of Judicial Ethics unless
otherwise indicated,

50

App.354
improvement of the law, the legal system, or the
administration of justice. (Canon 4C(2).) However,
canon 4 permits a judge to serve as an officer,
director, trustee, or nonlegal advisor of an
educational, religious, charitable, service, or civic
organization not conducted for profit, so long as such
service does not violate any other provisions within
the canons. (Canon 4C(3)(b).)
Charter schools are similar to both public and
private schools. Like private schools, charter schools
are commonly operated by nonprofit organizations.
They are relatively autonomous and, for the most
part, are given freedom to operate outside of most of
the regulations governing traditional public schools.
On the other hand, charter schools are statutorily
characterized as a part of California’s single,
statewide public school system and receive public
funds. Adding to the uncertainty, California courts
have held that charter schools are public entities for
some purposes (for example, for receiving public
monies) but are private entities for other purposes
(such as for purposes of the Government Claims Act),

App.355
and that charter school officials are equivalent to
officers of public schools.
In analyzing whether service on the board of a
charter school is ethically permissible, the committee
evaluated relevant case law and considered whether
such service is a governmental position or public
office and therefore prohibited by canon 4C(2) or
whether it constitutes service on the board of an
educational nonprofit organization that is permitted
by canon 4C(3)(b). The committee also examined
article VI, section 17 of the California Constitution,
which provides that a judge is “ineligible for public
employment or public office” and that “[a]cceptance of
[a] public office is a resignation from the office of
judge.”
Because the law is unsettled on the question of
whether a charter school board member holds a
“governmental position” as that term is used in the
canon, or a “public office” as that term is used in the
Constitution, and because the Constitution
absolutely proscribes a judicial officer from holding
public office, a judge runs the risk of automatic

App.356
resignation from judicial office if he or she serves on a
charter school board. The committee therefore
advises that a judge not serve on a charter school
board. 51 Based on the committee’s recommendation,
the committee does not address whether service on a
This conclusion does not necessarily prohibit retired judges in
the assigned judges program (AJP) from serving as members of
a charter school board. Canon 6B provides that a retired judge
who “has received an acknowledgement of participation in the
Assigned Judges Program shall comply with all provisions of
this code, except for” canon 4C(2) and canon 4E. Moreover,
article VI, section 17 of the California Constitution “applies only
to sitting judges and not to persons who have resigned or retired
from a judicial office” and, therefore, retired judges are not
prohibited from holding other public office or engaging in other
public employment. (Gilbert v. Chiang (2014) 227 Cal.App.4th
537, 540-41.) The Chief Justice, however, has sole discretion to
determine the eligibility of retired judges for service in the AJP.
(Cal. Const., art. VI, § 6, subd. (e) [the Chief Justice has
authority to assign consenting retired judges to any court];
Judicial Council of Cal., AJP Handbook: Standards and
Guidelines for Judicial Assignments (Apr. 2016) p. 1 (AJP
Handbook) [adopted by the Chief Justice in the exercise of
constitutional authority to make assignments through the
AJP].) The current AJP standards and guidelines do not
expressly preclude appointment to a nonelected governmental
position, but they do prohibit a judge from seeking or accepting
elected or political office. (AJP Handbook, at pp. 5-7.) The AJP
standards and guidelines also provide that the Chief Justice’s
discretion regarding assignment-based decisions is not limited
by the AJP Standards and Guidelines, nor do the AJP standards
and guidelines necessarily encompass all of the factors upon
which the Chief Justice may base such decisions. (AJP
Handbook, at p. 1.)

51

App.357
charter school board may also cast doubt on the
judge’s capacity to act impartially, interfere with the
proper performance of judicial duties, or lead to
frequent disqualification as prohibited by canon 4A,
or whether such service may also create an
appearance of impropriety prohibited by canon 2.

III.
A.

Authorities
Canons
Canon 2:
“A judge shall avoid impropriety
and the appearance of impropriety in all of the
judge’s activities.”
Canon 4A: “A judge shall conduct all of the
judge’s extrajudicial activities so that they do not [¶]
(1) cast reasonable doubt on the judge’s capacity to
act impartially, [¶] (2) demean the judicial office, [¶]
(3) interfere with the proper performance of judicial
duties, or [¶] (4) lead to frequent disqualification of
the judge.”
Canon 4C(2): “A judge shall not accept
appointment to a governmental committee or
commission or other governmental position that is
concerned with issues of fact or policy on matters
other than the improvement of the law, the legal
system, or the administration of justice. . . .”

App.358
Advisory Committee commentary
following canon 4C(2): “The appropriateness of
accepting extrajudicial assignments must be assessed
in light of the demands on judicial resources and the
need to protect the courts from involvement in
extrajudicial matters that may prove to be
controversial. Judges shall not accept governmental
appointments that are likely to interfere with the
effectiveness and independence of the judiciary, or
that constitute a public office within the meaning of
article VI, section 17 of the California Constitution.
“Canon 4C(2) does not govern a judge’s service
in a nongovernmental position. See Canon 4C(3)
permitting service by a judge with organizations
devoted to the improvement of the law, the legal
system, or the administration of justice and with
educational, religious, charitable, service, or civic
organizations not conducted for profit. For example,
service on the board of a public educational
institution, other than a law school, would be
prohibited under Canon 4C(2), but service on the
board of a public law school or any private
educational institution would generally be permitted
under Canon 4C(3).”
Canon 4C(3)(a): “[A] judge may serve as an
officer, director, trustee, or nonlegal advisor of an
organization or governmental agency devoted to the
improvement of the law, the legal system, or the
administration of justice provided that such position
does not constitute a public office within the meaning

App.359
of article VI, section 17 of the California Constitution
. . . .”
Canon 4C(3)(b): “[A] judge may serve as an
officer, director, trustee, or nonlegal advisor of an
educational, religious, charitable, service, or civic
organization not conducted for profit . . . .”
Advisory Committee commentary
following canon 4C(3): “Canon 4C(3) does not
apply to a judge's service in a governmental position
unconnected with the improvement of the law, the
legal system, or the administration of justice. See
Canon 4C(2).”
Canon 4C(3)(c): “[A] judge shall not serve as
an officer, director, trustee, or nonlegal advisor if it is
likely that the organization [¶] (i) will be engaged in
judicial proceedings that would ordinarily come
before the judge, or [¶] (ii) will be engaged frequently
in adversary proceedings in the court of which the
judge in a member or in any court subject to the
appellate jurisdiction of the court of which the judge
is a member.”

B.

Other Authorities
California Constitution, article VI, sections 6 and 17
California Charter Schools Act (Ed. Code, § 47600 et
seq.) Abbott v. McNutt (1933) 218 Cal. 225

App.360
California School Bds. Assn. v. State Bd. of Education
(2010) 186 Cal.App.4th 1298
Ghafur v. Bernstein (2005) 131 Cal.App.4th 1230
Gilbert v. Chiang (2014) 227 Cal.App.4th 537, 550
Knapp v. Palisades Charter High School (2007) 146
Cal.App.4th 708
Lungren v. Davis (1991) 234 Cal.App.3d 806
Wells v. One2One Learning Foundation (2006) 39
Cal.4th 1164
Wilson v. State Board of Education (1999) 75
Cal.App.4th 1125, 1139
Caviness v. Horizon Cmty. Learning Ctr., Inc. (9th
Cir. 2010) 590 F.3d 806
Doe ex rel. Kristen D. v. Willits Unified School Dist.
(N.D.Cal., Mar. 8, 2010, No. C 09-03655 JSW) 2010
WL 890158
Sufi v. Leadership High School (N.D.Cal. 2013)
2013 U.S.Dist.Lexis 92432, [2013 WL 3339441]
Judicial Council of Cal., AJP Handbook: Standards
and Guidelines for Judicial Assignments (Apr. 2016)
67 Ops.Cal.Atty.Gen. 385 (1984)

App.361
Rothman, California Judicial Conduct Handbook (3d
ed. 2007) sections 10.01, 10.02, 10.31, 10.36, 10.38
California Judges Association, Formal Opinion Nos.
31, 46, 61 California Judges Association, Judicial
Ethics Update (1989)
Arizona Supreme Court Judicial Ethics Advisory
Committee, Advisory Opinion 96-05
Colorado Judicial Ethics Advisory Board, Advisory
Opinion 2007-02 Connecticut Committee on Judicial
Ethics, Informal Opinion 2015-22 Delaware Judicial
Ethics Advisory Committee, Advisory Opinion 2001-2
Florida Judicial Ethics Advisory Committee, Judicial
Ethics Opinion 2016-01 New York Advisory
Committee on Judicial Ethics, Advisory Opinion 1144
South Carolina Advisory Committee on Standards of
Judicial Conduct, Advisory Opinion 16-2002

App.362

IV.
A.

Discussion
Activities

Restrictions on Extrajudicial

The California Code of Judicial Ethics governs
the ethical conduct of judges both on and off the
bench. Off the bench, community activity by a judge
is encouraged, subject to limitations that minimize
the risk of conflict with a judge’s judicial obligations.
(Rothman, Cal. Judicial Conduct Handbook (3d ed.
2007) § 10.02, p. 525 (Rothman) [“Although
community activity is encouraged and considered a
judicial duty, there are limitations that judges must
know.”].) While all extrajudicial activities must
comply with the entirety of the code, canon 4 provides
specific guidance to judges regarding extrajudicial
conduct. In general, canon 4 requires a judge to
conduct all of the judge’s extrajudicial activities in a
manner that does not cast reasonable doubt on the
judge’s capacity to act impartially, demean the
judicial office, interfere with the proper performance

App.363
of judicial duties, or lead to frequent disqualification
of the judge. (Canon 4A.)
Canon 4C(2) explicitly prohibits a judge from
accepting “appointment to a governmental committee
or commission or other governmental position that is
concerned with issues of fact or policy on matters
other than the improvement of the law, the legal
system, or the administration of justice.” Stating the
inverse, canon 4C(3)(a) permits service within an
“organization or governmental agency devoted to the
improvement of the law, the legal system, or the
administration of justice provided that such position
does not constitute a public office within the
meaning of article VI, section 17 of the California
Constitution.” Public educational institutions are
governmental bodies. (See Wells v. One2One
Learning Foundation (2006) 39 Cal.4th 1164, 1190
(Wells) [a public school district cannot be sued under
the California False Claims Act as the statute does
not include governmental entities]; Advisory Com.
com. foll. canon 4C(2); Cal. Judges Assoc., Judicial
Ethics Update (1989) pp. 2-3 [a judge may not serve

App.364
on a school board]; Rothman, supra, § 10.31, pp. 54142 [“Membership on a public school board of
education or a committee of same does not relate to
the law, legal system, or administration of justice
and, therefore, would be improper.”].)
Canon 4C(3)(b), however, allows for a judge to
“serve as an officer, director, trustee, or nonlegal
advisor of an educational, religious, charitable,
service, or civic organization not conducted for
profit,” so long as such service complies with the
remainder of the code. Specifically, a judge is further
restricted from serving “as an officer, director, or
nonlegal advisor if it is likely that the organization
[¶] (i) will be engaged in judicial proceedings that
would ordinarily come before the judge, or [¶] (ii) will
be engaged frequently in adversary proceedings in
the court of which the judge is a member or in any
court subject to the appellate jurisdiction of the court
of which the judge is a member.” (Canon 4C(3)(c).)
Even if an extrajudicial assignment is permissible,
“[t]he appropriateness of accepting extrajudicial
assignments must be assessed in light of the

App.365
demands on judicial resources and the need to protect
the courts from involvement in extrajudicial matters
that may prove to be controversial.” (Advisory Com.
com. foll. canon 4C(2).)
To summarize, canon 4C permits a judge to be
a member of the board of a private educational
institution and prohibits service on a public school
board. Assuming compliance with the remainder of
the code, a judge’s ability to serve on a charter school
board depends on whether such service constitutes a
governmental committee or commission or other
governmental position, i.e., whether canon 4C(2) or
canon 4C(3)(b) applies. In deciding whether service
on a charter school board is a governmental position,
a judge must look to California’s distinct legal
framework regarding charter schools, examine the
differences between traditional public schools and
charter schools, and evaluate the instances in which
charter schools are determined to be more akin to
private or public institutions.

App.366
Charter Schools

B.
a.

Background
Through enactment of the Charter Schools Act
of 1992 (Charter Schools Act) (Ed. Code, § 47600 et
seq.), the Legislature intended “to improve learning;
create learning opportunities, especially for those
who are academically low-achieving; encourage
innovative teaching methods; create new
opportunities for teachers; provide parents and
students expanded choices in the types of educational
opportunities available; hold the charter schools
accountable for meeting quantifiable outcomes; and
provide ‘vigorous competition within the public
school system to stimulate continual improvements in
all public schools.’” (California School Bds. Assn. v.
State Bd. of Education (2010) 186 Cal.App.4th 1298,
1306, citing Ed. Code, § 47601.) In furtherance of
these goals, charter schools are, for the most part,
permitted to be autonomous. They operate
independently from the existing school district

App.367
structure and are “given substantial freedom to
achieve academic results free of interference by the
public educational bureaucracy. The sole
relationship between the charter school operators
and the chartering districts in this case is through
the charters governing the schools’ operation.” (Wells,
supra, 39 Cal.4th at p. 1201.) A charter school may
operate as a nonprofit benefit corporation, and such
nonprofit’s board of directors makes decisions that
are specific only to the nonprofit organization and its
charter school or schools. (Ed. Code, § 47604, subd.
(a).)
Despite their independence, however, charter
schools are subject to some of the same restrictions
imposed on their traditional public school
counterparts as well as oversight by the chartering
authority. The school district that grants a charter is
entitled to one representative on the board of
directors of the charter school. (Ed. Code, § 47604,
subd. (b).) They are also subject to, among other
traditional public school requirements, a minimum
number of school days and instructional minutes (id.,

App.368
§ 47612, subd. (d)(3)- (4)), teacher credential
requirements equivalent to those of other public
schools (id., § 47605, subd. (l)), free tuition, and a
prohibition on discrimination against students who
wish to attend the school (id., § 47605, subd. (d)(1)).
Absent these and a few other requirements, however,
charter schools and their operators are “exempt from
the laws governing school districts.” (Id., § 47610;
see Wells, supra, 39 Cal.4th at p. 1201.)
Charter Schools Are Public Schools

b.

and Charter School Officials Are Officers of Public
Schools
Perhaps due to the hybrid structure of charter
schools, which “in some respects blur[s] the
distinction between public and private schools”
(Ghafur v. Bernstein (2005) 131 Cal.App.4th 1230,
1239 (Ghafur)), it is unresolved whether a charter
school is a public or private entity for all purposes.
To allow for public funding, the Legislature has
declared that charter schools are part of the public
school system pursuant to article IX of the California

App.369
Constitution. (Ed. Code, § 47615.) In Wilson v. State
Board of Education, (1999) 75 Cal.App.4th 1125, the
First District Court of Appeal examined the
constitutionality of the Charter Schools Act and
found that charter schools are within the mandatory
state system of common schools and permissibly
funded by public money. (Id. at pp. 1137-1141.) To
establish that charter schools are constitutionally
permissible, the court determined that charter
schools are public schools, charter schools are under
the exclusive control of the officers of public schools,
and “charter school officials are officers of public
schools to the same extent as members of other
boards of education of public school districts.” (Id. at
pp. 1139-1141.) Moreover, each charter school is
deemed to be its own school district for purposes of
statutory and constitutional funding allocations. (Id.
at p. 1141; Ed. Code, § 47612, subd. (c).)
Applying the same logic used to find that
charter school officials are akin to traditional public
school officials, the First District Court of Appeal has
determined that a former charter school

App.370
superintendent was a public official for defamation
purposes. The court first concluded that a
traditional public school superintendent, though
unelected, is a public official because the head of a
school district has “substantial responsibilities in the
operation of the [school] system” and the public has “a
substantial interest in the qualifications and
performance of the person appointed as its
superintendent.” (Ghafur, supra, 131 Cal.App.4th at
p. 1238, citation omitted.)
Examining whether the same reasoning
applied to a charter school superintendent, the court
concluded that to differentiate the public official
status of a public school superintendent from that of
a charter school superintendent would “overlook ‘the
intent of the Legislature that charter schools are
and should become an integral part of the California
educational system’ (Ed. Code, § 47605, subd. (b)).”
(Ghafur, supra, 131 Cal.App.4th at p. 1240.) Charter
schools are public schools, and the positions of
charter school superintendent and charter school
board member are of equal public concern and

App.371
importance as those of their traditional public school
counterparts. Charter school superintendents retain
“substantial responsibility for or control over the
conduct of governmental affairs.” (Ibid., quoting
Rosenblatt v. Baer (1966) 383 U.S. 75, 85.) Therefore,
at least for defamation purposes, the Ghafur court
held that charter school board members and
superintendents are equivalent to traditional public
school board members and superintendents. Charter
Schools Are Both Public and Private Entities
Charter schools are not consistently treated as
public or private entities for liability or immunity
purposes. In some instances, charter schools have
been determined to be arms of the state to establish
immunity. (Doe ex rel. Kristen D. v. Willits Unified
School Dist. (N.D.Cal., Mar. 8, 2010, No. C 09-03655
JSW) 2010 WL 890158 [charter schools are arms of
the state for 11th Amend. immunity purposes].) In
other instances, however, charter schools have been
distinguished from public schools in determining
liability.

App.372
In Wells, the Supreme Court held that,
although “charter schools are deemed part of the
system of public schools for purposes of academics
and state funding eligibility, and are subject to some
oversight by public school officials [citation], the
charter schools here are operated, not by the public
school system, but by distinct outside entities.”
(Wells, supra, 39 Cal.4th. at pp. 1200-1201.)
Therefore, based on their private operation, the court
determined that charter schools were not considered
local public entities for purposes of the Government
Claims Act. (Id. at p. 1214; see also Knapp v.
Palisades Charter High School (2007) 146
Cal.App.4th 708, 717 [following Wells and concluding
that the plaintiff was not required to present written
claims to the charter school under the Government
Claims Act before filing sexual harassment and tort
claims].) The court further concluded that although
traditional public school districts are not persons
subject to suit under the California False Claims Act
and the unfair competition law, charter schools and
their operators are not public or governmental

App.373
entities and not exempt from these laws “merely
because such schools are deemed part of the public
schools system.” (Wells, supra, 39 Cal.4th at p. 1164;
see id. at pp. 1179, 1202, 1204; see also Sufi v.
Leadership High School (N.D.Cal., July 1, 2013, No.
C-13-01598(EDL)) 2013 WL 3339441, at *8 [2013
U.S.Dist.Lexis 92432] [a charter school is not a state
actor for purposes of 42 U.S.C. § 1983] (Sufi);
Caviness v. Horizon Community Learning Center,
Inc. (9th Cir. 2010) 590 F.3d 806, 812-814 (Caviness)
[an Ariz. charter school is acting as a private actor in
connection with employment decisions and not a
state actor for purposes of 42 U.S.C. § 1983].) As
evidenced by the case law, a charter school can be
considered a public or private entity depending upon
the issue. (Caviness, supra, 590 F.3d at pp. 812-813
[“an entity may be a State actor for some purposes
but not for others”].) Nothing affirmatively resolves
whether service on a nonprofit charter school board is
a governmental position for the purpose of judicial
ethics. However, the decisions of a charter school
board and a traditional public school board have

App.374
substantially similar impacts, affecting the operation
of the local school system and playing significant
roles in local communities. (See Ghafur, supra, 131
Cal.App.4th at pp. 1238-1239.) The committee
advises that based on the case law and the
substantially similar impact that decisions of either a
charter school board or a traditional school board
have on a community, service on a local charter
school board would likely be considered a
governmental position.

c.

Other State Advisory Opinions
on Charter School Board Service
Judicial ethics advisory bodies in other
jurisdictions are also divided on whether service on a
charter school board constitutes a governmental
position prohibited by the canons, supporting the
committee’s recommendation not to accept a charter
school board position. Some states with similar
canons, constitutional prohibitions on holding dual
offices, and charter school laws as in California
advise that a judge may not serve on the board of a
charter school. The New York Advisory Committee

App.375
on Judicial Ethics advises that a judge may not serve
on the board of a charter school because, like public
schools, a charter school may “generate quasipolitical and highly controversial issues that could
interfere with a judge’s judicial duties and
compromise his/her appearance of impartiality.” 523
(N.Y. Jud. Advisory Com. Jud. Ethics, Op. 11-44.)
The New York committee found “no reason to
distinguish between service on a public school board
and a public charter school board.” (Ibid.) Similarly,
a Florida Judicial Ethics Advisory Committee
opinion advises simply that because in Florida,
charter schools are part of the state’s program on
In New York, charter schools are also deemed public schools
(N.Y. Educ. Law § 2853, subd. (1)(c)-(d)), and judicial officers
are prohibited from simultaneously holding any other public
office, absent limited exceptions (N.Y. Const., art. VI, § 20).
Like the California canon, New York’s canon 4 prohibits a
judge from accepting appointment to a governmental
committee, commission, or other governmental position that is
not concerned with the improvement of the law, the legal
system, or the administration of justice, but permits service as
an officer, director, trustee, or nonlegal advisory of an
educational organization not conducted for profit. (N.Y. State
Rules of the Unified Court System, Rules of the Chief Admin.
Judge, § 100.4(C)(2)(a), 100.4(C)(3).)

52

App.376
public education and all charter schools in the state
are public schools, such service is prohibited. (Fla.
Jud. Ethics Advisory Com., Opn. 2016-01.)
Other states have advised that service on a
charter school board is permitted under the state’s
canons. The Arizona Supreme Court Judicial Ethics
Advisory Committee, also with substantially similar
canons, constitutional prohibitions on holding dual
offices, and charter school laws, has determined that
service on a charter school board is not a
governmental position and is therefore permitted,
subject to the other provisions within the canons.
(See Ariz. Const., art. VI, § 28; Ariz. Supreme Ct.
Rules, Judicial Ethics, rules 3.4, 3.7(A)(6); Sufi,
supra, 2013U.S.Dist.Lexis 92432 [2013 WL 3339441]
[comparing Ariz. and Cal. charter schools and finding
that the two states have substantially similar charter
school laws].) The Arizona committee has
determined that, based on the purpose of the canon
and the differences between charter schools and
public schools and service on a local school board and
a charter school board, “[m]embership on the board of

App.377
directors of a non-profit corporation that operates a
charter school is not a governmental position.” (Ariz.
Jud. Ethics Advisory com., Op. 96-5, p. 1.) Other
states have reached similar conclusions. (See Conn.
Com. on Jud. Ethics, Opn. 2015-22 [judicial officer
may serve on the board of a nonprofit that consists of
four public charter schools so long as the judge meets
nine conditions within the canons]; Del. Jud. Ethics
Advisory Com., Opn. 2001-2 [judge may serve as a
board member for a military academy operated as a
charter school after assuming that although publicly
funded, the charter school would not be considered a
governmental committee or commission]; Colo. Jud.
Ethics Advisory Bd., Op. 2007-02 [board of directors
of a nonprofit public charter school is not a
governmental organization and service on a charter
school board in a different county and different
judicial district was not prohibited]; S.C. Advisory
Com. on Standards Jud. Conduct, Opn. 16-2002
[judge may accept appointment to serve on a charter
school board in a county not served by the judge].)
Significantly, however, none of these opinions

App.378
address or resolve the concerns regarding dual
offices, such as the prohibition within article VI,
section 17 of the California Constitution and the
potential for automatic resignation from judicial
office if service on a charter school board is deemed a
public office.

C.

Prohibition on Holding Dual Offices
In addition to the restrictions within the code,
service in a governmental position may also be
prohibited by the California Constitution. Article VI,
section 17, provides that a judge “is ineligible for
public employment or public office other than judicial
employment or judicial office.” (Cal. Const., art. VI, §
17.) Most significantly, the acceptance of a public
office “is a resignation from the office of judge.”
(Ibid.) Therefore, “[a]fter taking judicial office, a
judge must be cautious in undertaking or accepting
appointment to any local, county or state government
position, board, agency or commission without first
making sure that the position is not a ‘public
employment or public office other than judicial

App.379
employment or judicial office.’” (Rothman, supra, §
10.01, pp. 524-525.)
Article VI, section 17 is “intended to exclude
judicial officers from such activities as may tend to
militate against the free, disinterested and impartial
exercise of their judicial functions.” (Abbott v.
McNutt (1933) 218 Cal. 225, 229 [judges are
prohibited from serving on a qualification board
formed to submit a list of qualified candidates to the
board of supervisors for a county manager position];
see also 67 Ops.Cal.Atty.Gen. 385 (1984).)
Specifically, it is intended “conserve the time of the
judges for the performance of their work, and to save
them from the entanglements, at times the partisan
suspicions, so often the result of other and conflicting
duties.” (Abbott, supra, 218 Cal. At p. 229, quoting In
re Richardson (1928) 247 N.Y. 401, 420.) The
prohibition creates a distinct separation of the
judiciary from the rest of the government, protecting
the independence and impartiality of the judicial
branch. (Gilbert v. Chiang, supra, 227 Cal.App.4th
537, 550; Lungren v. Davis (1991) 234 Cal.App.3d

App.380
806, 819.) These goals are closely aligned with the
limitations on extrajudicial activities within the code.
Like the code, article VI, section 17 fails to
define the term public employment or public office. It
is, however, widely accepted that public school board
members are public officials. (Cal. Const., art. VI, §
17; Ghafur, supra, 131 Cal.App.4th at p. 1238;
Rothman, supra, § 10.01, p. 524.) It is less certain
whether service on a charter school board is “public
employment or public office” within article VI, section
17 of the California Constitution. (Rothman, supra, §
10.31, pp. 541-42 [“Memberships on boards of, or
leadership positions in connection with, public
educational institutions are governmental activities
not related to the law, legal system, and
administration of justice, and may amount to public
employment or holding public office”].) If so, a judge
is constitutionally ineligible for a charter school
board position unless he or she resigns from judicial
office. To accept a public office would result in
automatic resignation from judicial office.

App.381
Conclusions

V.

Judges are prohibited from serving in a
governmental position that is not concerned with the
improvement of the law, the legal system, or the
administration of justice. (Canon 4C(2).) A judge
may serve as an officer, director, trustee, or nonlegal
advisor of an educational organization not conducted
for profit, so long as such service does not violate any
other provisions within the canons. (Canon 4C(3)(b).)
The committee believes that charter schools blur the
distinction between governmental entities and
nonprofit organizations, and service on a charter
school board may constitute a violation of canon
4C(2), or implicate the constitutional provision
prohibiting a judicial officer from holding public
office.
The case law regarding whether service on a
charter school board is a governmental position and
therefore prohibited by canon 4C(2), or is a public
office and therefore prohibited by the Constitution, is
unsettled. Given the grave risk of automatic

App.382
resignation from judicial office upon acceptance of a
charter school board position, if such a position is
ultimately found to be a public office, the committee
advises against service on a charter school board.
This opinion is advisory only (Cal. Rules of
Court, rule 9.80(a), (e); Cal. Com. Jud. Ethics Opns.,
Internal Operating Rules & Proc. (CJEO) rule 1(a),
(b)). It is based on facts and issues, or topics of
interest, presented to the California Supreme Court
Committee on Judicial Ethics Opinions in a request
for an opinion (Cal. Rules of Court, rule 9.80(i)(3);
CJEO rule 2(f), 6(c)), or on subjects deemed
appropriate by the committee (Cal. Rules of Court,
rule 9.80(i)(1); CJEO rule 6(a)).

App.383
APPENDIX P
Pertinent California Authorities
California Constitution Article VI Section 17 states:
A judge of a court of record may not
practice law and during the term for
which the judge was selected is
ineligible for public employment or
public office other than judicial
employment or judicial office, except a
judge of a court of record may accept a
part-time teaching position that is
outside the normal hours of his or her
judicial position and that does not
interfere with the regular performance
of his or her judicial duties while
holding office. A judge of a trial court of
record may, however, become eligible
for election to other public office by
taking a leave of absence without pay
prior to filing a declaration of
candidacy. Acceptance of the public
office is a resignation from the office of
judge.
A judicial officer may not receive fines or
fees for personal use.
A judicial officer may not earn
retirement service credit from a public

App.384
teaching position while holding judicial
office.
California Constitution Article VI Section 21 states:
On stipulation of the parties litigant the
court may order a cause to be tried by a
temporary judge who is a member of the
State Bar, sworn and empowered to act
until final determination of the cause.
Cal. Govt Code § 1770
An office becomes vacant on the
happening of the following events before
the expiration of the term:
(c)(1) His or her resignation, except as
provided in paragraph (2).
Cal. Govt. Code § 53200.3. -Judges, officers and
attachés of superiorand municipal courts as county
employees
For the limited purpose of the
application of this article, judges of the
superior and municipal courts and the
officers and attachés of said courts
whose salaries are paid either in whole
or in part from the salary fund of the
county are county employees and shall
be subject to the same or similar
obligations

App.385
and be granted the same or similar
employee benefits as are now required
or granted to employees of the county in
which the court of said judge, officer, or
attaché is located.
California Rules of Court, Rule 3.300 (a)
(a) Definition of "related case"
A pending civil case is related to
another pending civil case, or to a civil
case that was dismissed with or without
prejudice, or to a civil case that was
disposed of by judgment, if the cases:
(1) Involve the same parties and are based
on the same or similar claims;
(2) Arise from the same or substantially
identical transactions, incidents, or
events requiring the determination of
the same or substantially identical
questions of law or fact;
(3) Involve claims against, title to,
possession of, or damages to the same
property; or
(4) Are likely for other reasons to require
substantial duplication of judicial
resources if heard by different judges.

App.386
(Subd (a) adopted effective January 1,
2007.)
Los Angeles Superior Court Local Rule 3.22 - Case
Removed To Federal Court
If a case is removed to federal court, the
court will order a date, not earlier than
90 days from the date of removal, by
which counsel must file a Notice of
Status of Removed Case. If the case has
not remanded to the trial court by that
time, it will be recorded as completed
without the need to conduct a further
status conference.
(Rule 3.22 new and effective July 1,
2011)

